<html>
<title> - CULTURAL SOVEREIGNTY SERIES: MODERNIZING THE INDIAN ARTS AND CRAFTS ACT TO HONOR NATIVE IDENTITY AND EXPRESSION</title>
<body><pre>[Senate Hearing 115-75]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 115-75

CULTURAL SOVEREIGNTY SERIES: MODERNIZING THE INDIAN ARTS AND CRAFTS ACT 
                TO HONOR NATIVE IDENTITY AND EXPRESSION

=======================================================================

                              FIELD HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 7, 2017

                               __________

         Printed for the use of the Committee on Indian Affairs
         
         
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
 
 
 
 
                   U.S. GOVERNMENT PUBLISHING OFFICE                    
26-821 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f493849bb4978187809c919884da979b99da">[email&#160;protected]</a>  
 
 


                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JOHN McCAIN, Arizona                 JON TESTER, Montana,
LISA MURKOWSKI, Alaska               AL FRANKEN, Minnesota
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
MIKE CRAPO, Idaho                    CATHERINE CORTEZ MASTO, Nevada
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Field hearing held on July 7, 2017...............................     1
Statement of Senator Heinrich....................................     9
Statement of Senator Udall.......................................     1

                               Witnesses

Begay-Foss, Joyce, Director, Living Traditions Education Center, 
  Museum of Indian Arts and Culture..............................    40
    Prepared statement...........................................    42
Campbell, Hon. Ben Nighthorse, U.S. Senator (Retired) from 
  Colorado.......................................................     2
Martinez, Damon, Former U.S. Attorney, District of New Mexico, 
  U.S. Department of Justice.....................................    33
    Prepared statement...........................................    33
Maybee, Dallin, Chief Operating Officer, Southwestern Association 
  for Indian Arts (SWAIA)........................................    37
    Prepared statement...........................................    38
Pratt, Harvey, Cheyenne-Arapaho Master Artist....................    34
    Prepared statement...........................................    35
Shappert, Gretchen C.F., Assistant Director, Indian, Violent and 
  Cyber Crime, Executive Office of U.S. Attorneys, U.S. 
  Department of Justice..........................................    19
    Prepared statement...........................................    21
Stanton, Meredith, Director, Indian Arts and Crafts Board, U.S. 
  Department of the Interior.....................................    10
    Prepared statement...........................................    12
Woody, William, Chief, Office of Law Enforcement, U.S. Fish and 
  Wildlife Service, U.S. Department of the Interior..............    14
    Prepared statement...........................................    16

                                Appendix

Baker, Hon. Bill John, Principal Chief, Cherokee Nation, prepared 
  statement......................................................    74
Honanie, Hon. Herman G., Chairman, Hopi Tribe, prepared statement    70
Josey, Eloise, Executive Director, Alabama Indian Affairs 
  Commission, prepared statement.................................    69
M'Closkey, Ph.D., Kathy Adjunct Associate Professor/Freelance 
  Curator, Department of Sociology, Anthropology and Criminology, 
  University of Windsor, prepared statement......................    59
Molloy, John, President, ATADA, prepared statement...............    57
Montgomery, David S., Cherokee Nation of Oklahoma Tribal Member, 
  prepared statement.............................................    73
Montibon, Roy, CEO, Montibon Provenance International, Inc., 
  prepared statement.............................................    65
Ouellet, Kathi, President, Indian Arts and Crafts Association, 
  prepared statement.............................................    72
Riley, Kurt, Governor, Pueblo of Acoma, prepared statement.......    60
ShortCloud, Aiden, Tribal Artist, United Cherokee Aniyunwiya 
  Nation (UCAN), prepared statement..............................    67
Wright, Hon. James, Chief, Ma-Chis Lower Creek Indian Tribe and 
  Nancy Carnley, Vice Chief, joint prepared statement............    66

Additional letters and statements submitted for the record 



 
                     CULTURAL SOVEREIGNTY SERIES: 
MODERNIZING THE INDIAN ARTS AND CRAFTS ACT TO HONOR NATIVE IDENTITY AND 
                               EXPRESSION

                              ----------                              


                          FRIDAY, JULY 7, 2017


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                      Santa Fe, NM.
    The Committee met, pursuant to notice, at 10:17 A.M. in the 
Santa Fe Indian School gymnasium, Hon. Tom Udall, Vice 
Chairman of the Committee, presiding.

             OPENING STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Well, first of all, welcome to everybody 
today. It's wonderful to have you here, and it's wonderful to 
be at this location. I'll talk about that a little bit further 
on, but I want to have welcoming remarks by Roy Herrera, 
superintendent of the Santa Fe Indian School, who is our great 
and generous host today. Thank you very much, Roy, for being 
here and being our host.
    Mr. Herrera. Thank you, Senators and guests, for being here 
at the Santa Fe Indian School. My name is Roy Herrera. I'm the 
superintendent of the Santa Fe Indian School. On behalf of our 
board of directors, board of trustees, our students, our staff, 
I would like to welcome you to this campus, beautiful campus 
here in Santa Fe.
    Also, I want to thank you for being here today, and 
anything that we can do here at Santa Fe Indian School to 
increase your stay--better stay, we'd appreciate it.
    Thank you, Senators.
    Senator Heinrich. You're welcome.
    Senator Udall. Roy, thank you. Thank you so much for that 
welcome. And I would next like to recognize Marvin Trujillo. 
Marvin is a Marine Corps officer and Native veteran, and 
Marvin's going to recognize us in a prayer. Is that correct? 
Are you doing the Pledge of Allegiance?
    Marvin's doing the Pledge of Allegiance. We'll all rise and 
take our hats off.
    [Pledge of Allegiance recited.]
    Thank you, Marvin. Marvin, thank you for that, and thank 
you for your service to our country. We really appreciate that.
    And now we're going to stand again and recognize Santa Fe 
Indian School student Jude Chavarria from the Santa Clara 
Pueblo to offer the opening prayer.
    [Opening prayer recited.]
    Senator Udall. Thank you, Jude, so much, for that prayer. 
We really appreciate you giving that this morning.
    And good morning. I call this hearing to order. Let me 
first, before we start with our panelists and our opening 
statements, I'd like to acknowledge the former chairman of the 
Committee, this Committee, this Senate Indian Affairs 
Committee, Senator Ben Nighthorse Campbell. He just happens to 
be in town, Senator Campbell. He was here, traveled down, and 
he saw it in the paper that we were holding this hearing. He 
has a lot of experience on this issue, extensive knowledge as 
an author of the Act. But he's also a Native American jeweler 
himself. Look at that wonderful bolo tie he's wearing. I'm sure 
he's the one that created that.
    So Senator Campbell, I would ask you to come to the podium 
here. I wanted to have you give brief remarks before we did the 
opening and just talk to us about your experience and what you 
learned.
    So thank you for being here. As he's making it over to the 
podium, I just want to say, when I started serving in the 
House, Senator Campbell was a Republican; I was a Democrat. But 
we always had lunch once a month, and we tried to do everything 
we could to work through these issues, Western issues, which he 
cared very much about.
    So Senator Campbell, please. The microphone is yours.

          STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, 
              U.S. SENATOR (RETIRED) FROM COLORADO

    Senator Campbell. Thank you, Mr. Chairman. And by the way, 
thank you for complimenting me on my bolo. I didn't make it.
    It is from a good friend who unfortunately passed away from 
a motorcycle accident by the name of Singer, Tommy Singer. He 
was a Navajo, a well-known Navajo silversmith. He made this 
some years ago, and I cherish it because he was a good friend. 
But thank you for the compliment. And as you mention, I'm kinda 
here by accident, so I don't have any prepared statement.
    But, by the way, I'm Northern Cheyenne on my dad's side. 
Since the 1970s, my wife and I have lived on the Southern Ute 
reservation in Southwest Colorado right near Mesa Verde in some 
other historic and mystical places that you should come and 
visit.
    But I've been involved in jewelry ever since I was a boy, 
starting in 1945, if you can imagine that. That will tell you 
how old I am. In those days, we made everything from coins. 
We'd go down and put them on a railroad track. We were always 
on the wrong side of the track when we were kids and poor.
    We never made any money from them. We used to trade them 
for food. In those days, everybody was poor. Everybody. So it's 
not like I was the only one that kinda came up the hard way.
    But I was pretty active in helping revise the 1990 Act, and 
I'd like to maybe venture a little bit about the things I think 
were good about it and maybe things that still need to be 
addressed.
    Bill Richardson and I who was the last-elected Governor of 
New Mexico, as you know, but we were on the Committee of 
Interior and Insular Affairs when Senator Udall, Mo Udall, was 
the chairman. His dad, by the way, about that time was 
Secretary of Interior. So our families kinda go way back.
    Bill and I recognized some of the things that were 
happening with the plagiarism of American Indian art, 
particularly in jewelry. So the first bill that we tried to get 
introduced was a bill that would require all, quote/unquote, 
Indian jewelry made in China and Japan, and all over the place, 
it was made here to be stamped in the metal, point of origin 
stamped in the metal.
    As it is now, I think Federal regulations require a little 
paper stamp or something. Of course, that goes away the minute 
it gets off the boat. We couldn't get the muscle to pass that 
bill. And one of the reasons was, everybody was cheating. The 
big chains, the department store chains, the jewelry store 
chains, Natural Jewelers Association all came out against us on 
that bill, and we just couldn't get any traction on it. So we 
let it die. But it reinforced in my mind the need to do 
something.
    Well, in 1990 when the bill was reintroduced, that was the 
first reintroduction, I think, since it was passed in the 
1930s. It was clear that it needed to be addressed, because a 
lot of Indian people were being basically ripped off, by the 
things were being made in foreign countries.
    And so we did introduce that bill. I might mention a couple 
of complications we had in testimony, which you may get to. No. 
1 is defining who is Indian and who is not. It's easy to say, 
Well, if you're on a federally recognized roll, you must be 
Indian. But there are many Native Americans who are not.
    I remember there was two Hopi cousins who testified in our 
hearing, which was here in Santa Fe in those years, John Kyle 
and I did it, Senator Kyle and I, and they were blood cousins. 
One was on the roll and one was not. Because the Hopi, like the 
Seneca and several other tribes, the blood line has
    to come through the mother's side, not the father's side. 
And that creates a lot of ambiguity about who is--you know, how 
many are Indian or not.
    And the other way for people to get enrolled is through 
lineal descendancy. And so the Cherokee and several other 
tribes--it doesn't make any difference how thin the blood gets. 
If you're one one-thousandth Native blood and the other 999 
something else, under this Act, you qualify as Indian to make 
jewelry, if you're on that roll.
    But that still left a lot of people off altogether. There 
are over 50 tribes right now trying to be reintroduced that 
were terminated in the 1950s. Some tribes, who are very big, 
like the Lumbee of the Carolinas, I think there's over 50,000 
members. They are not a federally recognized tribe, but they 
are a State-recognized tribe. Creates another nuance about who 
is and who cannot make it.
    But the most outlandish story I heard was of a Japanese 
citizen who arrived--I won't mention the tribe--but arrived at 
a Northern Plains Tribe with an interpreter about a year and a 
half ago, and he went to the Tribal headquarters. And through 
the interpreter, he told the people in the tribal office, ``I'm 
a member of this tribe.''
    And of course, they said, ``What?''
    They didn't know what he was talking about. Well, he was. 
His father was in the military, stationed in Japan. He married 
a Japanese lady. They had a son. He put the son on the roll, 
and then they got a divorce. He came back to this country; she 
stayed in Japan.
    And so the youngster was born and raised in Japan, only 
speaks Japanese, went to Japanese schools. Had to have an 
interpreter when he visited the American reservation. But under 
existing law, he could be sitting in downtown Tokyo making 
authentic Indian-made rings.
    So kind of makes you scratch your head when somebody who is 
50 percent can't get on a roll, but somebody who has never been 
in this country can be making authentic Indian jewelry.
    There are many other cases like that. I just mention those 
as a couple of really extreme ones that we had to deal with.
    But one of the other weaknesses, and I might mention the 
strengths of the bill that we passed in 1990, before that bill 
was passed, there was no legal, civil way you could go after 
somebody that was cheating and trying to say he was a Navajo if 
he wasn't. We put a section in that bill, as I remember, it 
authorized the tribe to sue up to something like $200,000 for 
misinterpreting your identity as being one of their tribal 
members when you are not.
    And I think that section has been used a couple times, not 
against individuals, but against some of these big chains that 
are importing tons of so-called Indian jewelry. I think that's 
been enforced a couple times, and that's good. But the weakness 
of that section is--I'll give you an example.
    If you drive from Flagstaff up to the Grand Canyon, you'll 
see many little booths on the side of the road. Little elderly 
ladies trying to sell a little necklace or something to get a 
loaf of bread for Sunday. Around Four Corners monument, it's 
the same. What if you go there, and you find out that lady--
maybe she's very honest, ``Oh, I got this from a trader.''
    So she doesn't know where it came from, except a trader. 
But if you have a good eye, you know by looking at it if it's 
authentic, if it's plastic beads, if it's machine-stamped, so 
on like that. What are you going to do about it? What if she is 
cheating? What if she even knows she's cheating? Think of the 
expense, the prosecutorial investigative expense of the Federal 
agencies to enforce that section of the law.
    Nobody in their right mind is going to do that--at least 
not to my knowledge. They are not going to spend hundreds of 
thousands of dollars and all the stuff it takes to put some 
little old lady in jail, or fine her, because she's trying to 
make five bucks for a couple of loaves of bread. It just 
doesn't make sense. There's got to be some kind of an 
intermediate action that can be done that you can deal with 
that kind of a problem.
    Yet one of the other weaknesses I saw of that bill that we 
passed was, some things that are made, more than one person 
works on them. So if a person--say you have five people, and 
they worked on a bracelet. And one guy designs it, the next guy 
frames it up, the next guy solders it, the next guy puts some 
stones in it. What if one of the five is Indian and the other 
four are not? How do you define that piece of jewelry? Is it 
Indian-made or is it not? I don't know, but it's something that 
I saw as a weakness.
    I still judge. In fact, here in Santa Fe a couple years 
ago, my daughter and I, we judged contemporary jewelry. There's 
some very, very nice jewelry being turned out by some of our 
young people now. I'm an old timer; I learned how to do it all 
by hand. That's not the way things are done anymore. I mean, 
youngsters are very creative.
    And so there was a very fine belt that we judged first 
place. I didn't know how it was made, but it was a very, very 
nice-looking belt. Well, I found out that belt was done, as 
many young artists do now, it was designed on a CAD/CAM.
    So, okay, a Native person designed it on a CAD/CAM. The 
CAD/CAM was then--I don't remember if the word is ``slated,'' 
``networked,'' or ``integrated''--worked with a milling 
machine. And the milling machine cut out the pieces of jewelry. 
So you have to ask, ``Well, okay, a Native person pushed a 
button. Does that make it Indian-made?''
    Another person might say, ``Well, yeah, wait a minute. He 
really didn't touch the thing. It was all made kind of 
automated.'' And I don't know the answer to that. Maybe you can 
figure that one out and deal with it in new legislation.
    But these things keep arising. When I judged Santa Fe a 
couple years ago, I hadn't judged for a number of years before 
that. Now they have divisions for film, for clothing, design, 
all kinds of stuff that wasn't even in our realm of thinking in 
the old way of doing, Indian, quote/unquote, art. And I support 
that. It's given new avenues of expression for many of our 
Native youngsters, and I think that's great.
    But it also makes it more important for a committee like 
this to ask, ``How do you define who is what?''
    And so with that, let me just check a couple of my own 
notes of anything that I did forget. Probably not. Those are 
the main things I kinda wanted to bring to the Committee to 
testify.
    And with that, if you have any questions of me of what we 
did in the old days, I'd be glad to answer.
    Senator Udall. Senator Campbell, could you just say a word 
about prosecution? I know you picked the example of a lady 
trying to sell a bracelet. But if you have a big, like, some of 
these cases we've seen, international operations, you know, 
manufacturing, huge amounts of this stuff, representing it to 
be authentic Native American, bringing it over here from 
Philippines or China, wherever.
    Senator Campbell. And I have to say, Mr. Chairman, some of 
it's being sold right on the square here in Santa Fe. You know, 
being around it my whole life, I've got a pretty good eye about 
what is authentic and what is not. The Native people, when they 
make it themselves handmade, there's a weight and a heft and a 
design to it that you can almost qualify, once you've been 
around it most of your life as I have.
    But once the money started coming in for Indian art, which 
is basically to say Indian jewelry in the late 1970s, we did 
see people from Japan, from China, from some of the Gulf 
countries, moving in literally, a number of them went out to 
the reservations themselves, to the pueblos, to Zuni and other 
tribes, and tried to tie up contracts with the craftsmen where 
they couldn't sell to anybody except them.
    And that was not enough to have it done there. So then they 
actually started having it made overseas and importing it over 
into this country under the guise of being Indian-made. That is 
still going on. And the Mayor Becerra, I believe his name is, 
in Santa Fe, he's really taken the lead in trying to bring that 
to the forefront in the market here in Santa Fe.
    But I think maybe one of the key things in this whole scene 
is, if you are an unsuspecting buyer, the best thing you can do 
is make sure you're dealing with somebody who can authenticate, 
and they can tell you exactly who made it and give you the 
address, if you want to go talk to them themself.
    And if they can't do that, then you gotta say, ``Well, I 
don't know where the heck that came from.'' Most of the people 
that I think that belong to, say, the Indian Arts and Crafts 
Board, Indian Arts and Crafts Association, they subscribe to a 
ethics--code of ethics, and I think they're pretty darn good in 
trying to represent exactly what it is.
    But as I said, when you're going through four or five hands 
and four or five people working on it, I don't know. I still 
get pieces back, or I'll get parts of things, and somebody will 
come to me and say, ``Ben, I've got this stone. I know it's 
really valuable because my grandmother owned it.''
    And I've just been around turquoise my whole darn life. And 
I look at it, and it looks like it's a piece of Coca-Cola 
bottle. And I don't want to hurt her feelings, so I don't even 
work on it. But I don't even want to tell her how bad the thing 
is, because I don't want to hurt her feelings, because a lot of 
people are just that unaware about what authentic is, just what 
is real Indian turquoise.
    By the way, for the uninitiated, one of easiest ways you 
can do it is with a hat pin or a needle. If you're unsure of 
the stone, and you heat that needle, like, red-hot and touch 
the stone, if nothing happens, that's real. But if a little bit 
of smoke comes up or a little smell like plastic, it ain't 
real. That's the layman's test how you can test to see if the 
turquoise is the real thing.
    And if there's anything I can answer, Mr. Chairman, I will. 
But I commend you and Senator Heinrich on doing this hearing. 
It's well needed.
    Senator Udall. Well, thank you so much. We know you're busy 
on your trip down here and for taking a few minutes and sharing 
your thoughts and ideas with us. We hope you will think a 
little bit more about this and maybe submit written statements, 
as I'm going to tell everybody in the audience they have the 
ability to do, too.
    So let's thank Senator Campbell.
    Okay. We're going to start with our opening statements 
here, and then we'll go to the witnesses.
    First of all, let me just welcome everybody to Indian 
Country and to thank everyone who made it out to Santa Fe. Some 
people, I think, traveled all the way from Washington, and so 
we really appreciate your being here. I very much look forward 
to today's discussion, exploring how to modernize the Indian 
Arts and Crafts Act. It's long overdue, and I'm looking forward 
to a very productive day here.
    Today's hearing is an official Senate committee hearing, 
the Senate Committee on Indian Affairs, and this is a field 
hearing what we're doing. The format today is the same as the 
format we use for hearings in Washington, D.C. The Committee 
will hear testimony from two panels of witnesses and Committee 
members will ask the witnesses questions.
    I want to thank all the witnesses who have traveled here 
today to help us understand these issues, these very, very 
important issues to Indian Country, and figure out how we can 
do better to protect the cultural integrity of Native American 
arts and crafts. So today's Congressional hearing is not a town 
hall. I want to emphasize that. It's not a town hall, for 
example, where folks speak out from the audience and ask 
questions. We're here to take testimony, official testimony, 
with a court reporter, from our witnesses.
    However, we want to hear from everyone on this critical 
issue before us. So you're invited and are most welcome to 
submit your comments and ideas. And to do that, you can e-mail 
them to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4e3a2b3d3a27232120370e07202a272f20601d2b202f3a2b6029213860">[email&#160;protected]</a>
    That's <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5f2b3a2c2b36323031261f16313b363e31710c3a313e2b3a71383029">[email&#160;protected]</a>, and my staff members 
are here with badges on, and so you can get that from them as 
you leave, too.
    And Senator Heinrich's staff members are also here. We will 
leave the official record open for two weeks until July 21st, 
and I really encourage everyone to submit comments based on 
what you've heard here. And also, please feel free to talk to 
my staff, Senator Heinrich's staff, after this hearing with any 
questions. They're seated behind me. Many of these folks behind 
me are official Senate Indian Affairs staffers that have come 
out from Washington, and they're wearing staff ID badges. So 
you'll be able to identify them.
    And then let me--first of all, I already thanked Roy 
Herrera, but I want to thank the Santa Fe Indian School again 
for hosting us, and Superintendent, for your very thoughtful 
opening remarks. Santa Fe Indian School is in good hands with 
Superintendent Herrera.
    And I want to thank Jude for that beautiful opening prayer. 
You're one of the future leaders of Indian Country, and I'm 
glad you're here to witness the legislative process in action. 
We sometimes call that in the Senate, and Senator Campbell 
calls it sausage-making.
    But the Santa Fe Indian School was established in 1890 to 
educate Native American youth from tribes throughout the 
Southwest. It was established during the boarding-school era, a 
shameful period when the Federal government removed Native 
children from their communities and attempted to assimilate 
them into Anglo society; among other things, prohibiting 
children from speaking their Native languages and practicing 
their beliefs.
    Sitting here today on the grounds of this tribally 
controlled school located on pueblo land, it's clear to see--
and I'm proud to say--that our nation has made great strides 
from its disastrous policies of the past. Santa Fe Indian 
School and other Native American--other Native schools exercise 
educational sovereignty by promoting Native languages and 
affirming cultural identity by supporting Native students' 
cultural and traditional beliefs.
    But we still need to do much more to protect cultural 
sovereignty and do that for now and for the future. That's why 
I chose Santa Fe Indian School as the location for this 
hearing, to highlight the gains we've made and the work that 
still needs to be done.
    As the Vice Chair of the Senate Committee on Indian 
Affairs, I intend to hold a series of hearings right here in 
New Mexico that focus on supporting cultural identity to make 
sure future generations of Native Americans have what elders 
have; pride in Native American culture and a way to practice 
time-honored traditions of craftsmanship while maintaining a 
livelihood.
    We've got a serious problem on our hands as we heard from 
Senator Campbell. Imitation Indian arts and crafts flooding the 
market in places like Gallup and Albuquerque, Phoenix, and 
right here in Santa Fe.
    A network of swindlers are making millions of dollars off 
the backs of Native Americans. This situation is wholly 
unacceptable. The mass production of imitation Native American 
jewelry and other crafts destabilizes the Indian art market, 
forcing Native American artisans to drop prices to keep up with 
wholesale prices of so-called Native American jewelry that is 
actually fake. Artificially low prices then force Native 
Americans to quit their crafts, crafts that often have been 
passed down over many generations.
    Arts and crafts are a major economic driver for Indian 
Country. Fake art drives down prices, forces Native Americans 
to quit their crafts and devalues Native American art. We want 
this to stop. We want to see Native Americans reap the well-
earned benefits of their art.
    Santa Fe is at the epicenter of the problem. Our city is 
driven by tourism, and many tourists come here to experience 
Native American culture and to buy Native American arts and 
crafts. But many unknowingly buy imitation products, fueling 
the black market, yet we have hardly talked about this problem.
    So this hearing is important for a number of reasons. Most 
importantly, to ensure that the cultural integrity of authentic 
Indian arts and crafts, and by looking for ways to improve 
enforcement of the Indian Arts and Crafts Act. We need to do 
more to address this problem.
    I'm encouraged by the recent efforts of the U.S. Fish and 
Wildlife Service and the U.S. Attorneys' Office. For example, 
in the last couple of years, the U.S. Attorneys' Office charged 
three New Mexicans with violating the Indian Arts and Crafts 
Act by importing and fraudulently selling foreign-made jewelry 
as Native American-made. That was an international scheme that 
you've heard a little bit about already.
    And in February of this year, the U.S. Attorneys' Office 
indicted several more people, including one person from the 
earlier case, with violating the Act for the same types of 
crimes.
    Appropriation of Native American art is not a new issue. 
This has been happening for decades. As Attorney General in 
1996, I sued these scammers for violating the State's Unfair 
Businesses Practice Act.
    So during today's hearing, we will explore how to improve 
enforcement efforts. Another goal of this hearing is to build 
consumer awareness of the problem so the consumers can make 
informed decisions in buying Native American arts and crafts. 
The fact is, consumers want to purchase goods that are 
authentic.
    So again, thank you to all the witnesses for being here 
today, and now I'd like to turn to my good friend and 
colleague, Senator Heinrich, for his opening remarks. Senator 
Heinrich has been a very strong advocate for Native Americans. 
He has several pieces of legislation that he's already passed 
in his Congressional career, and I look forward to continuing 
to work with him on the very important issues that will be 
outlined today.
    Senator Heinrich.

              STATEMENT OF HON. MARTIN HEINRICH, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Heinrich. Thank you, Mr. Vice Chairman. And I want 
to start as well by thanking as well the Santa Fe Indian School 
for hosting us today. And I really want to thank Senator Udall 
for shining a light on this issue. We are very lucky to have 
him as the vice chair of this Committee. And this new look at 
what we can do to update this law is incredibly important.
    I want to welcome and thank Senator Ben Nighthorse Campbell 
who worked on this bill back in the day. It's really important 
that we hear from people who have your level of expertise. So I 
very much appreciate you being here today. And I want to thank 
the Senate Indian Affairs Committee staff for all of their hard 
work in putting this together.
    Welcome to our panelists. We have an incredible panel of 
folks to offer testimony here today. And I want to take just a 
moment and thank the Santa Fe Police Department and the BIA law 
enforcement officers who are with us here today.
    In New Mexico, we all recognize the incredible beauty and 
worth of American Indian art. From the art left long ago on 
canyon walls in places like Chaco Canyon, and the Gila cliff 
dwellings, to traditional and modern art masterpieces created 
by Native American artists to this day.
    Here in Santa Fe, some of our nation's leading Native 
artists are trained in the Santa Fe Indian School and at the 
Institute of American Arts. And more than a thousand Native 
artists gather here every August to display and sell their art 
at the annual Santa Fe Indian Market. The sale of Native 
American art and craftwork is a tremendous economic driver for 
tribal communities in our state and throughout Indian Country 
and the West.
    New Mexicans understand the value of supporting true tribal 
artists and recognize the dangers posed by counterfeit items or 
items claiming to be Native-produced. For centuries, the United 
States used cultural appropriation as a tool of colonization. 
Today when non-Indians sell jewelry or pottery as Indian art, 
they are denying the right of tribal communities to define and 
control what tribal art is. This cultural appropriation removes 
Native art in traditions from their rightful context and denies 
the right of tribal communities to maintain sovereignty over 
their history and their culture.
    When tribal communities are denied ownership of their own 
cultures, they lose the ability to maintain their language, 
their beliefs; literally, their way of life. The Indian Arts 
and Crafts Act of 1990 is essentially a truth-in-advertising 
law that prohibits misrepresentation or falsely displaying arts 
or crafts as Indian-produced.
    We're here today to learn more about whether the law is 
working and what steps we need to take to make sure that all 
products marketed are marketed truthfully so that Native 
artists can thrive in an ethical marketplace.
    I would also like to quickly touch on another important 
issue in New Mexico, which I've been proud to work with Senator 
Udall and the tribes across New Mexico with. Many tribes in New 
Mexico have experienced people literally stealing and 
trafficking objects that are not art but are essential 
religious and cultural patrimony. When someone steals and sells 
a tribe's cultural patrimony, they are stealing that tribe's 
traditions and identity.
    Last month I was proud to reintroduce the bipartisan 
Safeguard Tribal Objects and Patrimony or STOP Act, a bill to 
prohibit export of sacred Native American items. And that 
increases penalties for stealing and illegally trafficking 
tribal cultural patrimony.
    I announced the bill's reintroduction during a meeting with 
the students from the Santa Fe Indian School Leadership 
Institute Summer Policy Academy in my office in Washington. And 
I was incredibly moved by the unique perspectives and personal 
stories that those students offered. They talked a lot about 
the responsibility that they felt to preserve their cultural 
heritage and fulfill their sacred trust as generations before 
them have.
    That's what's at the heart of today's hearing for me. And 
with that, I want to thank all of you again, and I look forward 
to hearing from our two panels.
    Senator Udall. Thank you, Senator Heinrich so much, and 
thank you for your good, hard work on the STOP Act, which is 
for the protection of cultural patrimony.
    We will now hear from our first panel. Mr. William Woody, 
Chief of Law Enforcement at the U.S. Fish and Wildlife Service, 
a bureau of the Department of Interior. Miss Meredith Stanton, 
Director of the Indian Arts and Crafts Board, an agency of the 
U.S. Department of Interior, and Miss Gretchen Shappert, 
Assistant Director, Executive Office of the U.S. Attorneys at 
the U.S. Department of Justice.
    I want to remind the witnesses that your full written 
testimony will be made a part of the official hearing record. 
Please keep your statements to five minutes so that we may have 
time for questions. And I look forward to hearing your 
testimony, beginning with Miss Stanton.
    Thank you very much and please proceed.

STATEMENT OF MEREDITH STANTON, DIRECTOR, INDIAN ARTS AND CRAFTS 
                 BOARD, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Ms. Stanton. Thank you. Good morning, Vice Chairman Udall 
and Senator Heinrich. I would like to also start the testimony 
here today by thanking Chairman Hoeven for holding this 
hearing.
    I am Meredith Stanton, Director of the Indian Arts and 
Crafts Board. I've worked for the Board for almost 40 years and 
have been an enrolled member of the Delaware Nation of 
Oklahoma. I appreciate this opportunity to testify before you 
today about the Board. I work to promote and protect authentic 
Indian art, artists, and the Indian Arts and Crafts Act.
    The Board was established by Congress in 1935 and operates 
with an annual budget of approximately 1.4 million, a staff of 
nine employees, and one detailee stationed here in New Mexico. 
The Board is the only Federal agency that is exclusively 
concerned with the economic benefits of Indian cultural 
development. Sales of Indian art exceed a billion dollars each 
year.
    With the very broad economic development and cultural 
preservation mission, we operate three museums; one in South 
Dakota, one in Montana, and one in Oklahoma to promote emerging 
Indian artists. Marketing seminars and publications are 
important components of our services.
    For example, our new brochure promotes authentic Navajo 
weaving to help offset the weavers' stiff competition from 
counterfeit Navajo rugs. The arts are at the very heart of our 
ancestral and contemporary Indian society and culture. The New 
Mexico, and throughout the Southwest, Indian art production and 
sales are critically important to the economic stability and 
viability of Indian artists, communities, and tribes.
    In response to the growing sales of counterfeit Indian 
products, Congress passed the Indian Arts and Crafts Act of 
1990. A top priority of the Board, the Act is a truth-in-
marketing law to combat the sale of counterfeit Indian art and 
to protect the Indian artists' economic livelihood. The Act 
prohibits the marketing of art as Indian-made if it is not made 
by an Indian as defined by the Act.
    Each day Indian economic livelihoods are eroded by the 
fierce competition of lower-priced, imported counterfeit Indian 
products. High-priced knockoffs of one-of-a-kind master Indian 
jewelry also contribute to the erosion of consumer confidence 
in the Indian art market nationwide.
    To help remedy the problem, the Board promotes authentic 
Indian art and art protections through participation in events, 
including the Santa Fe Indian Market, and consumer education, 
such as our collaborations with the New Mexico Attorney 
General's Office in a brochure promoting authentic New Mexico 
Indian art. The Board distributes this brochure at the Sunport, 
visitors' centers, and Indian art businesses and markets 
throughout the state.
    The Act designated the FBI to investigate Act cases. 
However, the Indian Arts and Crafts Enforcement Act of 2010, 
which then Senator Heinrich was a cosponsor, allows now all 
Federal law enforcement officers to conduct Act investigations. 
This led to the 2012 agreement between the Board and the U.S. 
Fish and Wildlife Service.
    Since then, the scope and depth of Act investigations have 
increased exponentially. While complaints and violations have 
often occurred primarily in the Southwest and particularly here 
in New Mexico, the scope of the problem is nationwide.
    Since 1996, the Board has received over 1700 complaints of 
alleged Act violations, of which 1300 have been addressed to 
date. We have been--we've had 22 Federal prosecutions in New 
Mexico, Alaska, Utah, Michigan, South Dakota, and Missouri.
    The Board has also worked with the Office of the State 
Attorney General here in New Mexico on six cases involving the 
misrepresentation of Indian art. Our sweeping Service Act 
investigation to date involves a large-scale conspiracy to 
import and fraudulently sell Filipino-made jewelry as Indian-
made.
    Chief Woody will discuss that further in his testimony.
    The Act has its challenges, and a tremendous amount of work 
remains to dismantle these counterfeit Indian art networks, 
certainly in New Mexico and nationwide. These counterfeits 
hinder the passing down from one generation to the next of 
important Indian traditions, skills, and heritage--true 
American treasures.
    The Department is committed to protecting Indian artists 
from counterfeits and looks forward to working with our 
Congressional colleagues to ensure the goals of the Act are 
met.
    Thank you, Senators Udall and Heinrich, for your interest 
in supporting and protecting these true American treasures.
    [The prepared statement of Ms. Stanton follows:]

   Prepared Statement of Meredith Stanton, Director, Indian Arts and 
             Crafts Board, U.S. Department of the Interior
Introduction
    Good Morning Vice Chairman Udall and Senator Heinrich. I am 
Meridith Stanton, Director of the Indian Arts and Crafts Board, within 
the Department of the Interior, which I have served for almost 40 
years. I am also an enrolled member of the Delaware Nation of Oklahoma. 
I appreciate this opportunity to testify before you today about the 
Indian Arts and Crafts Board, our work to promote and protect authentic 
American and Indian artists, artisans, and their creative work, and the 
Indian Arts and Crafts Act of 1990 (Public Law 101-644), as amended.
    The Indian Arts and Crafts Board (Board) was created by Congress in 
1935 to promote American Indian and Alaska Native economic development 
through the expansion of the Indian arts and crafts market. The Board 
is the only Federal agency that is consistently and exclusively 
concerned with economic benefits of Native American cultural 
development. We have a current staff of nine full-time employees and 
one detailee who is stationed in New Mexico. The Board's policies are 
determined by the Board of Commissioners, who are appointed by the 
Secretary of the Interior and serve without compensation. The Board has 
a very broad economic development and cultural preservation mission, 
and operates three Indian museums in South Dakota, Montana, and 
Oklahoma. The museum programs include special exhibitions to promote 
emerging Indian artists, Indian Youth Art Competitions and art classes 
to encourage the development of future Indian master artists, and 
cultural programming to educate consumers about the inherent value of 
authentic Indian art.
    Business development, marketing, and Intellectual Property Rights 
Protection workshops, seminars, and publications for Indian artists, 
businesses, and consumers are also important components of the Board's 
services. For example, the Board and New Mexico State Attorney 
General's office collaborated on a brochure to promote New Mexico 
Indian art. This brochure is distributed at the Board's consumer 
education booth at each annual Santa Fe Indian Market, at the 
Albuquerque airport visitor kiosk, New Mexico visitor centers, and 
Indian art businesses and markets throughout the State. The Board also 
recently prepared a brochure it will distribute nationwide to promote 
authentic Navajo weaving and to help offset the challenges weavers are 
facing due to competition from Navajo style and counterfeit Navajo 
weavings.
The Indian Arts and Crafts Act
    In response to growing sales of counterfeit Indian products in the 
billion-dollar Indian art market, Congress passed the Indian Arts and 
Crafts Act of 1990. The Act is a truth-in-advertising law that 
authorized the Board to refer complaints of counterfeit Indian Goods to 
the Federal Bureau of Investigation (FBI). It provides criminal and 
civil penalties for marketing products as ``Indian made'' when such 
products are not made by Indians, as defined by the Act. Under the Act, 
work marketed as authentic Indian art and craftwork must be produced by 
an artist or artisan who is an enrolled member of a federally or 
officially State recognized Indian tribe, or an Indian Artisan 
certified by the tribe of their direct descent.
    Implementing and enforcing the Act is a top priority for the Board. 
Enforcement of the Act protects Native American artists and 
craftspeople, businesses, and Tribes, as well as consumers. It also 
protects the integrity of Native American cultural heritage and the 
economic self-reliance of Tribes and their members. The Act provides 
critical economic benefits for Native American cultural development by 
recognizing that forgery and fraudulent Indian arts and crafts diminish 
the livelihood of Native American artists and craftspeople by lowering 
both market prices and standards.
Scope of the Problem
    In 2011, a Government Accountability Act report \1\ found that 
``The sale of goods falsely represented as authentic Indian-produced 
arts and crafts has been a persistent and potentially growing problem 
in the United States.'' It continued that ``Misrepresentation by sale 
of unauthentic products created by non-Indians, including imports from 
foreign countries, is a matter of great concern to Indian artists, who 
have to reduce their prices or lose sales because of competition from 
lower priced imitation products.''
---------------------------------------------------------------------------
    \1\ INDIAN ARTS AND CRAFTS: Size of Market and Extent of 
Misrepresentation Are Unknown GAO-11-432: Published: Apr 28, 2011. 
Publicly Released: Apr 28, 2011. http://www.gao.gov/products/GAO-11-432
---------------------------------------------------------------------------
    While complaints and violations have often occurred primarily in 
the Southwest, particularly in New Mexico, due to the Indian art 
industry's concentration in this region, the scope of the problem is 
nationwide. Since 1996, the Board has received over 1,700 complaints of 
alleged Act violations, of which 1,295 have been closed and 413 remain 
open investigations. Many of these were handled administratively, 
through letters informing businesses and individuals about the Act and 
Act compliance. Others were referred for investigation to federal, and 
at times State, law enforcement authorities, depending on the nature of 
the complaint and jurisdiction. To date, there have been 22 federal 
prosecutions in New Mexico, Alaska, Utah, South Dakota, and Missouri. 
The Board has also worked with the Office of the New Mexico Attorney 
General on five cases involving the misrepresentation of Indian art.
Working with Our Partners
    The Indian Arts and Crafts Enforcement Act of 2010 authorized all 
federal law enforcement officers, not just the FBI, to conduct 
investigations and revised the Act's criminal penalties. Following 
passage of this legislation, in 2012 the Board entered into a 
memorandum of agreement and reimbursable support agreement with the 
U.S. Fish and Wildlife Service (Service) for law enforcement agents to 
work Act cases.
    In the years leading up to the agreement with the Service, the 
Board collected evidence of fraudulent activity in the Southwest. That 
advance work was followed by an extensive investigation led by the 
Service, Operation Al Zuni, the most sweeping and successful 
investigation and enforcement of the Act to date.
    The Board works with many tribes, state and local agencies and 
federal partners to enforce the Act. These collaborations significantly 
strengthen the Board's ability to successfully address counterfeit 
Indian art and craftwork. The Board has successfully worked cases and 
taken other actions to remedy violations of the law, such as those 
involving the fraudulent marketing of rugs as Navajo, jewelry as Hopi, 
jewelry as Apache, and art as Cherokee, as well as a settlement with 
Pendleton Woolen Mills regarding their use of Indian names to market 
non-Indian products.
Conclusion
    For the highly talented, dedicated, and hard-working Indian artists 
and artisans, Indian art is more than an income producing activity. 
Traditional Indian art and craftwork, and evolving and cutting edge 
Indian art, respectively, are at the very heart of Indian ancestral and 
contemporary society and culture.
    There are challenges to achieving the goals of the Act and there 
remains a tremendous amount of work to dismantle these counterfeit 
Indian art networks certainly in New Mexico, and nationwide. The Board 
will continue to pursue robust Act enforcement in partnership with the 
Service. We are committed to protecting Indian artists from competition 
with counterfeit Indian art, which hinders the passing down from one 
generation to the next of important Indian traditions, heritage, and 
skills--true American treasures. The Department looks forward to 
working with our Congressional colleagues to ensure the goals of the 
Act are met and to preserve the cultures, heritages and self-
determination of tribes and Alaska Native communities.
    Thank you, Senators Udall and Heinrich, for your interest in 
supporting and protecting Indian artists and Indian economies through 
the creative arts. I am pleased to answer any questions you may have.

    Senator Udall. Miss Stanton, thank you so much for your 
testimony.
    And Chief Woody, please proceed.

       STATEMENT OF WILLIAM WOODY, CHIEF, OFFICE OF LAW 
       ENFORCEMENT, U.S. FISH AND WILDLIFE SERVICE, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Woody. Good afternoon, Vice Chairman Udall and Senator 
Heinrich. I want to start by thanking you and Chairman Hoeven 
for holding this hearing in support.
    I am William Woody. I'm Chief of Law Enforcement for the 
U.S. Fish and Wildlife Service in the Department of Interior. 
And I appreciate the opportunity to testify before you today 
regarding our collaborative work with the Indian Arts and 
Crafts Board to enforce the Indian Arts and Crafts Act.
    The protection of tribal nations is of the utmost 
importance to the Department of Interior in safeguarding tribal 
arts and crafts integral to that mission and vital to the 
economic livelihoods and culture of tribal nations. The sale of 
Native American arts and crafts by individual producers, 
businesses, tribal-run operations, and other members of overall 
Native Americans, as Meredith states, is over a billion dollars 
a year.
    Criminal investigations, both nationally and 
internationally and to individuals and businesses making 
fraudulent Native American arts and crafts, and the sale or 
offer for sale of those counterfeit items in the United States 
are complex, requiring technical expertise, significant long-
term investigative capability, and an international presence.
    Since 2012, the services maintained the memorandum of 
agreement with the Board to serve as the enforcement arm of the 
department to lead criminal investigations and allegations of 
violations of the Act. Given cases our agents have been working 
on and additional information we have received from the last 
several years, it is fair to say the scope of the problem is 
far larger than expected. Investigative activity thus far has 
been extensive and far-reaching, taking place not only here in 
New Mexico, Arizona, and Texas, California and Colorado, 
Alaska, Nevada, Hawaii.
    I have a few slides I'd like to show you to illustrate the 
extent and complexity of the issue. But I think you need to 
understand one thing. Being able to prove many of these cases 
is very complex, and getting a conviction beyond a reasonable 
doubt is--it isn't based on just hunches or assumptions, too.
    So Operation Al Zuni involves fraudulent Native American 
jewelry sales under the Act. During the course of this 
operation, we uncovered two organized networks who had been a 
Native American jewelry business for years and who perpetuated 
an international scheme to illegally sell Filipino-made jewelry 
as authentic Native American-made in the U.S.
    Agents were able to access these manufacturing facilities 
in the Philippines, document and track shipments of counterfeit 
jewelry as they made their way to the U.S., and then traced 
them to retail locations where they were being sold as 
authentic Native American-made.
    First slide.
    This surveillance photo shows a shipment of fraudulent 
jewelry from the Philippines. Prior to this photo being taken, 
there was a significant amount of work done to ID the source 
and track the shipment to where this UPS driver is delivering 
it.
    Slide two, please.
    This shipment was tracked by our agents to a UPS hub, 
detained, opened, and inspected, and allowed to continue to its 
destination.
    Third slide, please. This shows some of the jewelry from 
just one of those boxes. So it is counterfeit jewelry from one 
of the boxes. There are--if you look at these bags there's 50 
to 100 items, whether they be rings, necklaces, pendants, 
bracelets, mass produced.
    Slide four, please.
    This is a more detailed photo of the items in the shipment. 
The photo on the left shows an original Native American-made 
pendant that was sent to the Philippines to be reproduced. The 
image on the right is one of the replicas that was found in the 
intercepted shipment. They look nearly identical. If you'll 
note the one on the right, look at the price tag up in the 
corner of that particular items. You've got a $90 price tag on 
that.
    I think that particular item is being made pennies on the 
dollar, if you will. So that's really--I mean, if you picture--
I guess the best term I would give it is, these factories that 
we see, it's pretty much like a sweat shop. Which you look at 
is, there's 40 to 50 people in the shop--and I'll just use this 
as an example.
    They have this sitting in front of them, and they're making 
this particular same item, just mass-produced. So if you opened 
one of those bags previously, what you end up seeing is all the 
same item. And the only way to get this, as I stated, these are 
very complex investigations. Following that all the way from 
the beginning, in this case, the Philippines, all the way to 
the sale, is complex and takes a long time.
    Slide five, please.
    This counterfeit ring was intercepted and marked prior to 
the delivery of the shipment to a retail location.
    Slide six. This is really the last step in the process. Our 
agents purchased this ring and other counterfeit jewelry being 
sold by a retailer, labeled as authentic Native American-made 
by a particular artist.
    Slide seven.
    Slide seven--while she's working on that, we ultimately 
executed 16 search warrants and seized over 200,000 pieces of 
jewelry, much of it as shown in the photo, which is not coming 
up.
    Counterfeit jewelry that was imported in this case by the 
business has an approximate declared value of $11 million. That 
was their declared direct value of the importers bringing it 
in.
    However, the prices that they would receive for these items 
when they were sold as authentic Native American, either 
wholesale or retail, is substantially higher. To date, six of 
the subjects in this case have been indicted and are awaiting 
trial. In addition to charges of violating the Act, Federal 
prosecutors have also charged the defendants with violations, 
Federal fraudulent importation, money laundering, wire fraud, 
and mail fraud.
    The service is committed to continuing this important work 
in partnership with all Federal, state, tribal, and county 
offices, and the Board, and looks forward to working with you 
to raise awareness on this issue and improve implementation of 
the Indian Arts and Crafts Board.
    If you look at in this slide that just comes up, think 
about this, all of those boxes, everything you see in there, is 
just from one case. As I stated, just talking with the agents--
and I had a chance to talk to them yesterday on some of the 
projects they're working on--this is one. There's many more.
    It is, as Mr. Ben Nighthorse Campbell talked about, the 
folks on the roadside, what you've got is, you've got some 
significant stuff still coming into this country that needs to 
be dealt with.
    And again, we are committed to this important work, and we 
look forward to working with all the agencies and senators. I 
want to thank you for the opportunity to testify today, and I 
look forward to taking your questions. Thank you.
    [The prepared statement of Mr. Woody follows:]

Prepared Statement of William Woody, Chief, Office of Law Enforcement, 
    U.S. Fish and Wildlife Service, U.S. Department of the Interior
Introduction
    Good afternoon Vice Chairman Udall and Senator Heinrich. I am 
William Woody, Chief of the Office of Law Enforcement for the U.S. Fish 
and Wildlife Service (Service), in the Department of the Interior. I 
appreciate the opportunity to testify before you today on our work to 
enforce the Indian Arts and Crafts Act (Act) and address fraudulent 
Native American art and crafts in the United States.
    The Office of Law Enforcement's primary responsibility is to focus 
on significant threats to wildlife resources--illegal trade, unlawful 
commercial exploitation, habitat destruction, and environmental 
hazards. The Office of Law Enforcement investigates wildlife crimes; 
regulates wildlife trade; helps Americans understand and comply with 
wildlife protection laws; and works in partnership with international, 
Federal, State, and tribal counterparts to conserve wildlife resources.
    The Service's Office of Law Enforcement has a workforce comprised 
of special agents, conservation law enforcement officers, and wildlife 
inspectors stationed at ports of entry, regional locations, and field 
offices across the country, as well as attaches stationed at various 
embassies around the world. When fully staffed, we have 140 wildlife 
inspectors and 261 special agents. Our wildlife inspectors work at 
major ports of entry across the nation to facilitate legal trade in 
wildlife and wildlife products and check inbound and outbound shipments 
for illegal wildlife and wildlife products. Service inspectors also 
utilize seven canine detector dogs to facilitate cargo searches for 
illegal wildlife and wildlife products. Our special agents conduct 
complex investigations to detect and document international illegal 
wildlife trafficking, unlawful destruction and harm of endangered 
species and other trust species such as migratory birds, and crimes 
involving the unlawful exploitation of native and foreign species in 
interstate commerce. Our International Attache program places special 
agents in U.S. embassies to investigate international wildlife 
trafficking, share and coordinate intelligence, expand training 
programs, provide technical assistance, and work collaboratively with 
partners in the regions they are stationed. Attache locations include: 
Bangkok, Thailand; Dar es Salaam, Tanzania; Gaborone, Botswana; Lima, 
Peru; Beijing, China; and Libreville, Gabon.
    With this technical expertise, investigative capability, and 
international presence, the Service is uniquely suited within the 
Department of Interior to enforce the Act. The protection of tribal 
nations is of the utmost importance to the Department, and safeguarding 
tribal art and crafts is integral to that mission and vital to the 
livelihoods and culture of tribal nations. The Service is committed to 
fulfilling this role on behalf of the Department and in partnership 
with the Indian Arts and Crafts Board (Board).
    Since 2012, the Service has maintained a Memoranda of Agreement 
with the Board to serve as the enforcement arm of the Department and 
lead criminal investigations into alleged violations of the Act. The 
Board provides funding to the Service to cover the salaries of assigned 
agents, their travel, supplies, equipment, and other needs. These 
agents are specifically assigned to work cases related to the Act and 
have led our investigations to date.
Operation Al Zuni
    Operation Al Zuni is a multi-year investigation that centered 
around two organized networks who have been in the Native American 
jewelry business for years, and who perpetrated an international scheme 
to illegally sell Filipino-made jewelry as authentic Native-American-
made. Through our investigations, we learned that members of both 
networks established and operated manufacturing facilities in the 
Philippines for the purpose of replicating and producing Native 
American-style jewelry and crafts. The items were then exported to 
business associates in the United States and sold in stores in 
Albuquerque, Gallup, Santa Fe, and Zuni, NM, and Calistoga, CA as 
genuine Native American items. The businesses imported Native American-
style jewelry with an approximate declared value of $11 million. 
However, the networks were able to turn a large profit at the retail 
level on these items, as the value of this jewelry sold as authentic 
Native American-made items is substantially higher.
    Operation Al Zuni is the largest investigation to date into 
fraudulent Native American jewelry sales under the Act. Over a period 
of four years, special agents based in the Southwest built the case by 
collaborating with the Federal Bureau of Investigation (FBI), Homeland 
Security Investigations (HSI), and our own attache in Bangkok to visit 
the manufacturing facilities in the Philippines. Wildlife inspectors 
and special agents would document and mark the fraudulent jewelry, 
track the shipment to the final destination in the U.S., and follow it 
to its distribution and ultimate display in retail locations in New 
Mexico and California. Our agents were also able to purchase marked 
fraudulent items through undercover purchases. The Service partnered 
with numerous state, federal, and foreign agencies throughout the 
investigation, including on the day of the execution of the search 
warrants and arrest warrants, when we worked closely with the FBI, HSI, 
U.S. Marshals Service, Drug Enforcement Administration (DEA), the 
Bureau of Indian Affairs, New Mexico Department of Game and Fish, 
California Department of Fish and Wildlife, tribal law enforcement 
authorities, and the Philippine National Bureau of Investigations.
    The investigative activity has been extensive and far-reaching, 
taking place in New Mexico, Arizona, Texas, California, Colorado, 
Alaska, Nevada and the Philippines. Our work led to the execution of 
sixteen search warrants and three arrest warrants with the seizure of 
approximately $320,000 in funds, over 200,000 pieces of jewelry, and 
one vehicle. To date, six of the subjects have been indicted, pending 
trial. In addition to charges of violating the Act, federal prosecutors 
have also charged the defendants with violations of federal fraudulent 
importation, money laundering, wire fraud and mail fraud laws. Through 
the course of this investigation, other businesses and individuals have 
been identified but not yet charged.
    Those charged to date include Imad Aysheh, formerly of Gallup, NM, 
and Iyad Aysheh, of Lodi, CA. Imad is the owner and operator of Imad's 
Jewelry, a jewelry manufacturing business in the Philippines. Iyad is 
CEO and agent for IJ Wholesale, Inc., a California corporation that 
imports jewelry into the United States. The Aysheh family built the 
international scheme, established the production facilities, sent 
authentic Native American items to the Philippines to be mass 
reproduced, and then imported the fraudulent pieces into the U.S. for 
illegal sale.
    Also charged were Nael Ali and Mohammad Abed Manasra, both of 
Albuquerque, NM; Nedal Aysheh, formerly of Gallup, NM; and Raed Aysheh, 
of American Canyon, CA. Ali is the owner of two jewelry stores, Gallery 
8 and Galleria Azul, in Albuquerque's Old Town that purport to 
specialize in the sale of Native American jewelry. Manasra is a 
wholesaler of Native American jewelry, and Raed and Nedal are partners 
managing Golden Bear & Legacy, LLC, a retail store in Calistoga, CA 
that specializes in Native American-style jewelry. These individuals 
distributed and sold the jewelry that was made in the Philippines and 
transported to the U.S. by the Aysheh family.
    As a result of the actions taken in this investigation, numerous 
business and networks identified throughout this case have either 
discontinued the production and importation of fraudulent Native 
American jewelry, or changed their business practices to include 
properly labeling items with the country of origin.
Scope of the Problem
    Despite the successful results of Operation Al Zuni, we believe we 
have just scratched the surface of the illegal activity occurring in 
the southwestern United States, and across the country. As evidenced by 
the 2011 Indian Arts and Crafts GAO report, there is much more that can 
be done to enforce the Act. In addition, our investigative work has 
shown that there is a significant presence of fraudulent Native 
American jewelry for sale in retail stores in the four-corners region 
of the Southwest. This influx of fraudulent jewelry drives legitimate 
Native American artists out of a flooded market and in some cases 
forces them to cooperate with the distributors in order to maintain a 
livelihood. Further, our investigation has only examined markets for 
fraudulent jewelry. We have not begun to take a comprehensive look into 
the markets for other Native American items in the Southwest, including 
pottery, paintings, blankets, etc., where there is likely similar 
fraudulent activity that is occurring.
    Furthermore, we believe this is not just a problem for the markets 
in the Southwest. Other locations across the country that have high 
volume sales for tourists and visitors are prime targets for illegal 
activity to sell fraudulent Native American art and crafts. We have 
seen evidence to that effect. The Service has built cases in Alaska and 
Hawaii, with very similar circumstances involving areas with high 
tourist sales, but involving different types of art. They help 
exemplify and illustrate the potential scope and geographic reach of 
this illegal activity.
    In southeast Alaska, the Service began an investigation in May 2014 
based on complaints from tourists regarding the illegal 
misrepresentation of bone art carvings as genuine Alaska Native 
products. Our investigation found that the products were actually made 
by local non-native carvers and were being fraudulently labeled as 
genuine Alaska Native products. Charges were filed against four 
business owners and one employee for violations of the Act. These 
resulted in four convictions, thousands of dollars in fines and 
restitution, and twelve years of combined probation.
    In Hawaii, our investigations took a slightly different turn in 
that we found fraudulent Native American art and crafts being made with 
illegal wildlife products. As part of a joint undercover investigation 
with the National Oceanic and Atmospheric Administration from 2013 to 
2015, the Service uncovered a smuggling ring in Honolulu run through 
Hawaiian Accessories, Inc. The company was found to be selling 
illegally acquired ivory, bone, and coral carvings and jewelry made 
from whale, walrus, black coral and other wildlife. The illegal 
wildlife products were sent to the Philippines to be carved and then 
smuggled back to Hawaii to be sold and fraudulently labeled as genuine 
Hawaiian-made products. As a result of our investigation, the president 
of Hawaiian Accessories, Inc. and several employees were sentenced for 
felony charges of conspiracy, smuggling wildlife into and out of the 
U.S., and violations of the Lacey Act.
    Another area of concern uncovered by our investigations is 
individual, high profile artists utilizing false tribal affiliations. 
These artists promote a fraudulent cultural standing within the Native 
art community and take lucrative art show slots away from legitimate 
Native artists. For example, in response to a complaint to the Board, 
the Service investigated an individual for utilizing a fraudulent 
tribal identification card to sell his Indian artwork at fairs and on-
line. Our investigation, which included an undercover buy, confirmed 
that Terry Lee Whetstone, of Odessa, MO was using a fraudulent Cherokee 
Nation of Oklahoma enrollment card in conjunction with the sale of his 
products. The Cherokee Nation verified that Terry Lee Whetstone is not 
a citizen of the Cherokee Nation. Whetstone pled guilty and was 
sentenced to three years of probation in 2015.
Conclusion
    Investigations conducted by Service special agents, specifically 
Operation Al Zuni, have been very successful in enforcing the Indian 
Arts and Crafts Act and finally bringing criminals who have illegally 
sold fraudulent Native American art for years to justice. However, the 
scope of the problem is far larger than expected. The U.S. Fish and 
Wildlife Service has established a strong partnership with the Indian 
Arts and Crafts Board to enforce the Act, educate consumers about the 
issue of fraudulent art, and deter further illegal activity. The 
protection of tribal nations is of the utmost importance to the 
Department of the Interior, and safeguarding tribal art and crafts is 
integral to that mission and vital to the livelihoods and culture of 
tribal nations. The Service is committed to continuing this important 
work and looks forward to working with you to raise awareness of the 
issue and improve implementation of the Indian Arts and Crafts Act.

    Senator Udall. Thank you, Chief Woody.
    Please, Miss Shappert, please go forward.

        STATEMENT OF GRETCHEN C.F. SHAPPERT, ASSISTANT 
          DIRECTOR, INDIAN, VIOLENT AND CYBER CRIME, 
 EXECUTIVE OFFICE OF U.S. ATTORNEYS, U.S. DEPARTMENT OF JUSTICE

    Ms. Shappert. Thank you. My name is Gretchen Shappert. I'm 
the Assistant Director for the Indian, Violent and Cyber Crime 
Staff for the Department of Justice. I want to thank the Vice 
Chairman and Senator Heinrich for this opportunity and for 
documenting this very important field hearing. I also want to 
thank the Santa Fe Indian School for this opportunity.
    The Indian Arts and Crafts Act was enacted to protect 
Native American artists and artisans who rely on the creation 
and sale of traditional and contemporary art and craftwork to 
support their economic livelihood, preserve their unique 
heritage, and transfer their extraordinary culture and values 
to succeeding generations. Under the Act, it is illegal to sell 
art or craft products in a manner that falsely suggests those 
products were produced by American Indians and Alaska Natives.
    A 2011 Government Accountability Office Report concluded 
that the size of the Indian arts and crafts markets and the 
extent of misrepresentation are unknown, in part because no 
national database specifically tracks Indian arts and craft 
sales or misrepresentations. Furthermore, the GOA Report noted 
that U.S. Federal and state laws protecting intellectual 
property rights do not explicitly include Native American and 
Alaska Native traditional knowledge and cultural expressions--
such as the processes for weaving baskets--and therefore 
provide little protection for them.
    Native American artisans have voiced concerns that the 
traditional knowledge of how to create Native arts and crafts--
often passed down from generation to generation within the 
tribes--will not be carried forward by younger generations if 
they cannot make a living producing these goods. Hence, 
enforcement and education about the current Act is vital to 
ensuring the integrity of Native arts and crafts.
    Here in the District of New Mexico, my colleagues in the 
U.S. Attorneys' Office have used the criminal provisions of the 
Act, together with other Federal statutes, to prosecute 
criminal misrepresentations of inauthentic items as genuine 
Indian arts and crafts. Two criminal prosecutions will 
demonstrate the significance of these cases.
    Andrew Gene Alvarez of Woffard Heights, California, was a 
prominent jeweler who alternately represented himself as 
Mescalero Apache, Colville, and Mayo Indian. He also used an 
alias, ``Andrew Red Horse Alvarez.'' He came to the attention 
of Federal law enforcement because he was misrepresenting 
jewelry that he was selling in an art show at the Santa Fe 
Convention Center and said it was made by an Indian. Mr. 
Alvarez was prosecuted under the Act here in New Mexico, 
entered a guilty plea and was sentenced to 30 months of 
probation to be followed by a year of supervised release.
    As part of his sentence, he was prohibited from 
representing that any of the jewelry he produced was of Indian 
origin. According to Federal law enforcement officials in New 
Mexico, this prosecution was widely noted in the Native arts 
and crafts market, thereby serving as a potential deterrent to 
other potential fraudsters who might be tempted to engage in 
similar conduct.
    The second example of criminal prosecution here in New 
Mexico was a case of Rose Morris--she was on one of the slides 
we saw earlier--who was sentenced to a probationary sentence of 
five years--and excuse me--of a prosecution payment of $38,000, 
having claimed the rugs she was selling were made by Native 
Americans. In fact, she randomly purchased the rugs from 
miscellaneous sources with no connection to Native craftsmen.
    In other cases, Federal prosecutors have used a wide 
variety of Federal statutes--wire fraud and mail fraud in 
particular--to apprehend criminal offenders engaged in similar 
fraudulent conduct involving misrepresentation of supposedly 
Indian arts and crafts.
    Criminal prosecutions are not the only way that Federal 
prosecutors support enforcement of the Indian Arts and Crafts 
Act. Representatives of the New Mexico U.S. Attorneys' Office 
have engaged in frequent outreach initiatives to tribal leaders 
and community members to inform them about the purpose and 
provisions of the Act. As part of their training and outreach, 
U.S. Attorney representatives encourage tribal leaders and 
citizens to report violations of the Act to Federal law 
enforcement for possible Federal prosecution. U.S. Attorneys' 
Office leadership has routinely discussed the Act and its 
consequences at District-wide Tribal Consultations and during 
the more than 50 training seminars and programs conducted 
throughout the District by the U.S. Attorneys' Office through 
the past two years.
    The scope of the Indian Arts and Crafts Act changed 
dramatically over the years. The Act has been amended several 
times since its initial enactment in 1935. Amendments in 1990, 
2000, and 2010 increased penalties, expanded enforcement from 
exclusive FBI jurisdiction to include all Federal law 
enforcement agencies and strengthened enforcement provisions. 
Application of the Act is not limited to retail sales of 
misrepresented goods. The Act can be used to address large-
scale importations as we saw on the slides earlier.
    The 1990 Act also amended civil remedies and authorized 
civil suits by Indian tribes on behalf of themselves, 
individuals, as well as by Indian arts and crafts 
organizations. The 2010 amendments expanded civil enforcement 
by authorizing Indian arts and crafts organizations, as well as 
individual Indians, to file civil suits on their own. It also 
provided for civil lawsuits against manufacturers, wholesalers, 
and others involved in the distribution of the misrepresented 
product. Enabling Native Americans to pursue civil remedies 
independent from Federal law enforcement enhances the scope and 
deterrence of the Act.
    United States Custom and Border Protection also has a role 
in maintaining the authenticity of Indian-style arts and 
crafts. Since 1990, CBP regulations require that imported 
Native American-style arts and crafts must generally be 
indelibly marked with a country of origin by cutting, die-
sinking, engraving, stamping or some other comparable permanent 
identification. Investigations in these cases referred may 
require international assistance from foreign governments and 
the commitment of significant law enforcement resources.
    Another means of protecting the integrity of Native-made 
arts and crafts is through trademarks used in commerce, which 
can be registered with the U.S. Patent and Trademark Office or 
a state by Indian artists, tribes, or arts and crafts 
organizations to identify authentic Indian products.
    Finally, at least a dozen states, including New Mexico, 
have enacted laws prohibiting the sale of falsely labeled 
Indian arts and crafts. Under the state law of New Mexico, as 
you know very well, Vice Chairman, cases are being prosecuted 
both as misdemeanors and felonies, depending on the value of 
the item, or they may be the basis for permanent injunctive 
relief and court-ordered restitution.
    Of course, one of the reasons for today's hearing is to 
discuss possible ways to modernize and improve the 
effectiveness of the Indian Arts and Crafts Act. The Department 
of Justice is always receptive to more effective legislative 
tools to help us protect the rights and public safety of 
Americans. We look forward to working with Congress to improve 
the Act.
    Violations of the Indian Arts and Crafts Act currently 
cannot be prosecuted, for example, through the Federal money-
laundering statutes, because these violations do not meet the 
definition of specified unlawful activities under the money-
laundering statutes. The Federal money-laundering statutes are 
powerful tools to address the proceeds derived from criminal 
activity.
    Finally, for felony prosecutions under the Act, the sale or 
price of the misrepresented goods or products must be, quote, 
``a total price of $1,000 or more.'' Because of the nature of 
the Indian arts and crafts business, many fraudulent dealers 
sell large quantities of misidentified products where each 
individual item sells for significantly less than $1,000, 
although gross sales of the misidentified items exceed the 
$1,000 threshold. Allowing for an aggregation of individual 
transactions would enable Federal prosecutors to more 
effectively prosecute large-scale distributors who violate the 
Act.
    An example of this approach is Title 18, U.S. Section 641, 
the Theft of Public Money statute, which allows an aggregation 
of the value of property, money or things of value to reach the 
$1,000 threshold for felony prosecution.
    On behalf of the Department of Justice, I wanted to thank 
the Committee for the opportunity to appear here today, and I'm 
happy to answer any questions. Thank you.
    [The prepared statement of Ms. follows:]

   Prepared Statement of Gretchen C.F. Shappert, Assistant Director, 
 Indian, Violent and Cyber Crime, Executive Office of U.S. Attorneys, 
                       U.S. Department of Justice
    My name is Gretchen Shappert, and I am the Assistant Director of 
the Indian, Violent and Cyber Crime Staff in the Executive Office for 
U.S. Attorneys. On behalf of the Department of Justice and on behalf of 
my colleagues in the United States Attorney's Office (USAO) here in the 
District of New Mexico, I want to thank the Committee, Chairman Hoeven, 
and Vice-Chairman Udall for convening this important oversight field 
hearing. I also wish to thank the Santa Fe Indian School for hosting us 
today.
    The Indian Arts and Crafts Act was enacted to protect Native 
American artists and artisans who rely on the creation and sale of 
traditional and contemporary art and craftwork to support their 
economic livelihood, preserve their unique heritage, and transfer their 
extraordinary culture and values to succeeding generations. Under the 
Act, it is illegal to sell art or craft products in a manner that 
falsely suggests that those products were produced by American Indians 
and Alaska Natives.
    A 2011 Government Accountably Office Report concluded that the size 
of the Indian arts and crafts markets and the extent of 
misrepresentation are unknown, in part because no national database 
specifically tracks Indian arts and crafts sales or misrepresentations. 
Furthermore, the GAO Report noted that U.S. federal and state laws 
protecting intellectual property do not explicitly include Native 
American and Alaska Native traditional knowledge and cultural 
expressions--such as processes for weaving baskets--and therefore 
provide little legal protection for them. Native American artisans have 
voiced concerns that the traditional knowledge of how to create Native 
arts and crafts--often passed down from generation to generation within 
the tribes--will not be carried forward by younger generations if they 
cannot make a living producing these goods. Hence, enforcement and 
education about the current Act is vital to ensuring the integrity of 
Native arts and crafts.
    Here in the District of New Mexico, my colleagues in the USAO have 
used the criminal provisions of the Act, together with other federal 
criminal statutes, to prosecute misrepresentations of inauthentic items 
as genuine Indian arts and crafts. Two criminal prosecutions will 
demonstrate the significance of these cases. Andrew Gene Alvarez of 
Wofford Heights, California, was a prominent jeweler who alternatively 
represented himself as Mescalero Apache, Colville, and Mayo Indian. He 
also used an alias, ``Andrew `Red Horse' Alvarez.'' He came to the 
attention of federal law enforcement, because he was misrepresenting 
that the jewelry he was selling at an art show in the Santa Fe 
Convention Center was made by an Indian. Mr. Alvarez was prosecuted 
under the Act, entered a guilty plea and was sentenced to 30 months of 
probation to be followed by a year of supervised release. As part of 
his sentence, he was prohibited from representing that any of the 
jewelry he produced was of Indian origin. According to federal law 
enforcement officials in New Mexico, this prosecution was widely noted 
in the Native arts and crafts market, thereby serving as a potential 
deterrent to other potential fraudsters, who might be tempted to engage 
in similar conduct.
    A second example of a criminal prosecution here in the District of 
New Mexico was the case of Rose Morris, who was sentenced to a 
probationary sentence of five years, following her guilty plea to two 
counts of misrepresentation of Indian produced goods and products. Ms. 
Morris falsely claimed that the rugs she was selling were made by 
Native Americans, when in fact she randomly purchased the rugs from 
miscellaneous sources with no connection to Native craftsmen. In other 
cases, federal prosecutors have used a variety of federal statutes, 
such as wire fraud and mail fraud, to apprehend criminal offenders 
engaged in similar fraudulent conduct involving the misrepresentation 
of supposedly Indian arts and crafts.
    Criminal prosecutions are not the only way that federal prosecutors 
support enforcement of the Indian Arts and Crafts Act. Representatives 
of the New Mexico USAO have engaged in frequent outreach initiatives to 
tribal leaders and community members to inform them about the purpose 
and provisions of the Act. As part of their training and outreach, U.S. 
Attorney representatives encourage tribal leaders and citizens to 
report violations of the Act to federal law enforcement for possible 
prosecution. USAO leadership has routinely discussed the Act and its 
consequences at District-wide Tribal Consultations and during the more 
than 50 training seminars and programs conducted throughout the 
District by the USAO during the past two years.
    The scope of the Indian Arts and Crafts Act has changed 
dramatically over the years. The Act has been amended several times 
since its initial enactment in 1935. Amendments in 1990, 2000, and 2010 
increased penalties, expanded enforcement from exclusive FBI 
jurisdiction to include any federal law enforcement agency, and 
strengthened enforcement provisions. Application of the Act is not 
limited to retail sales of misrepresented goods. The Act can be used to 
address large-scale importations by corporate distributors. The 1990 
amendment also added civil remedies and authorized civil suits by an 
Indian tribe on behalf of itself, an individual Indian who is a member 
of the tribe, or an Indian arts and crafts organization. The 2010 
amendments expanded civil enforcement by authorizing Indian arts and 
crafts organizations, as well as individual Indians, to file civil 
suits on their own. It also provided for civil law suits against 
manufacturers, wholesalers, and others involved in the distribution of 
the misrepresented product. Enabling Native Americans to pursue civil 
remedies independent from federal law enforcement enhances the scope 
and deterrence effects of the Act.
    U.S. Customs and Border Protection (CBP) also has a role in 
maintaining the authenticity of Indian-style arts and crafts. Since 
1990, CBP regulations require that imported Native American-style arts 
and crafts must generally be indelibly marked with the country of 
origin by cutting, die-sinking, engraving, stamping or some other 
comparable permanent identification. Investigations in these cases may 
require international assistance from foreign governments and the 
commitment of significant law enforcement resources.
    Another means of protecting the integrity of Native-made arts and 
crafts is through trademarks used in commerce, which can be registered 
with the U.S. Patent and Trademark Office or a state by Indian artists, 
tribes, or arts and crafts organizations to identify authentic Indian 
products.
    Finally, at least a dozen states--including New Mexico--have 
enacted laws prohibiting the sale of items falsely labelled as Indian 
arts and crafts. Under the state law of New Mexico, the sale or 
attempted sale of products falsely described as Indian labor or 
workmanship may be prosecuted as a misdemeanor or felony, depending 
upon the value of the items, or may be the basis for permanent 
injunctive relief and court-ordered restitution.
    Of course, one of the reasons for today's hearing is to discuss 
possible ways to modernize and improve the effectiveness of the Indian 
Arts and Crafts Act. The Department of Justice is always receptive to 
more effective legislative tools to help us protect the rights and 
public safety of Americans. We look forward to working with Congress to 
improve the Act.
    Second, violations of the Indian Arts and Crafts Act cannot 
currently be prosecuted through the federal money-laundering statutes, 
because these violations do not meet the statutory definition of 
specified unlawful activities under the money-laundering statutes. The 
federal money-laundering statutes are powerful tools to address the 
proceeds derived from criminal activity.
    Finally, for felony prosecutions under the Act, the sale or price 
of the misrepresented good or product must be ``a total price of $ 
1,000 or more''. Because of the nature of the Indian arts and crafts 
business, many fraudulent dealers sell large quantities of 
misidentified products where each individual items sells for 
significantly less than $ 1,000, although gross sales of the 
misidentified arts and crafts far exceed the $ 1,000 threshold. 
Allowing for an aggregation of individual transactions would enable 
federal prosecutors to more effectively prosecute large-scale 
distributors who violate the Act. An example of this approach is Title 
18 USC <l-arrow> 641, the Theft of Public Money statute, which allows 
for an aggregation of the value of property, money or things of value 
to reach the $ 1,000 threshold for felony prosecutions.
    On behalf of the Department of Justice, I wanted to thank the 
Committee for the opportunity to appear before you this morning.

    Senator Udall. Thank you so much, Miss Shappert, and thank 
all the witnesses for traveling out and for being here and for 
your excellent testimony.
    And we want to emphasize, from what you hear today, you can 
submit additions or addendums to your testimony as we move 
along. As several of you mentioned, as New Mexico's Attorney 
General, I prosecuted cases under state law that related to 
illegal sale of counterfeit Native American jewelry.
    And at the time in the 1990s, it was estimated about 30 or 
40 percent of the jewelry on the market was counterfeit. So it 
was a big problem then. But now I understand that as much as 80 
percent of those goods are likely counterfeit and therefore 
being sold in violation of Federal law.
    This doubling in a matter of decades is very alarming to 
me. So Chief Woody, can you provide an estimate on a percentage 
or even a range of the amount of counterfeit jewelry being sold 
in the local markets in New Mexico or in any other markets 
you're familiar with.
    Mr. Woody. I can tell you that Slide 1 showed you, that's 
all fraudulent. That is a hard--you know, it's very hard to get 
that figure. I don't know how you would go about doing it, 
because you have the legal market, you have the illegal market 
that gets mixed in, used as a cover, if you will, for all the 
illegal and really when we're working one of these enterprises 
at a time, it's focused on that, I don't know how you would 
extrapolate that out.
    You know, I figure you throw out around 40, 50 percent back 
then, you know, I would speak to these cases. Yes, it's much 
higher. I can't tell you how much higher, because the retail 
market and retail stores are doing it. They could be as high as 
80 percent, but that's a hard statement for me to make, sir.
    Senator Udall. And Miss Stanton, the primary purpose of the 
IACA is to protect Indian artists and businesses, tribal 
economics and culture. In fact, it was enacted in response to 
the growing influx of counterfeit Indian art and craftwork that 
was seriously eroding the market for authentic Indian products. 
How successful has the IACA been in fulfilling this purpose?
    Ms. Stanton. Well, again, as I mentioned in the earlier 
testimony, we have had Federal prosecutions. So I think that is 
positive. And certainly, now working with the Fish and Wildlife 
Service, that number will dramatically rise. But a lot of what 
we do is try to educate the public and to try to send messages 
to the industry as well to prevent the sale.
    That's really what we're focusing on in addition to law 
enforcement. So by better educating the consumer and sending 
messages to the overall industry, we think that we have made 
inroads with that. You saw on some of the slides that we have, 
we do consumer protection brochures. We instituted doing that 
in the New Mexico AG's office. We did that with the other state 
attorney general's offices. Also, we do a lot of work with the 
Federal Trade Commission, and we work with a lot of Indian 
organizations; whether it's the American Indian, Alaska Native 
Tourism Association, Indian Arts and Crafts Association.
    So a lot of it is really focused on education and outreach. 
And, you know, we would love to do more. But we certainly feel 
that now that we're partnering with Fish and Wildlife Service, 
we're in a far better place.
    Senator Udall. Could you please elaborate a little bit, 
Miss Stanton, on the impacts of counterfeit Indian art on 
tribal communities, on their economy, on their social activity, 
and on their culture?
    Ms. Stanton. Of course each community is different. Each 
tribe is different. But I think overall, especially in the 
Southwest, it's had really devastating effects economically, as 
I said, passing down the traditions. And certainly, Senator 
Campbell was very articulate in talking about how many people 
depend on this for a living; that it's so difficult to compete 
with the materials coming in from overseas. That is, it's what 
he says, depending on the dollar.
    So it's frustrating. It's economically destabilizing, and a 
great deal needs to continue to be done and expanded on this 
effort.
    Senator Udall. Thank you for that.
    Chief Woody, you've dedicated your career with the service 
to enforcement of Federal laws that protect endangered and 
threatened species, migratory birds, marine mammals, and global 
wildlife and plant resources. How did this service come to the 
investigative authority, have the investigative authority over 
the alleged violations of the IACA?
    Mr. Woody. Amendments to the Act. It allowed for any 
Federal law enforcement officer to investigate violations of 
the Act. And being a good friend of Miss Stanton's, her walking 
in the door with a cup of coffee helped an awful lot.
    Senator Udall. We appreciate that.
    Under the MOIA how many law enforcement officers are 
currently assigned to investigate IACA violations? Is that 
enough to meet the overall demand?
    Mr. Woody. Officers that are working on it do the best they 
can with what they have. There is a dedicated--there are 
several dedicated officers who work on Indian arts and crafts 
issues. Also, we have--when we're doing the projects at certain 
points, we get help from HSI, FBI, every Federal agency that's 
tied into export-import into the country; State Department, 
strong support from DOJ, states, counties, county officials, 
local Native American tribes.
    We get a lot of support on this work.
    Senator Udall. Could you talk a little bit more about the 
2012 memorandum of agreement between the Fish and Wildlife 
Service and the IACB?
    Mr. Woody. Sure. Really what that is, the IABC essentially 
pays for the agents and the work they do. The agents work for 
Fish and Wildlife Service, they work for me, and we do the 
work. It's really, essentially--it's cost recovery for us, is 
what that MOA is.
    Senator Udall. Miss Stanton, it sounds like the MOA has 
helped address outstanding enforcement of the IACA somewhat, 
but are there more boots on the ground needed to adequately 
address the problem of trading on the Indian-made goods covered 
by the law?
    Ms. Stanton. I would say that if additional agents were 
made available, they would have plenty to do.
    Senator Udall. And it looks like, Chief Woody, you agree 
with that.
    Mr. Woody. Yes, I do.
    Senator Udall. Miss Shappert, do you also?
    Ms. Shappert. I will defer to my law enforcement colleagues 
as to the resources they needed.
    Senator Udall. Great. Thank you very much. Thank you for 
your testimony.
    Senator Heinrich, the floor is yours for questions.
    Senator Heinrich. Thank you, Vice Chairman Udall.
    Chief, when you find a case like this when large amounts of 
jewelry are coming into the country fraudulently labeled, are 
you able to seize those shipments under the current statute?
    Mr. Woody. They are seized for evidence, yes.
    Senator Udall. Can you seize them on forfeiture?
    Mr. Woody. On forfeiture, no.
    Senator Heinrich. Would it be helpful to have an amendment 
to the statute that addressed that particularly?
    Mr. Woody. We would be more than happy to sit down with you 
and look at that very closely. You know, one thing we don't 
want--when you're dealing with--look at it this way. You don't 
want a criminal enterprise to look at penalties in the Act, 
just consider it a cost of doing business.
    Senator Heinrich. Absolutely.
    Mr. Woody. In other words, you know, they look at the fine, 
and they say--you know, we're talking $11 million in this 
particular case. $250,000 is really a pittance on them. You 
know, is that a cost of doing business for the criminal 
enterprise? Yeah, I'd say. You want to look at enhancements to 
the Act, and you want that Act to act as a deterrent, if you 
will, just knowing what's in it.
    Senator Heinrich. Miss Shappert mentioned potential changes 
to the Federal money-laundering definition to allow to meet the 
definition. The aggregation of value to meet the thousand-
dollar threshold. Are there similar changes that you can think 
of, Chief, that would, that you bumped up against in the--in 
trying to prosecute these cases or investigate these cases?
    Mr. Woody. As Gretchen stated, that is one of the ones 
we've talked about a bit amongst the officers, the agents, and 
us. But having policy discussions, we need--again, I'm more 
than happy--or someone is more than happy to sit down with you 
on technical issues.
    Senator Heinrich. You concur that those two changes would 
be helpful?
    Mr. Woody. Yes.
    Senator Heinrich. Great.
    In the Al Zuni case, did we have cooperation from 
Philippine law enforcement?
    Mr. Woody. Yes, we did. We had good cooperation from the 
Philippine government.
    Senator Heinrich. Is that possible, apart, because of Fish 
and Wildlife's role in also working with foreign countries, in 
Southeast Asia and other places in wildlife trafficking issues?
    Mr. Woody. Yeah. In the last several years, we've been able 
to put agents out throughout the world. We have fellow agents 
that are attaches stationed in a number of countries; the Asian 
countries, Africa, working on a number of issues. They're 
working strongly--a lot of work we do in the Philippines, we've 
built long-term, good relationships there.
    And yes, that helped immensely.
    Senator Heinrich. Miss Stanton, you went through some of 
the educational efforts that you are currently pursuing to give 
people the knowledge to know the difference. Are you pursuing a 
similar strategy online as what you've done with print, kiosks, 
and other places in the state of New Mexico?
    Ms. Stanton. Well, in particular, we worked closely with 
the legal departments of a number of online marketing 
platforms. That would be Amazon, Etsy, eBay, and Artfire, in 
particular. And we had a lot of complaints about online 
marketing, I will tell you that, and we really value the 
complaints we get from the public, and we try to do our own 
monitoring as well. But it is extensive, the problems with 
Internet marketing.
    What we typically do is, once we see potential violations, 
we will reach out to the vendor, and that's the first real 
collaboration with that platform, and they will provide the 
contact information, and then we will do our due diligence in 
trying to determine the extent of the violation and 
communicating with that vendor on how to comply.
    If they don't comply, we have them dropped. So that's one 
of the really good vehicles that we have to monitor online 
marketing.
    Senator Heinrich. How often--what has the relationship been 
like with some of those large online vendor platforms?
    Ms. Stanton. EBay in particular was really our first 
agreement. And they've been excellent. And there are some 
challenges every step of the way, but Etsy now has come around, 
and we've been working with them, and Amazon, who's massive, 
and Artfire. So whenever we have the opportunity, we reach out 
and try to get collaborations with their legal departments.
    Senator Heinrich. For any of you, really, do you have a 
sense for how oftentimes a retail store or a vendor knows that 
what they're marketing is actually fraudulently labeled?
    Ms. Stanton. Well, I certainly think in the operation of 
the Al Zuni case, everybody was understanding what was going 
on. It's--you know, greed does a lot of things to people.
    Senator Heinrich. Miss Shappert, I wanted to ask you, the 
2011 GAO report cites that there isn't a national database to 
track these kinds of Indian arts and crafts sales. Is that 
true, and should there be a database to track this kind of 
thing?
    Ms. Shappert. To be honest, Senator, I think it points to a 
problem. I don't know if there could be a database, because of 
the individuality of the art. So I think it underscores the 
challenges associated with these kind of investigations, and 
that's one of the reasons, because the art is so individualized 
between different tribes.
    Senator Heinrich. Okay. I want to thank you all for your 
testimony.
    Senator Udall. Thank you very much, Senator Heinrich.
    Miss Stanton, the expansion of retail sales online has 
changed the face of commerce and allowed consumers incredible 
access to products around the world and around the globe. But I 
imagine this access presents the challenges with respect to 
online sales of Native arts and crafts and IACA enforcement.
    Does the Board's mission to promote Indian economic 
development through expansion of Native art and craft market 
include e-commerce? A simple Google search reveals online 
retailers, such as Etsy and eBay, selling goods as vintage or 
authentic Native American jewelry. Does the IACA provide the 
tools necessary to enforce violations with e-commerce?
    Ms. Stanton. Well, a violation is a violation. And so 
whether it's occurring on eBay or Etsy or Downtown Santa Fe 
or--you know, we treat it all equally. And as I mentioned, we 
work with the legal departments of these online platforms. And 
we feel well served. But there's still so much to do. It just 
really is a tremendous problem.
    Senator Udall. Does the IACB certify reputable online 
retailers?
    Ms. Stanton. We have a source directory of American Indian 
and Alaska Native-owned and operated arts and crafts 
businesses. To be listed in that directory, you have to be a 
member of a federally recognized tribe and provide your tribal 
documentation. And that's a free opportunity for Indian artists 
to promote their work, and we publish that online.
    Senator Udall. Do you think the IACB should certify 
reputable online retailers?
    Ms. Stanton. We could certainly look into that. We have not 
done so thus far, but we'd be happy to do that.
    Senator Udall. Do you believe that these fraudulent online 
sales, are they a significant problem?
    Ms. Stanton. Yes.
    Senator Udall. Yes. What is the extent of that problem, as 
far as your knowledge of it?
    Ms. Stanton. I couldn't give you a percentage. But I can 
tell you from the complaints we receive every day, that 
authentic Indian artists and authentic Indian art businesses 
are not happy at all, because of the competition.
    Senator Udall. For the record, would you be able to give us 
some numbers on the numbers of complaints that you have gotten?
    Ms. Stanton. Oh, absolutely.
    Senator Udall. That would be very helpful.
    Chief, do you have any comment in this area?
    Mr. Woody. We do a lot of work on the Internet, whether 
wildlife work or some of this other. As Meredith stated, it is 
immense. I think there are some pretty good tools out there 
that you may be aware of. We're working online, and we've got 
some backup. Customs and Border Patrol and DHS has been 
absolutely a good partner working with us on these cases.
    They have a location called Commercial Targeting Analysis 
Center. We'll have agents work online, and you can move it over 
to the Commercial Targeting Analysis Center. And you can focus 
on some really specific things off of that. There's a lot of 
good things going on behind the scenes.
    I welcome you out, when you're back in D.C. at any time, 
we'd be more than happy to show you some of those locations and 
the great work that goes on behind the scenes there.
    Senator Udall. We should probably have a visit and take a 
look at that. That would be very helpful.
    Mr. Woody. I look forward to it, sir.
    Senator Udall. Do tribal governments play a role or could 
they play a role in certifying authentic Native American arts 
and crafts for sale online?
    Ms. Stanton. They certainly could. They sometimes do have 
their own version of a certification program. I know the 
Cherokee in Oklahoma, and in a different forum that we talked 
about in Oklahoma, have similar issues as well as--I think that 
perhaps the Cherokee in North Carolina.
    Senator Udall. Chief, have--and also to Miss Shappert--have 
any charges been brought against retailers for violating the 
IACA for online sales or any pending?
    Mr. Woody. Not that I am aware of, off the top of my head.
    Ms. Shappert. Not that I'm aware of.
    Mr. Woody. Not that we're working on.
    Senator Udall. Do you have agents that are looking for 
illegal activity online?
    Mr. Woody. Depends on what the agents are working on. 
Assigned to the cases they're working on right now, yes. But 
talking specifically, that--I can't answer that question.
    Senator Udall. Do you think it would be helpful to dedicate 
resources to improving fraudulent--to looking at the fraudulent 
online sales?
    Mr. Woody. With the right information coming in, 
absolutely, yes.
    Senator Udall. Miss Shappert?
    Ms. Shappert. We would be delighted, in the Department of 
Justice, to review anything that our colleagues in Fish and 
Wildlife bring to us from their online searches for possible 
Federal prosecution.
    Senator Udall. Okay, great.
    I'd like to turn to the recent Fish and Wildlife Service 
investigation known as Operation Al Zuni that's been reported 
as the largest investigation ever into fraudulent Native 
American jewelry sales under the Indian Arts and Crafts Act.
    As reported in the press, this case involves individuals 
who established and operated manufacturing facilities in the 
Philippines in order to market and sell Native American-style 
jewelry and handicrafts as authentic Indian-made. Counterfeit 
Indian-made jewelry, in particular, was sold in stores located 
in Albuquerque and Santa Fe with heavy tourist foot traffic.
    So from Miss Shappert and Chief Woody, I know this is an 
ongoing investigation, but to the extent you can answer, does 
Operation Al Zuni--does that investigation go deeper than the 
individuals who were indicted earlier this year?
    In other words, are more indictments coming in this case?
    Ms. Shappert. With all due respect, we cannot comment on 
ongoing investigations.
    Senator Udall. Chief, you're in the same position on that 
one?
    Mr. Woody. Yes, sir.
    Senator Udall. And I would just advise everybody to look at 
the reporting that's out there, because there's some very good 
reporting that I think elucidates some of these issues, and 
we'll look forward to be following what's going on.
    Is DOJ and Fish and Wildlife Service prioritizing this 
investigation, and would you characterize this case to be part 
of a broader network of counterfeiters?
    Mr. Woody. The case is prioritized. We have had--New Mexico 
Attorneys' Office has been absolutely top-notch with this. It 
is a priority. There are a number of cases out there being 
worked.
    Senator Udall. Okay. Good. I wanted to have that for the 
record.
    You testified that the declared value of sales in 
fraudulent Native American-style jewelry related to this 
investigation is 11 million. But is that the retail value or is 
it substantially higher?
    Mr. Woody. That's the declared value coming into the U.S. I 
would say maybe Meredith can answer this better. You know, 
whether it's a wholesale after that or retail after that, it's 
substantially much higher. So that is the declared value when 
it comes into the U.S.
    Senator Udall. Is there a way to--please go ahead.
    Ms. Stanton. I don't think it would be farfetched to say 
that the 11 million easily turns into double that.
    Senator Udall. So that's your best guess at this point.
    Ms. Stanton. Yes, sir.
    Senator Udall. Chief, would you argue with that?
    Mr. Woody. No, I would not argue with Meredith.
    Senator Udall. And obviously, this is an enormous amount of 
money that should be going back to Indian Country. Native 
jewelers and artisans rely on their works to earn a living, 
provide for their families and sustain their cultural 
expression and identities from generation to generation, not to 
mention its impact on consumer confidence in the Indian art 
market.
    In other words, this is not a victimless crime. Miss 
Shappert and Chief Woody, what are your agencies doing to 
combat the spread of violations of the IACA?
    Ms. Shappert. Well, I reference to you--first of all, Chief 
Woody has talked about some of the things that his agency is 
doing in collaboration with the Department of Justice. And I 
know from my colleagues in the U.S. Attorneys' Office in New 
Mexico, they are extremely grateful for their close partnership 
with Fish and Wildlife, which goes into many different areas of 
prosecution.
    We talked about the importance of deterrence, and part of 
that is, Meredith referred to us getting the message out. The 
U.S. Attorneys' Office in New Mexico and other U.S. Attorneys' 
Offices are engaged in that. They make a point of emphasizing 
the Indian Arts and Crafts Act in their trainings, their tribal 
consultations, and their meetings with other law enforcement 
partners so that we could discourage this type of activity.
    And as we saw in the Alvarez prosecution, when these cases 
are prosecuted, it does send a chill through the minds of those 
who might be tempted to commit these kind of crimes.
    Senator Udall. Anything to add?
    Ms. Stanton. I totally agree. The deterrent value of these 
investigations and prosecutions, they're just--it's priceless.
    Senator Udall. In your testimony, you state that, ``The 
scope of the counterfeiting problem is far larger than 
expected.''
    Are there other IACA investigations ongoing, and could you 
please describe them, and are they limited to the United 
States, or is there an international component? Or is that one 
that we shouldn't be getting into?
    Mr. Woody. There are other cases, and there's an 
international.
    Senator Udall. Good, good.
    Well, we really appreciate your effort on this front and 
look forward to sharing and visiting with you, as you talked 
about, in terms of making this a top priority and also making 
sure that the people targeted are the ones that are doing the 
most damage.
    Senator Heinrich?
    Senator Heinrich. Miss Shappert, I wanted to ask you, you 
mentioned a couple of cases, including the case of Mr. Alvarez, 
that resulted in probation being handed out. Do you think that 
the punishments typically imposed under the Indian Arts and 
Crafts Act typically provide an adequate deterrent?
    Ms. Shappert. Well, I can tell you the punishments provided 
are what the Act currently provides. And with the current 
sentencing guideline configuration, the inclination would 
probably be, in most cases, if someone doesn't have a record, 
I'm speculating that they would not get active prison time. But 
that's another reason why the financial component of the 
punishment must be significant.
    Because, as important as prison is for many kinds of 
crimes, hitting people in the pocketbook is a real chilling 
deterrent for many fraudsters.
    Senator Heinrich. And do you find that that portion of the 
penalties handed out typically does have that kind of impact?
    Ms. Shappert. Well, as I indicated in my testimony, we're 
very interested in the possibility of having conversations with 
the Committee, including on things like aggregation of the 
penalties so that you could go after individuals more 
effectively who were engaged in large-scale amounts of money.
    And Chief Woody referred to forfeiture as something to be 
considered. Asset forfeiture is a powerful tool for dealing 
with fraud and other types of crime when you can go after the 
instrumentalities and the profits and the large monetary base 
of these operations.
    We are happy to have any conversations with the Committee 
that they would like to have about these issues.
    Senator Heinrich. I suspect the Committee looks forward to 
that.
    Chief, does your collaboration extend to BIA law 
enforcement, given their tribal relationships?
    Mr. Woody. To date, we have not worked--we've worked with 
them on some of the operations when they're coming to 
conclusion, working--the investigators working. We do not have 
anybody working with us at BIA at this point.
    That's not to say--we're open for those conversations with 
BIA in the future.
    Senator Heinrich. It sounds like a lot of this is really 
coordination working across multiple agencies; U.S. Attorneys, 
Attorneys General, Fish and Wildlife Service, you mentioned 
Customs and Border Protection.
    Mr. Woody. It is excellent cooperation.
    Senator Heinrich. That's great.
    Much of the conversation today has focused on jewelry. To 
what extent does this same sort of enforcement extend to things 
like textiles, pottery, ceramics, and other tribal Native 
American arts and crafts?
    Ms. Stanton. Well, certainly we have complaints about all 
media; very contemporary work; very traditional works, 
weavings, masks, carvings. In fact, these are from one of the 
five indictments in Alaska. And so it's all across the board.
    Senator Heinrich. Can you tell us a little bit about what 
those are?
    Mr. Woody. Yes. So in this particular case--and again, to 
get to the crux of these cases--you're putting people 
undercover and working these. I'm looking at the back of these, 
and on this particular one on my right, to your left, you've 
got a price tag of $1,700. And then you've another tag that 
says, ``Authentic Native handicraft from Alaska,'' and a third 
sticker that says, ``Made in Alaska.''
    Just looking at that, you're not going to know it. But 
again, working behind the scenes and getting to the fraud that 
went into making this, putting those stickers on, that's what 
we focus our investigations on doing. There were a number of 
items similar to this that were seized in the case, and 
actually, the complaint came in from some tourists on what was 
going on behind the scenes, and that we worked on this case.
    Senator Heinrich. Well, I want to thank you all again for 
your testimony today. I'm going to have to leave right now, but 
I'm going to leave you in the Vice Chairman's very capable 
hands.
    Senator Udall. Thank you, Senator Heinrich. I really 
appreciate you spending so much time with us here this morning.
    And let me once again just thank the witnesses. And you're 
certainly invited to stay and listen to the second panel. I 
know you may be busy and heading off to other things, but 
really, really appreciate your travels and testimony here 
today.
    We're going to take just a five-minute break to rearrange 
name tags and to sort out things up here. And so we excuse this 
panel, and we have a short recess and call up the next panel, 
which is Damon Martinez, Joyce Begay-Foss, Mr. Dallin, and 
Harvey Pratt. Thank you very much.
    [Recess from 11:41 a.m. to 11:59 a.m.]
    Senator Udall. Okay. Let's have everybody sit down. Any 
conversations that are going on, we hope that you will move 
those off the floor a little bit. We understand people had a 
little bit hard time, especially the court reporter. So we 
really urge you to stay very close to your microphone. And I 
may remind you a little bit every now and then or the people 
behind me may say, ``Speak up,'' or ``Move in'' like that to 
the microphone.
    I just very briefly, before I introduce our second panel 
and proceed with them, I would like to recognize--there have 
been many tribal officials that have visited here today, in and 
out. And I want to recognize the very, very good leadership 
they have given on this issue in Indian Country.
    And we have a number of them that have been here this 
morning. Governor Mark Mitchell, with Tesuque; Governor Peter 
Garcia, Ohkay Owingeh; First Lieutenant Governor Mac Zuni with 
Isleta; Second Lieutenant Governor Marvin Trujillo, Laguna; 
Councilman Gil Vigil, with Tesuque; Ben Chavarria, Tribal 
Historic Preservation office, Santa Clara; Second Lieutenant 
Governor Matt Martinez, Ohkay Owingeh.
    We've got Councilman Pascal Anjade, Mescalero Apache; 
Lieutenant Governor Jerome Lucero, Zia Pueblo. And also from 
the Navajo Nation, Barbara Mago. She's the Native arts and 
crafts director there.
    Let me just say once again to our second panel, thank you 
for coming, and thank you for traveling here. We really 
appreciate having you here today. We have Mr. Damon Martinez, 
the former U.S. Attorney for the District of New Mexico; Miss 
Joyce Begay-Foss, director, Living Traditions Education Center 
at the Museum of Indian Arts & Culture right here located in 
Santa Fe; Mr. Dallin Maybee, chief operating officer Southwest 
Association for Indian Arts; and Mr. Harvey Pratt, a Native 
American artist and retired forensic artist from Oklahoma.
    Thank you for coming. I look forward to hearing your 
testimony, beginning with Mr. Martinez.
    Please proceed.

STATEMENT OF DAMON MARTINEZ, FORMER U.S. ATTORNEY, DISTRICT OF 
             NEW MEXICO, U.S. DEPARTMENT OF JUSTICE

    Mr. Martinez. Good afternoon, Chairman Udall. It is a great 
honor to testify before this Committee regarding the Indian 
Arts and Crafts Act. I also want to thank the Santa Fe School 
for hosting this field hearing.
    In New Mexico, we are very privileged to have Native 
American art and craftwork that reflects generations of unique 
culture and a rich heritage. In the 1990s, as an assistant 
Attorney General for the State of New Mexico, I gained an 
appreciation for the difference that government can make when I 
watched you as Attorney General protect Native American artists 
and artisans from dishonest practices.
    Now, after having served as a U.S. Attorney for New Mexico, 
I submit it is important for law enforcement--including the 
U.S. Attorneys' Office--to prioritize its limited resources on 
prosecuting those who knowingly counterfeit Native American art 
and craftwork.
    To accomplish this effectively, Federal law needs to 
provide the necessary tools to investigate and prosecute those 
who exploit and undermine the cultural heritage of Native 
Americans. In modernizing the Indian Arts and Crafts Act, I 
have proposed--I have respectfully proposed to this Committee 
seven recommendations for your consideration.
    Mr. Vice Chairman, also at this point, I would like to take 
the opportunity, having served in the U.S. Attorneys' Office, 
there's two people that I want to recognize from the U.S. 
Attorneys' Office. These are the ones who are incredible public 
servants, and the job that they do on behalf of the community, 
on behalf of the nation, they never receive credit for it. 
Those two people right now are Christopher Houghton and 
Jonathan Gersen who are in the audience today. They are true 
public servants, and they deserve credit for the work that they 
do.
    And at this point, I would just answer any questions you 
have on the second set of recommendations that I'll make, or 
any other questions that you would wish to propose.
    [The prepared statement of Mr. Martinez follows:]

Prepared Statement of Damon Martinez, Former U.S. Attorney, District of 
                 New Mexico, U.S. Department of Justice
    Good morning. Chairman Hoeven, Vice Chairman Udall, Senator 
Heinrich, and members of the Committee on Indian Affairs, it is a great 
honor to testify before the Committee regarding the Indian Arts and 
Crafts Act.
    In New Mexico, we are very privileged to have Native American art 
and craftwork that reflects generations of unique culture and a rich 
heritage. In the 1990s, as an Assistant Attorney General for the State 
of New Mexico, I gained an appreciation for the difference that 
government can make when I watched then Attorney General Tom Udall 
protect Native American artists and artisans from dishonest practices.
    Now, after having served as the U.S. Attorney for New Mexico, I 
submit it is important for law enforcement, including the U.S. 
Attorney's Office, to prioritize its' limited resources on prosecuting 
those who knowingly counterfeit Native American art and craftwork. To 
accomplish this effectively, federal law needs to provide the necessary 
tools to investigate and prosecute those who exploit and undermine the 
cultural heritage of Native Americans.
    In modernizing the Indian Arts and Crafts Act (the ``Act''), I 
respectfully propose the following recommendations for your 
consideration to make the law a more comprehensive and effective tool.
    First, the Act should consider the importation of Native American-
style merchandise into the commerce of the United States separate from 
the sale of Native American-style merchandise in the United States.
    Second, the Act should require clearly and simply that Native 
American-style merchandise imported into the commerce of the United 
States must have an indelible country-of-origin marking. Currently, a 
prosecutor must look to 19 C.F.R. 134.43(c)(``Method and Location of 
Marking Imported Articles''), and 18 U.S.C.   542 (``Entry of goods 
by means of false statements'') and 545 (``Smuggling goods into the 
United States'') to establish this requirement.
    Third, the Act should require that the seller of Native American-
style merchandise in the United States have a basis for representing 
that such merchandise is actually Native American produced.
    Fourth, the Act should have a specific forfeiture section. 
Currently, a prosecutor must look to 18 U.S.C.   1341 (Fraud and 
Swindles), and 1342 (Fraud by wire, radio, or television) to seek 
forfeiture.
    Fifth, 18 U.S.C.  1956 (Laundering of monetary instruments) should 
be amended to include a violation of 18 U.S.C.  1159 
(Misrepresentation of Indian produced goods and products) as a 
specified unlawful activity.
    Sixth, 18 U.S.C.  2516(1)(c) (Authorization for interception of 
wire, oral, or electronic communications) should be amended to include 
18 U.S.C.  1159 (Misrepresentation of Indian produced goods and 
products) as an offense for investigation.
    And finally, the U.S. Department of Homeland Security should be 
encouraged to flag or seize during custom inspections Native American-
style merchandise imported into the commerce of the United States that 
does not have an indelible country-of-origin marking on each item of 
merchandise.
    Thank you for your consideration of my recommendations and I stand 
ready to answer any questions the Committee members may have.

    Senator Udall. Thank you. Thank you very much.
    And Mr. Pratt, please proceed.
    And we'll get to questions after we go through the entire 
panel and their testimony.

   STATEMENT OF HARVEY PRATT, CHEYENNE-ARAPAHO MASTER ARTIST

    Mr. Pratt. Good afternoon, Vice Chairman Udall. My name is 
Harvey Pratt, and I'm pleased to testify before you today. I'm 
a Cheyenne-Arapaho master artist from Oklahoma, on the Board of 
the Red Earth Festival, which represents a large annual Indian 
art market in Oklahoma City. I recently retired with over 50 
years in law enforcement from the Oklahoma State Bureau of 
Investigation.
    While I was also--while I am also the Indian Arts and 
Crafts Board chairman, I am testifying today solely on my 
capacity as a private citizen and as a Cheyenne chief. My 
recommendations are my own and do not in any way reflect the 
official position of the Board or the Department of the 
Interior.
    Indian art is not just a commodity. Indian art reflects who 
we are, where we came from, where we're going. It's a 
reflection of our beliefs, religion, legends, and lifestyle. 
You can see these connections in the kachina carvings, 
paintings of Green Corn Dances, Native American Church fans and 
rattles, and Spider Woman's role in weavings, to name a few.
    Art is also about healing. For example, following an 
alarming number of Indian youths committing suicide in record 
number, all that, at the invitation of the Board's Southern 
Plains Indian Museum, I provided a workshop at the museum to 
encourage the Indian youth and their families to constructively 
cope with these tragedies.
    Indian art is also about being able to provide important 
income for our families to carry on traditions of our ancestors 
in contemporary and a challenging world. I know from firsthand 
experience about the importance of promoting and protecting 
Indian artists and their creativity and about the importance of 
Indian Arts and Crafts Act enforcement.
    When Indian artists are undercut by the sale of fake Indian 
art, the integrity of authentic Indian art and artists suffer. 
We're also being robbed economically, culturally, and 
spiritually. These unscrupulous businesses are also ripping off 
consumers and the viability of the Indian art. An example would 
be my brother Charles Pratt, an internationally known Cheyenne-
Arapaho sculptor, residing in New Mexico, made a bronze chess 
set featuring cowboys and Indians. It was later purchased and 
knocked off by a non-Indian, who then duplicated it and sold it 
as Indian art.
    Though many Indian artists do not have the resources to 
fight these injustices, fortunately, Charles did and was 
compensated by his loss by taking this individual to court. And 
after the hearing of this, I too support the modernization of 
the Act to better protect the artists and the Indian art 
industry. When Charles was confronted by this man, he told him 
that he had been doing this over 30 years and had never been 
confronted before.
    Although the State of Oklahoma does not provide State 
tribal recognition status, state recognized tribes have been a 
significant issue in Oklahoma. This is due to the fact that, 
unlike the Federal tribal recognition procedures, there is no 
such standard for official state tribal recognition. State 
tribal recognition requirements dramatically vary among those 
states that provide such recognition.
    Inconsistency in recognizing criteria also affects New 
Mexico Indian artists as well as Indian artists nationwide. 
Artists from federally recognized tribes are often selling 
their art next to artists from tribes that may or may not be 
officially recognized by a state. These artists may also 
consider their tribe officially recognized by a state, even if 
the state does not. A clear, easily verifiable standard within 
the statute would benefit all Indian artists.
    As an Indian artist, I also firmly support any effort to 
expand the Act investigative program conducted by the Board 
through their agreement with the U.S. Fish and Wildlife Service 
on behalf of Indian artists, businesses, and tribes, as well as 
consumers.
    In addition, I support education and educating all 
appropriate Federal law enforcement about the Act and the need 
to protect Indian artists and collectors from fraudulent 
activity. When state tourism and the economy are so dependent 
on Indian artists and culture, here where such a high 
percentage of Indian artists are distributed to businesses and 
consumers nationwide, I believe that strengthening the Act 
would not only benefit your constituents but consumers 
nationwide.
    Senator Udall. thank you for the opportunity to share my 
thoughts with you.
    [The prepared statement of Mr. Pratt follows:]

   Prepared Statement of Harvey Pratt, Cheyenne-Arapaho Master Artist
    Good Morning Vice Chairman Udall and Senator Heinrich. My name is 
Harvey Pratt and I am pleased to testify before you today.
    I am a Cheyenne-Arapaho master artist, a traditional Peace Chief of 
the Southern Cheyenne Chief's Lodge, and on the Board of the Red Earth 
Inc., which runs a large annual Indian art market in Oklahoma City. I 
recently retired following over 50 years in law enforcement with the 
Oklahoma State Bureau of Investigation.
    I come from a long line of Indian artists. My brother is 
internationally known Cheyenne-Arapaho sculptor and New Mexico 
resident, Charlie Pratt, and my mother, Cheyenne storyteller and 
educator Ann Pratt Shadlow, received the honor of Native American Woman 
of the Year in 1987.
    While I am also the Indian Arts and Crafts Board Chairman, I am 
testifying today solely in my capacity as a private citizen, and my 
comments are my own and do not in any way reflect the official position 
of the Board or the Department of the Interior.
    Indian art is not just a commodity. Indian art reflects who we are, 
where we came from, and where we are going. It reflects our beliefs, 
religions, legends, and life ways. You can see these connections in our 
kachina carvings, paintings of Green Corn Dances, Native American 
Church fans and rattles, and in Spider Woman's role in weavings, to 
name a few.
    Indian art is also about healing. For example, I had the great 
pleasure of participating in a three-day event sponsored by the Board's 
Southern Plains Indian Museum in Anadarko, Oklahoma. This event, 
supported by the surrounding Indian tribes, was held to help address an 
alarming number of Indian youth suicides affecting every member of the 
community. I spoke to the children and their families about the 
importance of the arts in the healing process, and provided a painting 
workshop to engage the children and encourage them to constructively 
cope with the tragedies of losing family members and friends.
    Indian art is also about being able to provide important income for 
our families and to carry on traditions of our ancestors in a 
contemporary and challenging world.
    I know from first-hand experience about the importance of promoting 
and protecting Indian artists and their creative work, and about the 
importance of Indian Arts and Crafts Act enforcement.
    When Indian artists are undercut by the sale of fake Indian art, 
the integrity of authentic Indian art and artists suffer. We are being 
robbed economically, culturally, and spiritually. These unscrupulous 
businesses are also ripping off consumers and the viability of the 
Indian market.
    Time and time again, I hear from my fellow Indian artists about 
their art and craftwork being knocked off by nonIndians and sold as 
Indian made. In fact, my brother Charles Pratt made and sold a bronze 
chess set featuring cowboy and Indian chess pieces. Later, Charles 
discovered that the purchaser had reproduced that chess set in silver 
without his approval, and was selling the reproductions to galleries as 
Charles' work. Many Indian artists do not have the resources to pursue 
these cases. Fortunately, Charles was able to take the man to court, 
stop the reproduction, and was compensated for the sales. The purchaser 
later told Charles that he had been knocking off others work for over 
30 years, and no one had previously challenged him.
    As the title of this hearing conveys, I too believe that 
``modernizing'', in other words strengthening, the Act would greatly 
benefit Indian artists and the Indian art industry.
    I support removing any obstacles or unintended loopholes that have 
hindered Act investigations and enforcement. For example, as an Indian 
artist I believe the statute's current definition of State recognized 
tribe should be reexamined and revised.
    Although the State of Oklahoma does not provide State tribal 
recognition status, State recognized tribes have been a significant 
issue in Oklahoma. This is due to the fact that, unlike the federal 
tribal recognition process, there is no such standard for official 
State tribal recognition, and State tribal recognition requirements 
dramatically vary among those states that provide such recognition.
    Inconsistency in recognition criteria also affects New Mexico 
Indian artists, as well as Indian artists nationwide. Artists from 
federally recognized tribes often are selling their art next to artists 
from tribes that may, or may not, be officially recognized by a State. 
Those artists may also consider their tribe officially recognized by a 
State, even if the State does not. A clear, easily verifiable standard 
within the statute would benefit all Indian artists.
    As an Indian artist, I also firmly support any efforts to expand 
the Act investigative program conducted by the Board through their 
agreement with the U.S. Fish and Wildlife Service's Office of Law 
Enforcement on behalf of Indian artists, businesses, and tribes, as 
well as consumers.
    In addition, I support educating all appropriate federal law 
enforcement about the Act and the need to protect Indian artists and 
the collectors from fraudulent activity.
    Here in New Mexico, where the State's tourism and economy are so 
dependent on Indian art, artists, and culture, and here where such a 
high percentage of Indian art is distributed to businesses and 
consumers nationwide, I believe that strengthening the Act would not 
only benefit your constituents, but consumers nationwide.
    Senators Udall and Heinrich, thank you for the opportunity to share 
my thoughts and concerns with you today.

    Senator Udall. Thank you so much, Mr. Pratt.
    And let's proceed. Mr. Maybee, please.

          STATEMENT OF DALLIN MAYBEE, CHIEF OPERATING 
   OFFICER, SOUTHWESTERN ASSOCIATION FOR INDIAN ARTS (SWAIA)

    Mr. Maybee. Thank you, Vice Chair. I appreciate the 
opportunity to come and speak a little bit about my experiences 
and insights and perceptions of the Indian Arts and Crafts Act 
and its implications on the contemporary Native American art 
world.
    My name is Dallin Maybee. I am Northern Arapaho and Seneca. 
I grew up on the Cattaraugus reservation in Western New York, 
but I'm actually enrolled in the Wind River Agency up in 
central Wyoming. I am the chief operating officer for the 
Southwestern Association for Indian Arts, the nonprofit that 
produces the 96 year-old Santa Fe Indian Market. I have a 
background in Native American performing arts and visual arts 
and, of course, in Federal Indian law.
    The Indian Arts and Crafts Act was a welcome addition to 
the world of Indian art. It was meant to be a buffer and a 
safeguard to the economic opportunities of our communities. 
Artists have been able to see firsthand the significance of the 
Act as they produce art forms and narratives that often present 
aspects of their cultural identity that they choose to share 
with the world.
    As a participating artist at the Santa Fe Indian Market, my 
eyes were opened to the economic opportunity that the Native 
art market offered, as people appreciated my creativity and 
continuation of art forms that we have often been practicing 
for generations. Often utilitarian in usage, some everyday art 
forms have evolved into fine art forms in which our artists are 
able to receive suitable compensation for. But like most 
perceived opportunities were gained, many of these forms have 
been copied and reproduced, robbed of the Native soul and 
creativity that often accompanies authenticity.
    The nonprofit that produces the Santa Fe Indian Market, we 
hold a venerated and prestigious place amongst all the now-
interested in Native American fine art markets. We are the 
oldest and had humble beginnings in 1922. And for almost 96 
years, artists from predominately the Southwest and now tribes 
from throughout North America and Canada descend upon the Santa 
Fe community, the traditional homelands of Tesuque, and other 
pueblos here in New Mexico, to not only enjoy the beautiful 
scenery and the fine food, but also to experience Native 
America at its finest.
    And it's presented through the many fine art forms we see. 
We also, as part of our programming, produce everything from 
couture and traditional fashion to food to performing arts. We 
cooperate with and partner with the National Museum of the 
American Indian to present a film festival. All of these things 
cooperates to create an experience unlike any other, with an 
economic impact of almost $80 million upon the state of New 
Mexico itself and the city of Santa Fe.
    When we engage with our visitors, they indicate that they 
come to Santa Fe simply to experience what Native America has 
to offer.
    As thought leaders for a constantly evolving dynamic of how 
people define Native art, our foundation is the artists 
themselves. We currently accept artists from across the United 
States and Canada, and we do require that participating artists 
provide proof of enrollment or, as per the Act, evidence of 
tribal certification from the tribe that they claim 
descendancy. This definition of how we define who is Indian, as 
Senator Campbell indicated, is still a challenge almost 30 
years later. We routinely hear of artists who have legitimate 
descendancy, either from their mother or their father's side.
    But my own example, for instance, if I was not enrolled on 
my mother's side--even though I was half Seneca--my father is a 
full-blooded Seneca--it's a matriarchal enrollment process. I 
would not find a place at Santa Fe Indian Market or elsewhere 
to be able to say, ``As a Native American, I am producing art, 
and you can, therefore, buy it.''
    I would be precluded from the Act.
    Some of the challenges that we see at Indian Market for our 
artists is the appropriation that occurs, not only from the 
theft of design, but also from the wholesale theft of often 
cultural identity. On occasion we find artists who submit for 
consideration their application claiming descendancy in order 
to come to Indian Market and take advantage of the economic 
benefit that our market has, but they simply on any level are 
not Native, either through descendancy or enrollment.
    So the first challenge that we see would be in the 
definitions of the Indian Arts and Crafts Act. How do you 
define who is an Indian? And we create models and mechanisms 
for tribes often to participate or adapt or evolve in order to 
help them create a certification process for themselves. We 
want to exercise our sovereignty, but oftentimes we lack the 
resources or the knowledge to create the models ourselves.
    So if we see successful models from Cherokee or the Choctaw 
in Oklahoma, we would hope that we'd be able to create forms or 
engage with them in order to create models for other tribes 
that need assistance on that form.
    The testimony today is also reflected heavily on 
enforcement. While we have seen a lot of success on both sides 
of that issue of either dealers engaging in fraudulent 
representation of Indian art or artists themselves engaging in 
fraudulent identity, there just simply needs to be more 
enforcement. I won't spend too much time on that because I 
think it's been stressed quite a bit.
    But again, I am grateful for the opportunity to present my 
experiences with the Indian Arts and Crafts Act. The challenges 
are definitely many, but through further definition and 
clarification, I think we can continue to step forward and 
protect the interests of our Native artists and their art 
forms. Thank you.
    [The prepared statement of Mr. Maybee follows:]

     Prepared Statement of Dallin Maybee, Chief Operating Officer, 
            Southwestern Association for Indian Arts (SWAIA)
    Good morning, my name is Dallin Maybee, I am Northern Arapaho and 
Seneca from the Spoonhunter and Maybee family's. I am the Chief 
Operating Officer of the Southwestern Association for Indian Arts 
(SWAIA), the non-profit that produces the world-renowned Santa Fe 
Indian Market, which is currently in its 96th year. I have an extensive 
background in Native American performing arts, in the visual arts, and 
in Federal Indian law.
    I would like to thank the Senate Committee on Indian Affairs for 
the opportunity to speak to you today about my experience and insights 
on the Indian Arts and Crafts Act.
    The Indian Arts and Crafts Act was a welcome addition to the world 
of Indian Art. Meant to be a buffer and safeguard to the economic 
opportunities of our communities, artists have been able to see 
firsthand the significance of the act as they produce artforms and 
narratives that often present aspects of their cultural identity that 
they choose to share with the world. As an artist for most of my life, 
I would create the elaborate outfits I wear in social and ceremonial 
settings, often spending hundreds of hours just on the beadwork and 
feather-work alone. As a participating artist at the Santa Fe Indian 
Market, my eyes were opened to the economic opportunity that the Native 
art market offered, as people appreciated my creativity and 
continuation of art forms that we have often been practicing for 
generations. Often utilitarian in usage, some everyday forms have 
evolved into fine art forms in which our artists are able to receive 
suitable compensation for. Like most perceived opportunities for gain, 
many of these forms were copied and reproduced, robbed of the native 
soul and creativity that often accompanies authenticity. I have 
recently heard first hand from a Navajo Jeweler whose acquired skills 
began at the age of 12, under the lessons of his silversmith father. He 
related how he was providing for himself at 14 through his jewelry 
skills, but given the competition during the 1980's, at the age of 17 
he was producing examples for a non-native dealer and working side by 
side with 40 non-native jewelers to reproduce these items which were 
then sold as ``Native'' made. Thankfully, the ``truth in advertising'' 
component of the Act protects our artists to some extent.
    SWAIA, the non-profit that produces the Santa Fe Indian Market 
(Indian Market), holds a prestigious and venerated place amongst all 
Native fine art markets. With humble beginnings in 1922, our market has 
bolstered and supported generations of Native artists, elevating 
traditional art forms and in many cases, evolving them. Artists who are 
able to jury into the competitive market find a venue unlike any other, 
a place where almost 100,000 people descend upon Santa Fe to experience 
one of the most beautiful and expressive forms of our cultural 
identity. In addition to fine art, we partner with the Smithsonian 
Institution's National Museum of the American Indian to present film 
and our additional programming includes a Gala auction, art previews, 
traditional and Couture fashion events, performing arts, and of course, 
food. Many markets look to our high-level standards requirements as a 
model for authenticity, and even foreign countries have sent 
representatives to meet with us in an effort to learn our model for 
elevating ``traditional art and craft forms'' to high level fine art.
    As thought leaders for a constantly evolving dynamic of how people 
define ``Native'' art, our foundation is the artists themselves. We 
currently accept artists from across all tribes in the United States, 
and have recently began accepting First Nations artists from Canada. We 
do require that the participating artists provide proof of enrollment 
or as Tribal Certified Artisans as per the Act. Year after Year, 
artists bring their most exciting pieces to Indian Market in the hopes 
of garnering one of our coveted prize ribbons and accompanying award. 
These represent achievement of the highest level, not only in the realm 
of the creative, but in technical mastery and expertise in the form as 
well. Exquisite jewelry forms, traditional dolls, carved masks, and 
textiles routinely garner Best in Show next to more recognizable forms 
of paintings or sculptures. It is amongst these exciting opportunities 
that the Act has helped to protect, that we have also seen the biggest 
issues and violations.
    Appropriation sees many forms in the Native art community. While 
there has been a healthy exchange of ideas, songs, dances, and ceremony 
amongst tribes for generations, there was a protocol and respect 
associated with an exchange of ideas. Western ideas of property teach 
differently however. Especially in art. We have most recently seen the 
appropriation of family designs, often associated with the sacred, 
taken by fashion designers who claim to want to ``honor'' or pay homage 
to native culture. Others simply recognize the popularity of Native 
design and simply hope to gain. Perhaps the most extreme of these, are 
those who without enrollment or even descendancy, will appropriate an 
entire tribal identity in order to gain economically, spiritually, or 
for some other self-serving reason or status. Our certification process 
during jurying does eliminate some of these fraudulent artists, but we 
cannot simply verify with every tribe the validity of their artists. We 
often rely on our relationship with the Indian Arts and Craft Board to 
assist us in identifying potential violators. This is a critical 
component of our market because attendees are assured that what they 
are seeing and experiencing here is genuine and authentic.
    Artists are grateful for the enforcement efforts that have been 
made to date, but I am sure that the testimony heard today will reflect 
a desire for increased resources for continued and ongoing enforcement 
efforts. Just as there is trademark and patent protection for 
``intellectual property'' concepts, so too should there be for artists 
whose commodity and creation isn't simply art, they are cultural 
identity concepts. This also places a measure of accountability on 
tribes themselves. They must have the mechanisms in place to identify 
their cultural patrimony and verify the validity of their claim. The 
development of a model mechanism will assist tribes in the creation, 
tailoring, and evolution necessary to fulfill this accountability. 
Another mechanism that could be facilitated and presented to tribes for 
potential adoption would be something to address the Tribal Artisan 
Certification process for legitimate descendants who simply don't 
fulfill enrollment requirements for their particular tribe.
    Again, I am grateful for the opportunity to present my experiences 
with the Indian Arts and Crafts Act. While the challenges are many, I 
do suspect though that moments like this, further definition and 
clarification, will increase the effectiveness of the Act and its 
continued protection of Native art forms.

    Senator Udall. Thank you so much, Mr. Maybee. And you've 
got a real--like all of the witnesses here--they all have real 
expertise and something to offer here. We hope all of you, as 
you hear this testimony and then walk away from it, will keep 
sharing with us your ideas and help us improve on what we have 
going on right now, which is some good stuff, I think.
    Ms. Begay-Foss, love to hear from you. Please proceed.

        STATEMENT OF JOYCE BEGAY-FOSS, DIRECTOR, LIVING 
         TRADITIONS EDUCATION CENTER, MUSEUM OF INDIAN 
                        ARTS AND CULTURE

    Ms. Begay-Foss. Welcome to tribal leadership and officials, 
Federal and state officials, and other guests.
    Thank you, again, Senator Udall and Senator Heinrich and 
the U.S. Senate Committee on Indian Affairs for scheduling this 
very important field hearing on the topic of the Indian Arts 
and Crafts Act.
    I am an accomplished weaver for over 40 years, and I have 
won numerous awards at the Santa Fe Indian Market. And I've 
also showed at the Eight Northern Pueblo show and San Felipe. 
So I draw on this expertise as a writer, instructor, and 
lecturer on traditional Navajo textiles and dyeing techniques. 
I curated several exhibitions at the Museum of Indian Arts and 
Culture on Navajo textiles. I've also been involved in 
addressing issues and concerns about the intellectual and 
cultural property rights of the Southwest tribes, especially 
with Dine (Navajo) weavers.
    And for many years I've been in contact with local Navajo 
weaving association groups, such as Ramah Navajo Weavers 
Association, and Sheep is Life, in Navajo, which is Dibebelin .
    My clan is the Nakaidine (Mexican clan) born for Tachi'ni, 
(Red Running into the Water People). And I was born in 
Shiprock, New Mexico. And on my mother's side, that's where I 
learned weaving from, was from my great aunts who were weavers. 
So they were like--my mother is in her 80s now, and they were 
like in their hundreds. I was very fortunate to have that kind 
of traditional cultural knowledge from them.
    And so my aunts lived around Lukachukai, Arizona. And about 
30 miles from Lukachukai in Canyon de Chelly, there's an 800-
foot tall rock called Spider Rock. So as a child, I was told 
stories of Spider Woman (Naashjei Asdz ) and said she lived on 
top of this rock and that she gave our people this gift of 
weaving.
    So for the Navajo people, weaving is not just an art form, 
the direct connection to our environment and lifeways. Weaving 
teaches you stamina and perseverance.
    And I didn't put some of this earlier stuff in my written 
testimony, but some of the earliest textiles that we have came 
from around 1850s and 1880s. This was during the time of Long 
Walk. So even during that time, our people persevered and 
carried on that traditional knowledge of weaving.
    And today, I feel we're losing that cultural knowledge as 
well as our language. And it disturbs me that people throughout 
the world are misappropriating our traditional designs and 
profiting from it.
    Our earliest designs came from our baskets, and then they 
went into, transitioned into our women dresses, chief blankets, 
shoulder and child's blankets. These textiles were finally 
woven from handspun warp and weft woolen yarns. Back then 
people had their own sheep and goats, and they had to spin it, 
so they did not have the resource of buying commercial because 
it was in the 1800s or even earlier.
    So colors were limited to natural brown, white, black, and 
indigo-dyed yarns. In these textiles, patterns were 
specifically woven a certain color and placement for a reason. 
However, today the import market has taken some of these very 
traditional designs and have displaced or rearranged them in 
knockoffs that I find offensive. We also have regional styles 
throughout the reservation that have been misappropriated as 
well. And these styles are Storm Pattern, Ganado, Crystal, Two 
Grey Hills, Teec Nos Pos, Yei, and Yeibechai, to name a few.
    The Two Grey Hills, Ganado, Crystal are actually chapter 
areas. We have 110 chapter houses on the reservation. And so 
within these areas, among as weavers, we know, like I come from 
Shiprock, and Shiprock area, but I know I'm not going to weave 
a Two Grey Hills rug, out of respect.
    So that's why we don't really, like, copyright our designs. 
It is traditional--Howard brought up it's how we were raised to 
weave these patterns. So we know what they mean and how the 
placement is and the colors.
    So besides the misappropriation of designs in the import 
market, Navajo weavers face competition in the lower cost of an 
import item. Unfortunately, some consumers prefer to buy a 
cheaper knock-off of a Native American design product. 
Currently, Navajo knockoffs are being woven in over 15 
countries, probably more, including Mexico, Guatemala, Peru, 
Thailand, Nepal, India, Ukraine, Moldova--which is near Ukraine 
and Romania--Japan, Egypt and Turkey.
    Weavers on the reservation have limited--we have limited 
venues to sell their rugs. There are few trading posts which 
will purchase or trade for rugs or blankets. But again, weavers 
are getting a lower price for their weavings. They can also get 
their work juried at different art shows in the country. They 
can gain recognition for their work, and also collectors or 
buyers can have that consumer confidence in their purchases 
because the art shows juried work and, you know, they have a 
screening process.
    There are so many issues. So I'm trying to keep it within 
the five minutes, but there are some other issues to be 
considered. More education, working with weavers, to have 
better labeling on their weavings, like saying cultural 
affiliation. Like we could say it's Navajo or Dine, a 
description of your weaving patterns, the materials that you 
use, because we not only have traditional and contemporary, 
we--I could weave a Navajo rug made out of acrylic yarns.
    The Federal law will not protect you as a buyer. It just 
says it has to be Indian made. It doesn't say it has to be 
wool. So some buyers might buy a wool rug that might be--have 
different fibers, and then they get upset, because it's not 
what they thought they had purchased.
    Museums and juried art markets should have how to buy 
Indian art on their websites. And I'm going to talk to my 
museum director in my art department to see what we can do to 
do that.
    And then also Indian Arts and Crafts Board, I think they 
need to hold more workshops nationally on different issues 
regarding Native American art, not only just for artists but 
for the general public. I am currently working with the Board 
on the Navajo weaving brochure, and the museum is providing 
images of some of our textiles.
    So it's very important that we need to educate consumers, 
and we also need to address, you know, the issue of the 
importing. Even in the country, though, it's not just imported; 
it's other designers and other people that are using Native 
American designs, not just in weaving, but in basketry, in 
jewelry, pottery, everything.
    And there's only 12 states; Alaska, Arizona, California, 
Colorado, Minnesota, Montana, Nebraska, Nevada, New Mexico, 
Oklahoma, South Dakota and Texas that have enacted laws 
prohibiting the misrepresentation of Indian arts and crafts. I 
think other states need to enact laws as well. Because we have 
those other issues of the cultural objects and how we're going 
to prevent people from taking them.
    And we need stricter U.S. Custom laws regarding imported 
non-Native American products coming into the country. And under 
the former statements earlier, there are obvious--many 
manufacturers that can be identified.
    So thank you again, Senators, and the Committee for 
allowing me to submit testimony regarding the issues about 
Navajo weaving.
    [The prepared statement of Ms. Begay-Foss follows:]

  Prepared Statement of Joyce Begay-Foss, Director, Living Traditions 
          Education Center, Museum of Indian Arts and Culture
    Thank you to Senator John Hoeven, and the U.S. Senate Committee on 
Indian Affairs for scheduling a field hearing on the topic of the 
Indian Arts and Crafts Act.
    I am an accomplished weaver for over 40 years and have won numerous 
awards at the Santa Fe Indian Market, the Eight Northern Pueblos Arts 
and Crafts Show and the San Felipe Arts and Crafts Show. I draw on this 
expertise as a writer, instructor and lecturer on traditional Navajo 
textiles and dyeing techniques. I have curated several exhibitions at 
the Museum of Indian Arts and Culture on Navajo textiles. I have been 
involved in addressing issues and concerns of intellectual and cultural 
property rights of the SW tribes especially with Dine (Navajo) weavers. 
I am in contact with local Navajo weaving groups such as Ramah Navajo 
Weavers Association and Sheep is Life (Dibe be Iina). http://
navajolifeway.org
    My clan is Nakaiidine (Mexican Clan) born for Tachii'ni (Red 
Running into the Water People). I was born in Shiprock, New Mexico and 
on my mother's side my great aunts were weavers and lived in 
Lukachukai, Arizona. About 30 miles from Lukachukai in Canyon de Chelly 
there is an 800 foot tall rock spire (Spider Rock). As a child, I was 
told stories of Spider Woman (Naashjeii Asdzaa ) and that she lives on 
top of that rock and that she gave the Navajo people the gift of 
weaving. For the Navajo people weaving is not just an artform but a 
direct connection to our environment and lifeways. Today I feel we are 
losing the cultural knowledge as well as our language. It also disturbs 
me that people throughout the world are misappropriating our 
traditional designs and profiting from it.
Cultural Misappropriation of design by import market
    Our earliest designs came from our baskets and then transitioned 
into our women's dresses, chief blankets, shoulder and child's 
blankets. These textiles were finely woven from handspun warp and weft 
woolen yarns.
    Colors were limited to natural brown, white, black and indigo dyed 
yarns. In these textiles patterns were specifically woven a certain 
color and placement for a reason. However, today the import market has 
taken some of these very traditional designs and have displaced or 
rearranged them in knock-offs that I find offensive. We also have 
regional styles throughout the reservation that have been 
misappropriated as well. These styles are: Storm Pattern, Ganado, 
Crystal, Two Grey Hills, Teec Nos Pos, Yei and Yeibechai to name a few.
Navajo Rug Economy
    Besides the misappropriation of designs of the import market Navajo 
weavers face competition in the lower cost of the imported item. 
Unfortunately some consumers prefer to buy a cheaper knock-off of a 
Native American designed product. Currently Navajo knock-offs are being 
woven in over 15 countries, including Mexico, Guatemala, Peru, 
Thailand, Nepal, India, the Ukraine, Moldova, Romania, Japan, Egypt and 
Turkey.
    Weavers on the reservation have limited venues to sell their rugs. 
There are a few trading posts which will purchase or trade for rugs/
blankets but again weavers are probably getting a lower price for their 
weavings. Weavers that can get their work juried at different arts 
shows in the country can gain recognition for their work and also 
collectors can have consumer confidence in their purchases.
    Other issues to be considered:

<bullet>  Weavers need to have better labels on their weavings showing: 
        Cultural affiliation (i.e. Navajo/Dine), Description of weaving 
        and materials used.

<bullet>  Museums and art markets should have: How To Buy Authentic 
        Native American Art on their websites.

<bullet>  Indian Arts and Crafts Board should be holding workshops 
        nationally on different issues regarding Native American Indian 
        Art for Native Artists as well as the general public. Currently 
        working with Indian Arts And Crafts Board on a Navajo weaving 
        brochure. This brochure in very important to educate consumers 
        and also to address import/knock-off Navajo weavings.

<bullet>  Only 12 states--Alaska, Arizona, California, Colorado, 
        Minnesota, Montana, Nebraska, Nevada, New Mexico, Oklahoma, 
        South Dakota, and Texas--have enacted laws prohibiting the 
        misrepresentation of Indian arts and crafts. Other states need 
        to enact laws as well.

<bullet>  Have stricter US custom laws regarding imported non-Native 
        American Indian Art products coming into the country. There are 
        obvious manufacturers that can be identified.

    Thank you, Senators and the Committee for allowing me to submit my 
testimony regarding the issues about Navajo weaving.

    Senator Udall. Thank you so much, Miss Begay-Foss.
    And I once again thank all the witnesses. And because you 
presented such insightful testimony, I have a number of 
questions here that kind of probe down on what some of you have 
testified to today.
    Mr. Martinez, in your--you've done a lot of law enforcement 
work. You've worked in various capacities here in New Mexico. 
You testified that one of the challenges you face in enforcing 
the IACA is its failure to address importers of Native 
American-style merchandise.
    How would a clear country of origin label help to prosecute 
violators of the IACA?
    Mr. Martinez. Vice Chairman Udall, that is crucial in your 
consideration from my perspective, because one of the things 
that you need to show when you're prosecuting these cases is 
knowledge. And so if you have a clear label of a country of 
origin on the product itself, that would help the future 
prosecutors going forward as far as, did the person who's 
importing the product have knowledge or is the person who's 
buying the product and then selling it retail have knowledge.
    Senator Udall. And so it sounds like that could be the 
difference.
    Mr. Martinez. Very much so, sir.
    Senator Udall. One of the goals that I have in mind 
strengthening the IACA so that we dismantle counterfeit 
operations in their entirety, how could amending the law to 
include a forfeiture clause help to do that?
    Mr. Martinez. Well, through a forfeiture clause, Vice 
Chairman Udall, it would allow that future prosecutor to seize 
the money from the operation, seize the proceeds from the 
operation, and seize any merchandise that was bought from those 
proceeds.
    Senator Udall. And in a forfeiture, you don't necessarily 
need a criminal conviction in order to do a forfeiture, is that 
correct, or would you be recommending the two be combined 
together?
    Mr. Martinez. Well, you have both civil and criminal 
forfeiture. In this Act, I would, from my personal perspective, 
I would recommend that you look at a criminal forfeiture, 
Section 4, amending this Act.
    Senator Udall. Okay, great. Thank you.
    Now, you in your testimony talked about, Mr. Martinez, 
seven recommendations. How would you order those in terms of 
the most important and the most urgent?
    Mr. Martinez. Well, the first recommendation that I would 
have is--and this goes back to part of your original question--
was that there's two places to target; the merchandise being 
brought into the country and then the point of sale of the 
merchandise in the country itself.
    So I respectfully recommend that you look at adjusting the 
statute to look at those two points separately. Also, again, 
just stating what you already mentioned in the question, it's 
crucial that this statute have--it makes clear that there 
should be an indelible country of origin marking. Because right 
now, what the prosecutors need to do is, they need to go a 
civil--to the Civil Rule, 19 C.F.R. 134.43. But if you can 
incorporate that requirement in the statute itself, that's 
going to make a difference.
    Also, you mention a forfeiture. That's crucial. 18 U.S.C.  
1956, it's important that you incorporate Section 1159 as a 
specified unlawful activity. Also, something that is absolutely 
crucial here is, the U.S. Attorneys' Office, they go after 
organizations, and one of the sections is 2516, 18  2516. 
That's the authorization for a wiretap statute. And if you can 
make Section 1159 as an offense for investigation, that would 
be very important for the fact that again, in going to 
knowledge, one of the best ways that you prove knowledge is 
communication.
    So if there comes a time in the future that a U.S. 
Attorneys' Office needs to investigate an investigation, and 
they're able to prove to the Court that a wiretap is necessary, 
that would help prove knowledge, that communication.
    Senator Udall. Thank you. And I'm going--I may come back to 
you in a minute or so.
    Mr. Pratt, in your testimony, you gave the real-world 
example of your brother. A person purchased his work, then 
replicated it and sold the replicas as authentic. Did your 
brother file a complaint with the Indian Arts and Crafts Board 
or did he take legal action on his own?
    Mr. Pratt. He took legal action on his own, once he 
discovered that his work was being duplicated. That rarely 
happens in the Indian world. They don't have the funds to do 
those things. And my brother had the funds to do that and 
stopped this guy from doing that and made him pay royalties and 
seek what he had left.
    Senator Udall. So he was successful in his legal action, 
but obviously in a legal action, you have to hire a lawyer, you 
have to pay the lawyer on an hourly basis, and then you hope to 
win, but you never know, because there's always two sides of a 
story in legal cases.
    Mr. Pratt. And we see that a lot among Indian artists; that 
they don't have the assets to do that.
    Senator Udall. Yes.
    Mr. Pratt. And if they complain to somebody, they don't 
have the knowledge to pursue it.
    Senator Udall. What was the role of Federal law 
enforcement, if any, in your brother's case?
    Mr. Pratt. None.
    Senator Udall. None.
    Was it reported through various law enforcement channels 
and outlets?
    Mr. Pratt. I think he discovered himself when he saw his 
work had been duplicated. He originally did it in bronze and 
the man was duplicating it in silver. When he realized that was 
his work in silver, he didn't do it, he found out who was 
selling it under his name as a limited edition. And he filed a 
charge against him.
    Senator Udall. Now, Mr. Martinez, like any agency, we are 
oftentimes forced to juggle priorities when we have limited 
resources. As U.S. Attorney, what was your particular interest 
in pursuing these counterfeit cases, and would you like to see 
the current U.S. Attorneys' Office keep on the same path?
    Mr. Martinez. Vice Chairman Udall, here in New Mexico, the 
U.S. Attorneys' Office have great responsibility. We have two 
national labs. We have military bases. There's immigration 
issues. There's crime issues. There's a drug epidemic and then 
what we're talking about today. So with the limited resources, 
it was important to try to figure out how to prioritize and try 
to get the limited resources to all these issues that we're 
talking about.
    As stated on your first panel, one of the things that was 
absolutely crucial was good partnership with the law 
enforcement agencies and, to the extent possible, with the 
community when you're doing investigation.
    And so what was important in prioritizing is the amount of 
damage that's occurring in each investigation. The topic that 
we're talking about today is extremely damaging to the Native 
American community and with the U.S. Attorneys' Office has a 
trust responsibility to the Native American community.
    And as some of the panelists have already told you, this is 
damaging to the heritage, it's damaging to the culture, and 
then as part of that consideration, too, is a large part of the 
economy in New Mexico is tourism. And it's also damaging there 
if people can't trust what they're buying.
    And just lastly answering your question, it is my hope, and 
I have to believe that the next U.S. attorney will also keep 
this as a priority.
    Senator Udall. And I think it's important as a priority, 
and I will be conveying that to whoever becomes the next U.S. 
attorney.
    And I hope that the acting U.S. attorney, which sometimes, 
you know, the acting U.S. attorneys, if they're listening and 
understand how important this is, sometimes they serve a--for a 
matter of months in these kinds of situations. And so they're 
the top person at the office.
    Please go ahead.
    Mr. Martinez. Vice Chairman, the current acting U.S. 
attorney is Jim Tierney. He was first assistant in the office. 
He has over 33 years of experience in the office. And after 
having him as my supervisor and having worked with him, I have 
no doubt that this is a priority for him and for this office.
    Senator Udall. Great. Thank you so much.
    Mr. Martinez, when I was attorney general of New Mexico, 
you may recall that many of the complaints that came into my 
office were from individuals that felt they were getting a bad 
deal. So we took action under State law that had been on the 
books for quite a while. But it seemed to me there should be 
much more coordination between state, local, and tribal 
authorities.
    As U.S. attorney, did you work with nonFederal authorities 
on any of these particular cases?
    Mr. Martinez. Yes, Vice Chairman Udall. What we tried to do 
is take the comprehensive approach. The basic is prosecution. 
But also what we did is, we had a tribal liaison, and we tried 
to make sure that we were touching base with the tribes as 
often as possible. We also had listening sessions where we 
tried to bring all of the tribes together so that they could 
bring us input on how the U.S. Attorneys' Office was doing--
good or bad.
    And then also from a regional perspective, we also--and 
during my last year, we hosted the Four Corners Conference 
where we brought together the U.S. Attorneys' Office from Utah, 
Colorado, and Arizona, and the various players in these areas 
to try to talk as a collective of what we were doing right and 
what we were doing wrong to be better in the future.
    Senator Udall. And my understanding, when you were the U.S. 
attorney, you initiated efforts with the leaders of the Indian 
Nations here in New Mexico and asked their input and how to do 
better in the job which you were doing, which I'm sure you 
heard about these issues in that context.
    Mr. Martinez. Yes. Vice Chairman Udall, with the limited 
resources we had, we were trying to get out and talk to the 
community as much as possible.
    Senator Udall. Do you think it would be possible to have a 
joint Federal-state-tribal task force to implement a 
coordinated enforcement response?
    Mr. Martinez. Yes, Vice Chairman Udall, to the extent 
possible. Sometimes you can't do it when you're doing an 
investigation. But to bring folks together in a collective and 
try to talk through the issues, one of the most important 
things is getting people to the table. And that would show that 
it's a priority.
    Senator Udall. Mr. Maybee, an issue that concerns me is the 
impact of fake, mass-produced goods that are marketed as 
authentic Indian arts and crafts on the local economy. As an 
executive at SWAIA, do you have any experience with Native 
vendors at Indian Market or elsewhere being impacted by 
counterfeiters of their work?
    Mr. Maybee. Absolutely. Obviously, it's disconcerting to 
hear about an artist going into a local shop and see their 
hallmark piece of work that they didn't touch. As I talked to 
other artists. And as an artist myself, you know all the pieces 
that you've produced in your career, you're very familiar with 
them and the techniques. And so there is a direct economic 
impact on the artists when they see counterfeits.
    And even then, it's the dynamic between what we do as an 
organization in terms of educating our visitors and our 
collectors. We give two licensing agreements to magazines to 
produce, and give Market publications that are very heavy on 
educating our collectors and casual visitors, even, as to 
what's the difference between a thousand dollar squash blossom 
necklace and maybe a $40 squash blossom necklace that they can 
find in a shop 20 feet away, often, from artists at Indian 
Market itself.
    And so it's not just the fraudulence. It's the level of 
standards that are often being seen. In my written testimony, I 
related an experience of just recently talking to an artist who 
started his career at the age of 12, and at the age of 14 was 
using his jewelry skills to provide for himself. But at 17, the 
competition was so strict, he actually went to work for a 
dealer who employed 40 additional non-Native artists to produce 
works that he would produce.
    He produced a piece, and the dealer would ask him what he 
would ask for that and take it to his non-Native jewelers and 
said, ``What can you produce this for?'' And often pennies on 
the dollar in comparison. He only did that for a short time, 
but it was mainly a matter of survival.
    Even today, you can go into the shops in Gallup and see 
artists who, as a matter of survival, have to undercut each 
other, because there's 30 other people who will sell--30 other 
Natives, often--who will sell because of--at a lower price 
point, these pieces of work, because the dealer will sell them 
and very unscrupulous and unethical in how they deal with the 
compensation for these artists.
    Senator Udall. Do you know if Native vendors have been 
forced to lower prices to compete with the wholesale 
counterfeits flooding the market elsewhere?
    Mr. Maybee. Not so much at our market. We've--we have the 
luxury of having presented authenticity, high-level standards 
for decades. Generations of artists have been able to utilize 
the strength of our market and the prestige in order to gain 
what is fair prices for their work.
    But for the rest of the 363 days out of the year, 
absolutely. If they are struggling to find representation in 
galleries or find commission work, they have to undersell 
themselves often, because the dealers know, If I don't get 
something from this artist, I can go get something similar. And 
for some, it will be straight counterfeits.
    Senator Udall. Mr. Pratt, I understand you wear multiple 
hats and have a wealth of experience not only as a master 
artist but as a former law enforcement officer and the Chairman 
of the Indian Arts and Crafts Board.
    Can you provide some perspective on whether the IACA is 
serving its intended purpose, and if it's not, ways that we can 
improve the law.
    Mr. Pratt. Well, I think that since 2014, that Indian Arts 
and Crafts Board and the Indian Arts and Crafts Act has had 
some success. Prior to that, I think it was very limited 
because of no enforcement. We had a hard time getting 
enforcement to enforce laws, because local-state-tribal 
authorities didn't have the expertise in these specific crimes. 
And they were limited to just serve jurisdictions.
    So they couldn't--many times couldn't cross into other 
jurisdictions. So I think it was very limited as what we were 
doing. What we did in 2015, and prior to that, with Fish and 
Wildlife, that had great impact. I think it opened a lot of 
people's eyes that things have changed.
    And I think I saw that in the past when my brother did 
that. It made this man change his whole technique about what he 
was doing. He said, ``I've been doing that for 30 years. No one 
ever stopped me.''
    He said, ``It's a new age.''
    And I think we see that. Task forces, I think, would be--if 
we could get people trained, if we could train people at 
Artesia, train people in Georgia, in the Federal services, to 
cooperate and realize that this is a tremendous impact on the 
Indian people and on our economy; that we could train people to 
pursue these cases.
    And the Arts and Crafts Act is instrumental in that, in not 
only protecting artisans but protecting collectors. And I think 
that's really important.
    Senator Udall. Thank you. And I think it's important. Like 
you say, it is a new age. And if people are violating the law, 
we're going to be coming after them, and they will be brought 
to justice.
    As a Native artist, Mr. Pratt, how are knockoffs impacting 
your livelihood? Do you believe under-enforcement of the IACA 
is part of the problem?
    Mr. Pratt. I do. I think under-enforcement is part of the 
problem. People have been doing things for years, you know. You 
can sell a piece of art, an original painting to someone. And 
over the years I've seen that thing end up as a print, as a 
limited edition print, and the artists have nothing to do with 
it. Artists have never received any kind of royalties at all 
over those prints and that's just in that.
    You see that same thing in sculptures, in duplicating those 
things. And Indians don't pursue it.
    Senator Udall. Thank you.
    Joyce, you're working with the IABC to educate consumers on 
how to buy authentic Navajo rugs. Why is consumer education so 
important to preserving the cultural integrity of traditional 
Navajo weaving?
    Ms. Begay-Foss. That's a good question. Well, I think we 
still have a lot of consumers are not very educated about 
Navajo weavings, because they're still buying the imported or 
even knockoffs, as they call them, products. And then even 
there are other designers--I won't mention their names--but 
there are companies that produce other products. The designs 
are taken from Navajo weavings as well.
    But the thing that I've been working with Meredith's 
office, even when I was chair, like, three or four years ago, I 
brought that issue up to her again. And then I also helped her 
on a case involving a Navajo weaver trying to sell an imported 
rug.
    But the thing is that consumers look at something and say, 
``Oh, that's nice.'' That's a weaving, and they just assume 
that it was made by a Native person, and it has that Southwest 
Native design. And then they get home, and they realize, ``Oh, 
my God, this is not even an authentic product.''
    Even at the museum, we have people come in and bring in--
they want to know, ``Is this a weaving?'' And they ask me. I 
have visitors that come to the museum. And as a curator and a 
weaver, I say, ``No, this is a Mexican rug or an imported rug. 
It is not authentic.''
    And they really get upset. They go, ``Oh, my gosh.''
    And so with the brochure, what we want to do is, like I 
said in my testimony, we need to get the weavers to say, ``Yes, 
this is my rug. I'm Navajo. This is the style that I weave, 
whether it's Two Grey Hills, or it's my own personal style. 
It's made out of wool. It's hand dyed. The warp and weft are 
wool,'' or whatever it's made out of.
    Because Federal law does not protect the consumer on the 
materials. And this goes true with all the other art 
categories, like pottery and jewelry. You know, we have this 
huge issue with block turquoise. It's not even real turquoise 
or coral. I don't know, I could go on and on about the jewelry.
    But with the weaves, yeah, I think it's very important, 
because it is affecting the Navajo weavers. So, like, they can 
barely get 2- or $300 for a small rug today. And that's, like, 
a couple of hundred hours. And it's, like, barely a dollar an 
hour. So if you go and you look at, like, some of these 
imported rugs they sell along the streets, even at, you know, 
different markets or, you know--what do you call them, flea 
market type shows, places--you get them for, like, 15, $20, 
$30. Nothing. To me, I can tell. I'm like, you know, you're 
getting what you pay for. But, you know, they think they're 
getting, like, this Native product.
    So that's why I think it's important throughout the 
brochure and to educate the consumer and our Native artists 
that there is a Federal law, and they have to comply with it. 
But that's at the Federal level. I think we also need to 
address state laws, and then I think the tribes--especially 
Navajo tribe, too--we need to come to the table. And we need to 
set some, I don't know, laws, or whatever.
    But I think we need to have some educational things on how 
to buy products from our communities, whether we have laws or 
whatever information. Or even if they could have, like, a 
consumer complaint place, you know, within the different tribal 
communities and bring up these issues, because we have to start 
somewhere.
    We don't--you know, through all our state and Federal 
agencies, you know, there's no--there's limited funding. But I 
think at the grass-roots level in tribal communities, I think 
we need to watch out for each other, and we need to help. Our 
people can do that, and that's is how I do it. I talk to the 
weavers, like Sheep is Life and Ramah Navajo Weavers, and they 
tell me, you know, ``We're having a hard time. We can't make a 
living.''
    And, you know, Navajo Nation is remote. There are weavers 
that live 30, 40 miles from a store. And for them to take their 
rug and try to sell it to get groceries, you know, it's 
devastating when you don't have that $50 or $100 to last you a 
few more days.
    So it's economically, and it's culturally, and it's a 
very--I don't know--distressing topic that we're talking about 
today.
    Senator Udall. Now, Joyce, what other action can the IACB 
or Congress take to ensure and build consumer confidence in 
Indian arts and crafts?
    Ms. Begay-Foss. Well, it just comes down to educating 
people, I think. What are you buying? I mean, you can go buy a 
diamond ring; you go to a jeweler, ``Is that gold, 14 carat 
gold?''
    I think there are not enough questions asked by the 
consumers when they buy Indian art. They have to look at 
Federal. Okay. So this person--so the Federal law says it has 
to be Indian. What does ``Indian'' mean? I think that 
definition needs to be elaborated on saying that you need to 
ask Native American artists--even the word ``Indian,'' people 
don't like the word ``Indian.'' ``Native American,'' ``American 
Indian.'' But they need to go by cultural affiliation.
    So I can say, ``Yeah, made in China,'' well, where in China 
is that made? I can't find that as a consumer. But let's say, 
you know, going back to Indian. If it just said, ``Indian 
made.'' What the heck does that tell you?
    So my responsibility as an artist and as a weaver, I can 
say, ``No, you're buying a Navajo rug from me. It's 30-by-30 
inches. It's a saddle blanket. It's made out of churro wool. I 
have indigo dyes.'' I sign that, and I give it to my buyer. 
That's a done deal.
    But if the same buyer goes to another weaver and buys it, 
let's say, not just a Native buyer but a non-Native buyer, 
because they think it looks Native, and they buy it. ``Oh, I 
thought I bought a Native American product.''
    I say, ``Well, where's your receipt? Where's your proof?''
    Has to go to provenance or some kind of a guarantee of 
authenticity. We have to go to that level, I think, some kind 
of authenticity certification, receipt from the artist. I think 
that's going to be our thing that will hold up.
    Senator Udall. Joyce, you testified that for Navajo people, 
weaving isn't just an art form but a direct connection to your 
environment and to lifeways. Weaving is also a big part of what 
you describe as the Navajo rug economy. Can you elaborate on 
the impact of Navajo rug knockoffs from abroad, on cultural 
knowledge and the future of traditional Navajo weaving.
    Ms. Begay-Foss. Well, first of all, I can say in my 
testimony, it's very disturbing. And I really get upset about 
it, because they're misusing our designs. And, in fact, behind 
you, there are some baskets that are imported on the wall. And 
those are Navajo baskets, and I really do not like how they 
misuse even the design of our Navajo culture, because that 
represents our mountains. That's your life.
    All these designs and symbols--especially the traditional 
designs, not just from our people but throughout our country--
our Native people, these early designs mean something to our 
people. It's beyond--it's sacrilegious, in a way, how they just 
totally distort and misappropriate the use of the design. And 
we were taught, growing up, what these designs and patterns 
meant. So each of the weavers would know what I was--we'd be 
talking about. It's our connection to the sheep and the horses 
and the lifeways and, you know, being on the reservation.
    Those of us that do--I do natural dyes, so I use rabbit 
brush. I use sumac and the Native tea. I use indigo, cochineal, 
and that's connection to those lifeways I'm talking about.
    You talk about storm pattern. There's things about 
cosmology with what the lightning, and the placing even of our 
four sacred mountains.
    I could go on and on. I mean--so to me, these imported 
designers or people that are taking our designs, and they're 
abusing--I don't know how to explain it. It's misappropriating, 
it's abusing our--it goes into the Native American Religious 
Freedom Act. It's a violation of using our symbol--it's not 
just a symbol. These things mean something to our people.
    I think it's not just the Navajo. It's all of our people 
throughout the country. And so I think that comes into cultural 
and intellectual property rights.
    Senator Udall. Joyce, thank you. The fake baskets on 
display, the point we're making today is, there needs to be 
better awareness. I mean, there's no doubt about that. I think 
all of our witnesses are very much in agreement there. And one 
of the things that we need is an informed public to know what 
they're buying.
    Does the New Mexico Museum of Indian Arts and Culture, 
which is a very popular tourist destination, does that museum 
play a role in educating the public on buying authentic Indian 
arts and crafts? In your opinion, is there any reason to 
increase public awareness of fake Indian arts and crafts, would 
be in the best interests of Native artists or the market?
    Ms. Begay-Foss. Yes, we do off and on, especially during 
Indian Market. We will have invited the Indian Arts and Crafts 
Board. They've done presentations at the museum. We also had 
intellectual cultural property rights, a person coming in, 
Deborah Peacock from Albuquerque, she's a lawyer, and she did 
some presentations.
    We try to work with artists, too, and educate them. But 
like I mentioned in my testimony, I think we need to maybe look 
at putting that online. And I think all of these things, you 
have the Hurd Museum--especially museums that have, like, 
Native art shows. We have Native treasures, too. It's an art 
show, several hundred artists show it in May. And it's a good 
venue for artists, too.
    So yes, we are trying. Once a month we do have a program 
called, ``Let's Take a Look.'' But that's when people just 
bring in things just for us to identify. We don't do 
appraisals, because you know, we can't do that. We can't do 
appraisals. But we can tell them if it's authentic or not.
    But there is a tremendous need for that. And there are a 
lot of people that are wanting those type of services or want 
to learn or read about it. So the public is interested in that.
    Senator Udall. Great. Now, the last couple of questions 
here for the artists on the panel. Where do you see the future 
of the Indian arts and crafts business if we don't update the 
law to include better enforcement? And do you see a role for 
tribal governments in the future enforcement of the IACA?
    Mr. Pratt, why don't you go ahead, and we'll work down the 
line.
    Mr. Pratt. I know Oklahoma has 39 federally recognized 
tribes; 22 of those tribes have their own law enforcement, and 
many of their law enforcements are very large. And the other 17 
are law enforced by the BIA. And I think that some tribes are 
making steps to do something to protect their artists. Not all 
the tribes are doing it.
    I think that there should be some kind of training programs 
to the tribes to make them more aware of the laws and how to 
protect their own artisans. And I think at that point, an 
education of the public and collectors is going to be extremely 
important to know who you buy from. Buy from reputable 
galleries.
    Senator Udall. Mr. Maybee?
    Mr. Maybee. Yes. I believe that without increased fine-
tuning of the Act itself to strengthen it, not only in terms of 
enforcement, but also the education on the part of people 
interested and wanting to engage in Native art. You know, the 
fraudsters and the dealers of counterfeits, they get savvy. And 
they are savvy, and they'll increasingly move towards better 
techniques to defraud consumers.
    And we'll hopefully never see the market slide back to what 
it was back in the '60s and '70s and '80s. So it's going to 
take some increased efforts on the part of the Act. That 
doesn't absolve tribes of their own accountability for creating 
mechanisms to certify unenrolled artisans who have legitimate 
descendancy.
    It is within the tribe's purview to define the membership, 
but they can go a step further and engage artists who are 
simply in the business of protecting their art forms and 
narratives.
    A large component of what we do at Indian Market is, we 
allow for the evolution of art forms. We don't dictate to the 
artisans what they should or shouldn't create; whether it 
should be X amount of traditional forms or contemporary forms. 
That stuff evolves organically. We simply encourage them to 
keep producing art.
    Because more often than not, those art forms are direct 
translations of who they are as people. They engage their 
lifeways, their traditional and ceremonial narratives. They do 
a pretty good job of policing themselves and not delve too much 
into the cultural patrimony. We want to encourage that. We want 
them to be as expressive as possible and simply be artists and 
not just Native artists.
    The Internet is a very real threat. It is very 
disheartening to see that not too many prosecutions have 
occurred over the Internet when all trends indicate that the 
Internet is going to simply continue to explode exponentially 
in terms of the amount of commerce that engages in what is 
often a very anonymous arena.
    Dealers can create an eBay website and have it disappear a 
week later after they have sold significant counterfeits. It 
makes it very difficult to prosecute some instances where there 
still is a little bit of anonymity, especially for an unsavvy 
collector, a person who wants to delve into the area of Indian 
art.
    Senator Udall. Joyce?
    Ms. Begay-Foss. Well, with the Act itself, I would like to 
see them change the term ``Indian'' and look more at cultural 
affiliation for artists. And then also addressing the issue of 
tribal--what do you call it, like, ``blood quantum''?
    If there's a way that they can work with tribal leadership, 
because I know there are families that have--that intermarry or 
they marry outside. And then--like for me, for example, my 
grandkids. They're Navajo, but they're not enough Navajo.
    So anyway, they come from a strong lineage of ancestral 
Navajo people, because my great-grandma is Dine, Navajo. 
Anyway, forget the tribe, forget the government. They're still 
Dine, no matter what. We are a matriarchal society, so even 
among our own people and own clans, we do that.
    But I think there needs to be something at the tribal level 
to help some of our other artists, because I think we're going 
to lose more of those type of artisans in that definition. And 
we also need to educate the people, artists, and the general 
public. I mean, it's just ongoing. You have to keep educating 
people.
    I think at the tribal level they need to work more closely 
at the Federal level and how the Indian Arts and Crafts Board 
carry out their mission for this big giant import, you know, 
counterfeit cloud here. We're way over here, and there's this 
big storm over here. I see this big storm. I don't know how to 
clear it, to get rid of it, but it's always going to be there, 
I think.
    But we need to work--I think it's a matter of working 
together as agencies and as people to work on this ongoing 
issue, because it's not going to go away. I think we really 
need to just work together.
    Senator Udall. Thank you very much.
    Just as a final question to the whole panel or giving you 
an opportunity to just sum up here, is there anything that 
you've heard that you want to agree or disagree with, or is 
there something that we haven't given you the opportunity in 
terms of asking questions to comment on?
    Joyce, why don't you start with you and work to the left.
    Ms. Begay-Foss. I think we overall--everyone has some very 
empowering comments at many different levels. I would like to 
see more--if we have another hearing on this issue at the 
tribal level with our leadership and just hear what they have 
to say and how they can work together with your office at the 
Federal and then at the state level. And then, you know, look 
even at revisiting even our state law, and really looking and 
identifying the, like, the Indian art markets, with Dallin, you 
know, the Hurd Museum. And, you know, there's other art markets 
throughout the country, looking at some of the standards, how 
we can help our consumers.
    Because they're the ones that are buying the work. I mean, 
so you've got to look at, Who are we targeting? And who do we 
want to listen to us? Who can help us?
    So it is just figuring out all the players. I think it is 
very important to me that myself as a Navajo and member of the 
Navajo Tribe, that I would like to hear from my leadership on 
this very issue.
    Senator Udall. Thank you.
    Dallin?
    Ms. Shappert. So I'm highly encouraged by the efforts that 
have come from the Federal, state, and even the local level. 
The City of Santa Fe recently enacted an ordinance that created 
an Indian Act Zone that mimics the Act in a lot of ways on a 
state and Federal level with a little bit of an enforcement 
issue.
    They do say that for those vendors who are unscrupulous in 
their business practice, they can have the potential of having 
their business license revoked or taken away. It would be nice 
to see cooperation on the state level if those prosecutions do 
come through. They can recommend to the City of Santa Fe.
    It's elusive, I know. Oftentimes ownership will shift hands 
from one relative to the next in a span of a day or two. But 
that does send a message. In terms of the Act itself, one point 
I wanted to make was, you know, we live in a world where the 
laws often have to define every aspect. We see it in trademark, 
in patent law, areas of the law I was not a fan of in law 
school.
    But it was necessary. There's often resistance to defining 
things to a point, but I think with enough conversation, yes, 
we can recognize it. It's not enough to simply say, ``Oh, this 
is inspired by'' or ``I'm paying homage to.''
    That is very much a loophole to the Indian Arts and Crafts 
Act. So if we can continue to work towards those definitions of 
who is an Indian, what does it mean to be a Native artisan or 
to create Native art, I think we still need to move forward.
    Senator Udall. Thank you.
    Harvey?
    Mr. Pratt. I think that we need to move towards training 
and education. Training of law enforcement, workshops with 
galleries, with the tribes, make them more knowledgeable of 
what their rights are and what they can expect if they discover 
something wrong, who they can go to, to effect a result; 
whether it be on a Federal level or state level, tribal level. 
A lot of states have reservations. Oklahoma does not have a 
reservation. We have trust lands, allotted lands, and tribal 
lands. And allotted land could be in the house next door to 
you. It would be tribal land and have no jurisdiction there.
    So I think that we need to educate collectors and the 
public and artisans and tribes about what they can expect.
    Senator Udall. Thanks.
    Damon?
    Mr. Martinez. Senator, I would ask that in addition to 
revising the statute, that you would also consider respectively 
contacting the U.S. Department of Homeland Security, 
specifically the U.S. Customs and Border Patrol, CBP, because 
when they're doing the inspections at the port, they need to 
know about the C.F.R. that's currently in place. And if they 
come across anything that isn't marked, that they either flag 
it or seize it.
    And so that's going to be the first line of defense right 
there. And thank you for this opportunity to speak to you 
today.
    Senator Udall. Great. Thank you so much. And I just really 
want to thank this panel--the previous panel--but in particular 
this panel that I think brought really insightful testimony to 
what the harm is, what we're talking about here. And I think 
all of us, my staff here, we've learned a lot, and so we really 
appreciate you sharing with us and giving these examples and 
taking your time to do that.
    Since there are no more questions for today, I would like 
to remind folks that senators that are on this Committee, they 
also submit follow-up written questions to you for the record. 
You may get questions from the Chairman. Senator Hoeven really 
appreciates that the Chairman sent his top person out here, and 
I know that he may visit us in the future, and I may visit him 
in North Dakota.
    He's been a great chairman of the Senate Indian Affairs 
Committee. He's been very interested in the issues that we've 
talked about today. And I really hope--he's got many tribes in 
North Dakota. I hope I'll have an opportunity to visit Senator 
Hoeven there. And so I thank him very much.
    The hearing record will be open for two weeks. I thank the 
witnesses again for their time and testimony. I just want to 
say a word about staff. And thank you, Senator, for being here, 
former Senator Ben Nighthorse Campbell. He's been here the 
whole time listening and hearing all of this.
    You know, one of the things that I've learned being a 
senator is, to be a good senator, you've got to have a great 
staff. And we've had a great staff effort in this entire 
operation here. We have the Senate Indian Affairs Committee 
staff here. Jennifer Romero and Anthony Sedillo, both of them 
are native New Mexicans.
    We also have Mike Andrews and Holmes Whalen from Senator 
Hoeven's staff. Also, the personal staff of my office that's 
helped with all of the organization here; Josh Sanchez, Greg 
Bloom, my State director, Alex Jordan, Ned Adrian, Zoey Wilson-
Meyer, and Cal Curlen.
    So we appreciate all of the things that they've done, and 
I'm going to tap the gavel, but I want you to just recognize 
we're also going to recognize--is Jude still here for the 
closing prayer?
    Okay, terrific.
    Senator Campbell, did you--you're going to--you want a 
closing comment, a quick one?
    Senator Campbell. Yes.
    Senator Udall. Please come on up. I call him Senator 
Campbell, you don't know I say former senator.
    The tradition with senators is, Once a senator, always a 
senator. So Senator Campbell, give us your closing.
    Senator Campbell. The only advantage of being an ex is, you 
don't get as much hate mail.
    I really haven't been to a hearing for a long time. I was 
really interested in the testimony. I would mention even when I 
was the chairman, there is always budget constraints.
    Under the present, current budget of President Trump, 
there's going to be a 30 percent cut in the Interior's funds. 
Part of that money comes out of the Indian Arts and Crafts 
Board. Even when I was active in the Senate, they were always 
ramming against the edge trying to do more with less. They're 
going to need a champion this year, and I know you're going to 
be that champion, Mr. Chairman.
    This was really interesting to me because about three weeks 
from now, as Chairman Maybee will tell you, there will be over 
100,000 people in this town, and the vast majority are 
wonderful, caring, loving people that are going to spend a lot 
of money, visit with Native people, support Native people, and 
so on.
    But in that 100,000 crowd, just like any crowd of 100,000, 
there's going to be a couple of rats. And it's always been that 
way with any major group. But in this case, they will be around 
photographing or copying right through your glass cases of the 
artist. And a month later, you'll see those in a magazine made 
in China.
    That actually happened to me with a necklace I made one 
time years ago. In fact, I think it made it into Indian Market 
that year. And within a year later, I saw it in a magazine 
which comes from China. Well, where does that leave an 
individual craftsman? It leaves you out in the cold. You don't 
have the resources to sue them in an international court.
    So you just kinda wave, oh, you've been ripped off, and you 
can't do anything about it. So as you dream up the new 
revisions of the bill, Mr. Chairman, if you can also look at 
how we--maybe not protect, maybe that's not a good word--but 
educate Native people and how they can record their work, 
document their work, and protect themselves, either through 
going through a patent office registering the name as a 
copyrighted name or at least on their designs, or something of 
that nature. Because clearly, there's a big deficit between how 
they make something and how they protect it from being 
plagiarized.
    Thank you so much for this hearing, and thank you for 
inviting the old man back.
    Senator Udall. Thank you for the closing comments. Really 
appreciate that. I'm going to adjourn. But as soon as we 
adjourn, we're also going to have Jude up here and recognize 
him. He's from the Santa Clara Pueblo to offer the closing 
prayer. So the hearing is adjourned.
    And Jude, why don't you come up and give us a closing 
prayer.
    [Closing prayer recited.]
    [Whereupon, at 1:13 p.m, the Committee was adjourned.]

                         A  P  P  E  N  D  I  X

        Prepared Statement of John Molloy, President, ATADA \1\
---------------------------------------------------------------------------
    \1\ ATADA is a professional organization established in 1988 in 
order to set ethical and professional standards for the art trade and 
to provide education for the public. ATADA membership has grown to 
include hundreds of antique and contemporary Native American and 
ethnographic art dealers and collectors, art appraisers, and a strong 
representation of museums and public charities across the U.S., 
dedicated to the promotion, study and exhibition of Native American 
history and culture. www.atada.org. email <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d8bcb1aabdbbacb7aa98b9acb9bcb9f6b7aabf">[email&#160;protected]</a>, PO Box 
45628, Rio Rancho, NM 87174.
---------------------------------------------------------------------------
    ATADA is an international organization honoring the artistic vision 
of indigenous people. ATADA represents professional dealers of historic 
and contemporary tribal art from around the world. We support the 
lawful circulation, trade, collection, preservation, appreciation, and 
study of art and artifacts from diverse cultures.
    Our objectives are to promote ethical and professional conduct 
among art dealers, to encourage the responsible collecting, research, 
and study of tribal arts and culture, and to educate the public in the 
contribution of tribal cultures to the wealth of human experience.
    As a condition of membership, ATADA members guarantee the 
authenticity of all objects that they offer for sale.
    ATADA is deeply concerned by the misrepresentation and mislabeling 
of Native American, Native Alaskan, and Native Hawaiian works of art 
and craft. Misrepresentation deceives individual consumers and the 
public. When misrepresentation occurs, it also damages the reputation 
of the art trade as a whole. Bad business practices by a few bad apples 
can negatively impact many honest traders, Native artisans, art 
dealers, and other important commercial interests. There is a trickle-
down effect to all legislation affecting Indian arts and crafts which 
impacts much larger constituencies and business interests, whether they 
are those of workers in the cultural tourism industry, or the diverse 
businesses that depend upon tourism, especially in the Southwestern 
region.
    It is early in the legislative process and no specific amendments 
to the Indian Arts and Crafts Act have yet been proposed. Without 
having actual proposed amendments to respond to, ATADA states that it 
supports in principle the amending of the Indian Arts and Crafts Act to 
provide greater protections for consumers and the public, Native 
artists, and the legitimate art trade. However, ATADA notes that 
currently, prosecutors and tribal plaintiffs have excellent tools to 
combat fraud and misrepresentation in domestic matters, and to require 
proper, indelible labeling in foreign imports. The problem is not that 
stronger laws are needed; resolution requires more and stronger 
enforcement of existing laws, and funding to ensure that tribes are 
equipped to fight using the legal tools already to hand.
    Testimony at the hearing by Damon Martinez, former U.S. Attorney 
for New Mexico, pointed out the need to distinguish between (1) steps 
to improve the U.S. Customs marking requirements for imports to ensure 
that the items are not later misrepresented, and (2) steps to halt and 
penalize misrepresentation and other unfair business practices in the 
U.S.
Proper Marking On Imported Goods
    Proper marking is a key issue, as has been made clear by the 
descriptions at the hearing of arrests and prosecutions of large scale 
wholesalers alleged to have imported copies of Native American jewelry 
from the Philippines. Continuing investigations and prosecutions of 
individuals and corporate entities found to be engaged in wrongful 
wholesale imports appears to be working very well and will put a 
significant dent in any fraudulent activity, if it does not end it 
altogether.
    ATADA recognizes the inherent difficulties in indelibly marking 
very small objects (such as certain jewelry items) with the country of 
origin. Tagging protocols should not interfere with the lawful 
importation and sale of properly identified items. However, packaging 
and other options may provide a more flexible mechanism to make clear 
the origin of a very small object. Larger items could reasonably be 
indelibly marked through a variety of means.
    If millions of dollars' worth of fraudulently imported jewelry has 
been seized, as stated at the hearing, the federal government ought to 
do its best to fill this gap in inventory and at the same time, 
encourage economic development that would benefit tribal artists. One 
wonders whether the National Park Service could work with the Indian 
Arts and Crafts Board or with tribal communities to bring more 
authentic Native American arts and crafts into the federal parks' 
concessions, especially in Indian Country, and make authenticity a 
primary selling point.
    Native artists receive recognition for the authenticity of their 
work when it is sold in the U.S. or elsewhere is another important 
task, in which enforcement of consumer protection laws is key. Marking 
options that would distinguish authentic contemporary Native American 
artworks and crafts could facilitate enforcement.
    Antique items cannot easily be marked without damaging the 
integrity of the object. No rules requiring marking should be employed 
for antique items. In this situation, consumers should be able to rely 
of a written receipt and guarantee that items are as represented; 
guaranteeing authenticity is mandatory for ATADA members already.
Authenticity and Consumer Rights Under State Law
    ATADA strongly supports strengthened scrutiny of items offered for 
sale to the public as Native American and rigorous enforcement of 
consumer protections. We note that in New Mexico (and in several other 
states) state consumer protection laws can be a significant deterrent 
to bad businesses. Government should provide flexibility under the 
Indian Arts and Crafts Act for the Indian Arts and Crafts Board to 
provide advice and support to plaintiffs regarding state laws as well. 
This could enable cases to be brought on behalf of artisans and 
consumers at a lower cost, and to reap greater damages from violators.
    For example, New Mexico's Indian Arts and Crafts Sales Act, NMSA 
1978  30-33-7 makes it unlawful to barter, trade, sell, or offer for 
sale or trade any article represented as produced by an Indian unless 
the article is produced, designed, or created by the labor or 
workmanship of an Indian. NMSA 30-33-10 grants a private right of 
action to all consumers, and NMSA 1978 30- 33-6 establishes a duty on 
the part of the seller to enquire whether an item is authentically 
Indian and a duty to correctly label the item at the point of sale.
    Misrepresenting an item as Native American when it is not is a 
deceptive trade practice under NMSA 1978  57-12-2.D(4), which 
prohibits using deceptive representations or designations of geographic 
origin in connection with goods and services. Willful violation of the 
standards creates liability for sellers of non-Indian goods under New 
Mexico laws of triple actual damages or $300.00, whichever is greater, 
under New Mexico's Unfair Practices Act, NMSA 1978 57-12-10.B.
    Attorney fees for plaintiffs are more easily available under both 
New Mexico's Unfair Practices Act (NMSA 1978  57-12-10.B) and the 
Indian Arts and Crafts Sales Act , NMSA 1978  30- 33-1, both of which 
provide that on showing of a violation, the court must award attorney 
fees and costs.
Copyright and Trademark
    Copyright and trademark were also briefly discussed at the hearing. 
Much of the discussion surrounding misrepresentation of Indian art at 
the hearing was in regard to wholesale importation of jewelry and 
textiles in imitation of Native American artistic styles. A ``style'' 
cannot be copyrighted, and even specific designs that are considered 
``traditional'' were never copyrighted and are not eligible to be 
copyrighted now under the U.S. Copyright Act of 1976 (Public Law 94-
553, October 19, 1976).
    Nonetheless, the specific creations of contemporary jewelers and 
weavers may be copyrighted, if they are deemed ``original'' under the 
law and meet other copyright requirements. While acknowledging that 
federal trademarks can be expensive to acquire, ATADA suggests that 
tribal organizations might consider establishing tribal trademarks that 
would serve as both an identifying mark and a marketing vehicle. ATADA 
supports federal funding to facilitate economic development programs 
within the tribes to provide education and assistance in trademark and 
copyright for tribal artists and artisans through the Indian Arts and 
Crafts Board, tribal heritage offices or tribal governments.
Conclusion
    ATADA urges the Senate Committee on Indian Affairs to consult with 
tribal government and economic development offices in order to 
determine the most direct and effective means of establishing 
authenticity for artworks in the market. The most successful measures 
will be those that boost consumer confidence and encourage the artists 
of the Native American community to continue to produce the outstanding 
works of art that represent Native American creativity and skill and 
that have come to symbolize the wonderfully diverse and unique 
Southwestern culture.
    ATADA looks forward to further discussions with the Senate 
Committee on Indian Affairs on this and all other legislation affecting 
the interests of the trade in contemporary and antique Indian art.
                                 ______
                                 
    Prepared Statement of Kathy M'Closkey, Ph.D., Adjunct Associate 
Professor/Freelance Curator, Department of Sociology, Anthropology and 
                   Criminology, University of Windsor
    I am writing as a U. S. citizen and anthropologist who has 
researched how the escalation of knockoffs of Navajo weaving designs is 
increasingly impoverishing reservation weavers. I authored Swept Under 
the Rug: A Hidden History of Navajo Weaving, UNM Press 2002/2008, and 
served as research director of the PBS documentary ``Weaving Worlds,'' 
directed by Navajo Bennie Klain 2008. Both the book and the film 
provide evidence of the destructive effects that knockoffs have had on 
diminishing demand for authentic creations.
    In her eloquent testimony Joyce Begay-Foss noted that ``we can't 
make a living,'' and she mentioned how appropriation of Navajo designs 
is in violation of the Native American Religious Freedom Act. It is 
also in violation of Articles 11, 20, and 31, of UNDRIP, the UN 
Declaration on the Rights of Indigenous Peoples. The articles stress 
the right of Indigenous Peoples ``to maintain, control, protect and 
develop their heritage, traditional knowledge and expressions. . . 
[including] designs, and the intellectual property over traditional 
cultural expressions.'' Part II of Article 11 stipulates that states 
shall ``provide redress, including restitution with respect to their 
cultural, intellectual, religious and spiritual property taken without 
their free, prior and informed consent.''
    It is very troubling that the magnitude of the problem has 
continued to increase, even though the Act was significantly 
strengthened within the past two decades. There is no question that 
Internet sales have grown exponentially, and pose a major threat due to 
the impersonal nature of transactions that can occur globally within a 
fraction of a second. Even if Al-Zuni is shut down in the U. S., it 
could continue to market knock-offs in any other country in the world. 
I doubt there is anything that the government can do about such sales.
    Although the recent hearing contained compelling testimony from 
eight presenters, the root of the problem concerns the lack of 
protection for Native American communal property rights, because the 
government placed designs in the public domain over a century ago. 
Regardless of how much `truth in advertising' exists, the exponential 
increase in knock-off sales, allowable under free enterprise, 
increasingly impoverishes Native American households. For example, the 
Pendleton Company website advertises classic Navajo rug designs woven 
by Zapotec weavers living in Mexico. El Paso Saddle Blanket Company of 
Texas, continues to wholesale thousands of ``trading post rugs'' woven 
in Eastern Europe. Both companies comply with the IACB Act.
    In her testimony Meredith Stanton noted that the Board has 
prosecuted 22 cases successfully over the past two decades. Although 
each successful prosecution is a victory, Native American artisans 
continue to endure appropriation of their designs from unscrupulous 
entrepreneurs. In 2006 two friends were browsing shops in Santa Fe 
located on the Plaza. They were admiring a beautiful Navajo rug that 
had the weaver's photo attached. When one of the staff noted their 
interest, he said that if they couldn't afford a genuine rug, Packards 
would have it copied for a much cheaper price! These are just three 
examples of legitimate companies that practice ``truth in 
advertising.'' I also know several weavers who have experienced theft 
of their designs.
    The recent hearing seeks to modernize and improve the IACA. It is 
evident from the testimony that an increase in the budget will be 
necessary if government agencies can root out and escalate prosecution 
of guilty parties. Perhaps the IACB could also review how Australia, 
New Zealand, and Canada to some extent offer design protection for 
their Indigenous Peoples. I have attached three publications which 
address this serious issue.
    Please don't hesitate to contact me if I can be of assistance. *
---------------------------------------------------------------------------
    * The article Diasporas of and by Design, Historicizing the Growing 
Impoverishment of Native American Artisans by Kathy M'Closkey 
[Anthropology News November 2013] has been retained in the Committee 
files.
---------------------------------------------------------------------------
                                 ______
                                 
      Prepared Statement of Kurt Riley, Governor, Pueblo of Acoma
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
     Prepared Statement of Roy Montibon, CEO, Montibon Provenance 
                          International, Inc.
    Dear Senator Udall, Senator Heinrich and the Senate Committee on 
Indian Affairs,
    I attended the Oversight Field Hearing on Modernizing the Indian 
Arts and Crafts Act in Santa Fe on July 7th, 2017. I was impressed with 
the quality of the testimony given and the sincerity of the Senators 
present. Senator Ben Nighthorse Campbell's comments were particularly 
interesting.
    It is concerning that the problem of fraud in the world of Native 
American arts is now international in scope. Native Americans have been 
exploited and harmed enough. As an American citizen, I am outraged that 
nameless, faceless con-artists in other countries are exploiting Native 
American artists. As a nation we must do as much as we can to end the 
fraud that is rampant here in New Mexico, across the U.S. and around 
the globe.
    I understand that U.S. Fish and Wildlife Service, the FBI and other 
participating Federal agencies have their hands full with these complex 
undercover investigations. The Indian Arts and Crafts Act definitely 
needs to be updated to give it more teeth--more legal tools for law 
enforcement and prosecutors to leverage when going after fraudsters 
(including asset forfeiture, etc.)
    However, I'd like to bring to the attention of the Senate Committee 
that there are also new technical tools and processes that can also be 
brought to bear on this problem.
    Our New Mexico tech startup, Montibon Provenance International 
(MPI) protects art, antiquities and cultural artifacts against forgery, 
fraud, theft, and counterfeit documentation (chain-ofcustody) by 
utilizing proprietary object identification technologies and chain-of-
custody processes.
    MPI has been involved in R&D with nanotechnology scientists at a 
private lab in Albuquerque and physicists at Los Alamos National Labs 
to effectively solve each of these problems, (including cyber-security 
and long-term data archiving innovations). In lab testing to date, MPI 
solutions have proven to be effective. MPI has been awarded two NMSBA 
LANL research grants; have received three small NSF-related grants 
through the NMFAST program coordinated through the Arrowhead Center at 
NMSU; and are currently applying for the NSF I-Corps pre-SBIR program.
    As you are aware, standard methods of identifying and 
authenticating art objects to protect and track them over time present 
problems for artists, collectors, museums and law enforcement.
    MPI is particularly focused on working to solve the problem of 
fraud in the Native American art market as Native artists are 
particularly vulnerable to such fraud. Unlike artists and collectors in 
the general contemporary art market, many Native artists do not have 
the personal financial wherewithal to seek justice through civil 
actions. In addition, the frauds against Native artists go beyond 
purely financial crimes and are actually crimes against American Indian 
culture, traditions and sovereignty, and thus, are particularly 
egregious.
    We would love to present our technological innovations to the 
Senate Committee as we feel that our New Mexico-developed solutions can 
make significant contributions as useful tools for law enforcement and 
prosecutors in criminal cases to: reduce the complexity and ambiguity 
of legal cases; increase the recoverability of stolen tribal artifacts; 
reduce the amount of counterfeit objects in circulation; and add weight 
to IP-related cases.
                                 ______
                                 
  Joint Prepared Statement of Hon. James Wright, Chief, Ma-Chis Lower 
            Creek Indian Tribe and Nancy Carnley, Vice Chief
    We appreciate the opportunity to testify regarding the Modernizing 
of the Indian Arts and Crafts Act.
    The Ma-Chis Lower Creek Indian Tribe of Alabama is a State 
Recognized Tribe by the State of Alabama.
    The Ma-Chis Lower Creek Indian Tribe of Alabama supports the 
modernizing of the Indian Arts and Crafts Law and supports 
strengthening the ability to enforce this Act as it should be. The Ma-
Chis Lower Creek Indian Tribe of Alabama works to make sure that this 
Law is adhered. This Tribe has requested and continues to request the 
publication regarding the Indian Arts and Craft Law (from the 
Department of Interior) to disseminate to every tribal citizen, pow wow 
committee member, vendor, demonstrator, that participates at the Ma-
Chis Lower Creek Indian Tribe of Alabama. The Pow Wow Chairman verifies 
that each vendor is a citizen of a state or federal tribe if a vendor 
is not their booth has a sign placed in front Non-Native Made.
    I do not believe that the definition of who an Indian artisan is 
should be changed. It says quite clearly that ``Indian is defined as a 
member of a federally or officially State recognized Tribe, or a 
certified Indian artisan''; and the definition of Indian Tribe as ``Any 
federally recognized Indian Tribe, Band, Nation, Alaska. . .'' and 
``Any Indian group that has been formally recognized as an Indian Tribe 
by a State Legislature, a State Commission, or another similar 
organization. . .''.
    There will always be people who will try to circumvent the law. 
These people could be impersonating a federally-recognized Indian, a 
state-recognized Indian, or a certified Indian artisan. To ignore 
state-recognized tribes simply to make things easier is not the answer. 
Again, the Ma-Chis Lower Creek Indian Tribe of Alabama will continue in 
our endeavors to enforce the Indian Arts and Crafts Act.
    Thank you for this opportunity to share the concerns of the Ma-Chis 
Lower Creek Indian Tribe of Alabama Tribal people.
                                 ______
                                 
Prepared Statement of Aiden ShortCloud, Tribal Artist, United Cherokee 
                        Aniyunwiya Nation (UCAN)
    To the Vice Chairman Udall and Senator Heinric and all others who 
attended the field hearing last Friday. I am a recognized tribal artist 
of the United Cherokee Aniyunwiya Nation (UCAN) My relatives can be 
found on the Cherokee Miller Rolls and the Henderson Rolls. Both are 
federal rolls that are dismissed by the Cherokee Nation of Oklahoma as 
well as the Eastern Band Cherokee of North Carolina. I am therefore a 
State Recognized artist. My tribe requires documentation to a direct 
relative on any of the Cherokee Federal Rolls. There are 15 Cherokee 
rolls. The Federally recognized tribes only take 3 of these. Meaning 
for me my family is on the Miller roll which after 1923 was retaken as 
the final Baker Roll of Eastern Band Cherokee, all others before it no 
longer qualifies. My tribe's standards are the same as Cherokee Nation, 
except they take all 15 rolls, not just one.
    To be clear I am writing on behalf of myself and not representing 
my nation or any other organization to whom I coordinate with. I have 
been an artist since I was 8 years old. I make drums, I dance, I tell 
stories. I have a few art pieces here and there that have made it into 
museums. I make quality art that has been used by the History Channel, 
National Geographic and many other organizations.
    As Native people we rely on the sale of our art as a valuable 
source of income and of course a way to keep our traditions strong. 
Authentic art and authentic materials are becoming harder and harder to 
find. For example: The quahog shell that we use to make wampum beads 
from is no longer getting to a dark purple. The oceans are becoming 
more and more polluted. The Beautiful pink shell beads the Shoshone 
Bannock people in Idaho use for their loop necklaces are now endangered 
and can not be found. With the threats of deforestation and more and 
more regulations towards what can and can not be sold are causing 
artists to have to use plastics and fake materials. This severely 
lowers the quality of art. The amount of people still producing Brain 
tan leather at an affordable price are disappearing. On my trip to New 
Mexico this spring I was disappointed to find that the tribal silver 
artists are no longer making the beautiful turquoise items that used to 
be everywhere in my youth. The silverwork is plain, common looking. . . 
No Sterling feathers swirling around stones. . . Plain. . . The truth 
of the matter is we are also fighting larger pictures of destruction 
from overharvesting that is zapping our materials to make art. The laws 
in states allowing us to harvest the items needed to make this art are 
becoming more and more strict.
    There is no exemption for these products made unless you are a 
member of an Alaskan tribe. For example. I live in Idaho, here we are 
allowed the harvest of black bear. Two bears a year per person. We hunt 
in the fall for the fat, we use it to make an arthritis paste, we use 
it for soap, we use it for waterproofing, the list goes on. We hunt in 
the spring because the meat is also leaner at this time. We don't hunt 
for the fur, so we have always sold it along with the claws. The money 
from this is distributed to my business, then to my tribe, then to 
local organizations, then to prison facility native programs and then 
to national organizations to help everyone to continue our strong 
culture. I sell claws and hides to other natives to make their art as 
well. Let's face it, it is hard to make a sterling silver bear claw 
pendant, without a bear claw. . . .
    However, now many states don't allow you to sell these products. 
This has lead to large websites such as www.Etsy.com to allow only 
Alaskan natives to sell their bear products (due to the exemptions in 
the Endangered Species act stated earlier for native made art) Yet 
there are no exemptions for other tribal artists who hunt and fish just 
as traditionally. This has lead to us throwing away bear hides, if I 
can't sell them I can' afford to make my art. It costs me $400 to tan a 
bear hide so that I can paint it and turn it into a robe that I might 
be able to sell for $600. So now, the art is dying. There are people 
who want these items to purchase to support me and my tribe, but due to 
laws they can not purchase and I can not sell. It creates a terrible 
waste for something that can be used and made into authentic art.
    I propose that the exemptions for Alaskan and Inuit artists also 
extend to any person enrolled in a state of federally recognized tribe. 
Because this art is preserving our art and culture it's being purchased 
for spiritual use and it is being hunted for meat as discussed in our 
sovereign treaty rights. I am not suggesting being able to sell 
migratory bird items in any way, but to allow tribal artists to use 
materials such as bear claws that are considered endangered in one 
state but are being harvested legally and made into authentic art by a 
native person.
    Another point I would like to bring up is websites such as 
www.etsy.com just spend five minutes on there and you will see no 
enforcement of the arts and crafts act. Vintage Chinese made imports 
line the top posts where as actual artists have little to no 
representation. www.ebay.com enforces this by requiring us to put out 
name and tribal affiliation. But still people list these fake items and 
confuse buyers. It is discouraging to have to look for 30 minutes to 
find maybe one or two pieces of native art that is genuine. I have 
written Etsy and all e-mails have been ignored, I have flagged listings 
and they remain up. I have reported Etsy to the IACA as well as the BIA 
and nothing has come of it. The fake fashion headdress remains. What if 
the site required verification or a tribal ID on file with the artist 
of a state or federal tribe? Disclosing my name and tribal status 
before the purchase of an item allows people to steal my name online. I 
always send a certificate of authenticity with the piece but it is very 
scary having that information out there for someone to take.
    Lastly in November 2016 Oklahoma passed a law banning my art from 
being considered Native American made because I am a member of a state 
recognized tribe. Oklahoma state also expanded the law to cover 
storytelling and any visual demonstration. This is in direct violation 
under the federal arts and craft act. As we saw with marriage equality 
state laws can not trump federal law. My family lives in Ardmore 
Oklahoma. We have lived between Ardmore and Rusk county for the past 6 
generations. . . This severely effects me when I go home to visit my 
dad. I refuse to sell in that state, and it causes resentment towards 
the federal tribes. I am fortunate enough to live in Idaho where my art 
is still protected. However, this is very sad. Not only has it silenced 
my art, I can not competitively dance in that state. If I am paid for 
any activity where I state that I am a tribal member/Native American I 
am in violation of state law but well within rights granted by Federal 
law. . . This means if I enter a competition pow wow dance and say I'm 
Cherokee I get a fine. Because I am not a member of a federal tribe 
there. It is a hidden agenda to make sure that only Federal tribal 
people can participate in cultural events and receive compensation. To 
me that just means they want a monopoly on the Arts and Crafts. Let's 
not forget some tribes have lost their federal recognition and are now 
State recognized. Are they any less native? Oklahoma has increasingly 
become more and more exclusive. The state recognized tribes have been 
in existence since before 1990. The Powhatan tribes (many are state 
recognized) have always existed and are still state recognized. The 
Lumbee tribe is a great example of a state recognized tribe. They have 
treaties going back to pre 1900 and are STILL fighting for federal 
recognition. I would like to remind everyone that this law was created 
to protect Authentic handmade Native American Art from corporations and 
cheap fake imports. . . It wasn't designed to tear each other apart. To 
put tribal people against one another. And to create a ``who is and who 
is not'' Native Barrier. Art brings people together, it holds history, 
stories. It holds culture.
    I will mention that I teach my art classes to federally recognized 
and state recognized people. I wonder sometimes how the federal artist 
would feel if I stopped teaching these classes and tried to exclude 
them from traditions the way they continue to try to exclude everyone 
else. But I continue to tell myself that that isn't the traditional way 
to act, and I refuse to stoop to that level.
    I read a testimony that was upset about Federal artists selling 
next to someone who is state recognized. What it comes down to in that 
case is art quality. A federal tribal artist has nothing to fear from a 
state artist, unless their quality is less and vice versa. This is 
because, they're both Indian in the eyes of the law. The hierarchy 
needs to stop. What about the Hispanic people who are now selling 
beadwork at pow wows and are assumed to be Native American. They are 
copying our northern art and selling it when they should be selling 
their beautiful traditional Aztec arts. To me this is more of a threat 
than another recognized artist selling.
    As a tribal artist my first responsibility is to ensure the art is 
passed on and the tradition is not lost. Secondly it is currently my 
only source of income. Thirdly I am a state recognized native and 
currently the thought of discrediting state recognized tribes would 
truly be a loss to so many arts and crafts. I am one of maybe 5 wampum 
weavers left. I currently only know of one wampum weaver in Cherokee 
Nation, although I have taught many Cherokee Nation Citizens, none have 
taken up the art to the extent that I have yet several members of my 
tribe are now excelling in making these historic belts and straps.
    I get bullied because I am a state recognized artist, I get 
harassed. I am immediately discredited and my work must be three times 
as accurate as the federal tribal artists. This is what I deal with 
when I go to sell my art on a daily basis. The only protection I have 
is the Arts and Craft act of 1990 for my quality art that is getting 
harder and harder to find.
    State recognized people have few rights, the right to our identity 
is one of them. The right to say our art is Native made is accurate and 
granted by Federal law.
    I appreciate your time to hear my testimony. You are welcome to e-
mail me at any time or contact me through www.cherokeespirits.com if 
you require further input or wish to look at my art which the federal 
tribes wish to revoke protections for.
    Thank you.
                                 ______
                                 
Prepared Statement of Eloise Josey, Executive Director, Alabama Indian 
                           Affairs Commission
    I appreciate the opportunity to testify regarding the Modernizing 
of the Indian Arts and Crafts Act.
    The State of Alabama recognizes nine (9) tribal governments. Eight 
of these tribes are state-recognized and one (the Poarch Band of Creek 
Indians) is federally recognized. In 1984, the Alabama Legislature 
created the Alabama Indian Affairs Commission recognizing seven (7) 
tribal governments granting authority to the Commission Board to set up 
criteria for recognizing any further groups. Two additional groups were 
recognized by the Board in 2001 following that criteria, which is in 
the Administrative Code for the State of Alabama.
    The Commission consists of representatives from each of the tribal 
governments, one Senator appointed by the Lt. Governor, one State 
Representative appointed by the Speaker of the House, one Federally-
Recognized Indian person living in Alabama (not Poarch Creek) and one 
representative appointed by the Board.
    The Alabama Indian Affairs Commission supports the modernizing of 
the Indian Arts and Crafts Law and supports strengthening the ability 
to enforce this Act as it should be. The Commission office, as well as, 
State government works to make sure that this Law is adhered to. This 
office has requested and continues to request the publication regarding 
the Indian Arts and Craft Law (from the Department of Interior) in 
order to disseminate to every Mayor in Alabama, and every Indian tribe 
holding Pow Wows or Festivals where Indian art might be sold. In a 
further attempt to support the Indian Arts and Craft Act, the 
Commission will be introducing legislation to further strengthen the 
ability to make sure that any events held in Alabama adhere to the 
Indian Arts and Craft Act.
    I do not believe that the definition of who an Indian artisan is 
should be changed. It states quite clearly that ``Indian is defined as 
a member of a federally or officially State recognized Tribe, or a 
certified Indian artisan''; and the definition of Indian Tribe as ``Any 
federally recognized Indian Tribe, Band, Nation, Alaska. . .'' and 
``Any Indian group that has been formally recognized as an Indian Tribe 
by a State Legislature, a State Commission, or another similar 
organization. . .''.
    There will always be people who will try to circumvent the law. 
These people could be impersonating a federally-recognized Indian, a 
state-recognized Indian, or a certified Indian artisan. To ignore 
state-recognized tribes simply to make things easier is not the answer. 
Again, the State of Alabama and the Alabama Indian Affairs Commission 
will continue in our endeavors to enforce the Indian Arts and Crafts 
Act.
    Thank you for this opportunity to share the concerns of Alabama's 
Indian people.
                                 ______
                                 
   Prepared Statement of Hon. Herman G. Honanie, Chairman, Hopi Tribe
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
Prepared Statement of Kathi Ouellet, President, Indian Arts and Crafts 
                              Association
    Dear Senator Udall,
    As the President of the Indian Arts and Crafts Association, I'd 
like to respond to your July 7, 2017 hearing on updating the Indian 
Arts and Crafts Act.
    The Indian Arts and Crafts Association is a non-profit organization 
based in Albuquerque, New Mexico. Our mission is to promote, preserve 
and protect authentic Native American arts and crafts. We also support 
and promote Native American artists, and support all aspects of the 
Indian Arts and Crafts industry from the material suppliers through the 
end consumers. The Indian Arts and Crafts Association has been in 
existence for over 40 years, and while most of our members are here in 
the US, we do have members in Japan, Germany, France and Australia.
    The Indian Arts and Crafts Act is the foundation of our 
organization and our educational efforts to promote authentic Native 
American arts and crafts. Educating the general public, Native American 
artists, and retail and wholesale businesses is critical to maintaining 
and increasing economic opportunity for Native artists. The fraudulent 
art market affects every aspect of the Native American art industry, 
but has a particularly harsh economic effect on artists.
    We fully support and encourage the modernization of the Indian Arts 
and Crafts Act. We hope that you will add specific language that 
addresses all aspects of the fraudulent art market including, Internet 
auction sites, web sites and social media. We also encourage you to 
increase civil and criminal penalties as deterrents. Specifically, we 
hope that language will be added that aggregates the total of non-
authentic properties seized, so that it is not the dollar value, but 
rather the simple violation of the Act that triggers civil or criminal 
prosecution at the Federal level. We also hope that a forfeiture clause 
be added. Given the dollar value of the fraudulent goods being brought 
into the US, we believe that the current fines are treated as a ``cost 
of doing business'' rather than a true deterrent.
    In addition, while we would like to see a requirement to indelibly 
mark all imports with the country of origin. We understand that this 
issue is complicated and expensive, and although we believe that this 
could significantly reduce fraudulent goods being brought into the 
U.S., at this point we recommend study in Trademarks, Copyrights and 
indelible import marks, so as not to hold up the implementation of 
other critical parts of the modernization.
    The Indian Arts and Crafts Association works very closely with the 
Indian Arts and Crafts Board, and supports its efforts to increase the 
economic opportunity of Native American artists. The services that the 
Board provides are invaluable to our members and therefore the 
preservation of Native American heritage and culture. The Board 
publishes and distributes brochures, conducts workshops to help 
artists, and provides information about current laws. The Indian Arts 
and Crafts Association appreciates our relationship with the Board, and 
we are fully committed to support and approve legislation going forward 
to modernize the Act.
                                 ______
                                 
Prepared Statement of David S. Montgomery, Cherokee Nation of Oklahoma 
                             Tribal Member
    Dear Senators Hoeven and Udall,
    My name is David Montgomery. I am of Cherokee and Choctaw descent, 
and I am a registered tribal member of Cherokee Nation of Oklahoma, one 
of the three federally-recognized Cherokee tribes. I have many friends 
and family who are artists and registered tribal members of various 
federally-recognized tribes in Oklahoma, New Mexico, California and 
throughout Indian Country.
    I was very pleased your committee visited Santa Fe for a Field 
Hearing on Modernizing the Indian Arts and Crafts Act (IACA) on July 
7th 2017, and I was happy to be in attendance at this important 
hearing.
    I believe it is long overdue to modernize the 1990 IACA, and help 
protect Indian artists of federally-recognized tribes, as well as 
maintain the sovereignty of federally-recognized tribes to determine 
who is and who is not a member of their tribal nations.
    I know I speak for many Indian artists who would like the IACA to 
be updated to remove state-recognized tribes from the language of the 
law. As has been acknowledged by all federally-recognized tribes and 
several states facing the question of ``state-recognition'' of supposed 
tribes within their borders, it has long been determined that tribal 
recognition and issues concerning Indian tribes is the exclusive domain 
of the Federal government since the earliest days of the republic, and 
covered under the Commerce Clause of the U.S. Constitution.
    What many federally-recognized tribes have now observed since 1990 
is an explosion of groups of individuals claiming to be ``tribes'' in 
various states (most notably Southern states such as Alabama, Georgia, 
Louisiana, South Carolina, etc), seeking and obtaining ``state-
recognition''. The process for vetting ``tribes'' at the state-level 
for recognition is non-uniform and non-rigorous compared to the federal 
recognition process, and varies widely from state to state. It can be 
simply a ``governor proclamation'' (hardly the intent of the rigor 
expected for the IACA), or some state-level office on Indian affairs 
that lacks the stringency for tribal recognition that is used at the 
Federal level. Regardless, state-level recognition of Indian tribes as 
sovereigns and their members as ``Indians'' oversteps the bounds for 
recognition of sovereign entities that resides solely at the Federal 
level.
    As an example of the potential for corruption and circumvention of 
the existing IACA law, some state-recognized ``tribes'' simply ask for 
an annual fee (anywhere from $15-$50 dollars) and one can ``join'' the 
tribe, with no rigor in their registration process such as genealogical 
trees for descent from an Indian ancestor, state-certified birth, death 
and adoption certificates, etc. This also neglects the fact that most 
state-recognized tribes lack any historic record of connection to the 
tribe of Indians they are claiming to be, and state-tribes that have 
applied for federal-recognition with the BIA have been rejected because 
there was simply no burden of proof to support their claims as Indian 
tribes.
    To remedy this, I propose the following:

        1)  removal of ``state-recognized tribes'' from the language of 
        the IACA

        2)  certification of an individual by a federally-recognized 
        tribe as being an ``Indian artist''. This path would allow 
        authentic tribal descendants, who may not be able to register 
        as a tribal member but are deemed by the tribe to be authentic 
        descendants of that tribe, to become certified as ``Indian 
        artists'' and thus protected under the revised IACA. This path 
        preserves the Federal government's sole authority to recognize 
        Indian tribes, preserves the sovereignty of federally-
        recognized tribes to determine who is and who is not a member 
        of their tribe, and preserves sovereignty for tribes to 
        acknowledge their non-member descendants as certified Indian 
        artists in order for those non-enrolled individuals to be 
        protected under the IACA.
                                 ______
                                 
 Prepared Statement of Hon. Bill John Baker, Principal Chief, Cherokee 
                                Nation 
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 ______
                                 
       Additional Letters and Statements Submitted for the Record
    To whom it may concern:
    As a citizen of the Echota Cherokee Tribe Of AL, I appreciate your 
work on the Arts and Craft Law and join with the Alabama Indian Affairs 
Commission in support of its strengthening. I implore you to maintain 
the definition of 'Indian' set forth in the present law, and to 
continue the inclusion of the state recognized tribes.
    Thank you in advance for your consideration of this matter.

    Sincerely,
    Deborah Davis
                                 ______
                                 
    I was in Santa Fe last week and saw reproduction Native American 
jewelry all around the Plaza. One way to identify a business
    selling Asian made jewelry is to notice how bright the lights are 
inside the store. Lots of glass cases and too much light wattage is a 
dead giveaway. Why don't you clean up that area and shut those people 
down?

    Glenn White, Scottsdale, Arizona
                                 ______
                                 
    I support Senator Udall's proposal to modernize and enforce the 
livelihood of fellow Native Artist and their communities from Fraud
    Thank you

    Jesse Salcedo
                                 ______
                                 
    This is my statement and no way am I speaking for anyone but 
myself, but hope my concerns fall on open ears.
    First of all; we need all our artist where they be Federal or 
State-without all of them our culture, like our people die out-Their 
erpertise in the making and use of all natural materials and animals, 
not excluding anything from turtles/fish/trees and plants are needed.
    I am a local NA artist from Alabama where most of my cherokee 
ancestors lived, until the removal act was put in force.I try to use 
any and or all natural things the creator gave us to better my life and 
support myself and family. My bloodline comes down from Moytoy 1st 
through Robert Cherokee Thomas and his daughter Ann Martha Tiny bird 
Cherokee-
    My Ancestors were proud and resourceful people. They shared all 
they knew for future generations to survive and make use of if they 
chose.. They took from the earth what was needed and shared or traded 
items and their knowledge, to support them and family, letting others 
do the same. A lot of my living is making and selling items from beads 
to furs and hide, learning from
    those who teach it to me, and sharing this to others especially the 
younger generation (Our Future)in hopes our culture and Heritage does 
not die, as it almost has many times before-It is the Local State 
Artist in rural areas, that has opened the door for young people to see 
what in truth, our past was like, NOT what was taught in school- and to 
teach them about keeping it true, for the future-Many of my Ancestors 
have long gone and with just enough to pass down what they knew with me 
to survive and pass on with this generation.I am one of few who has 
kept this interest and hope to open the ears of others- If the State 
Recognized Tribes are cast aside and not allowed to Be/make, sell or 
trade same items as large companies and or Federal tribes-How are we to 
teach our arts/crafts and culture to others and survive?Not everyone 
has Internet or TV-But the ones who do mostly see the fake items passed 
off as Hand Made NA crafts, on Ebay or sites like Etsy, which in 
reality comes from China and other foreign countries.Many letters have 
been sent to try and stop this but falls on deft ears. How do we show 
how all parts of deer or shells of turtles and plants were used to make 
clothes and rattles to use in our spiritual ceremonies and gatherings 
or everyday use? and or give joy to those both seeing, wearing and 
using these items that they made?WE TEACH HOW-People like to see in 
person arts and crafts that are hand made-Why it is so important that 
local artist and teachers survive. Showing our children may keep 
interest in our culture; If these rights are not taken away, and not 
taught because for lack of interest?. Every State has its own rules now 
of what you can gather or use unless you carry a card from a recognized 
tribe, and then it is closely watched.Federal tribes and large 
companies, have tried to do away with State Artist and tribes for a 
long time and I have seen more and more items from China made from 
artificial materials, passed off as NA art coming from commercial 
companies at a lot of pow wows or gatherings, A lot of our people meet 
to share ideas and sell or trade their hand made crafts at these 
gatherings-The State Artist I know work hard to teach and promote the 
use of all items given of mother nature for our use, and spiritual 
being ,giving back to their people and tribe.We need our State as well 
as Federal tribes to promote the growth and culture of our people. 
Since most are far apart. But we are limited to what and how much we 
can use, depending on State you are from and items you use to make your 
art, like bear claws and hides that come more from our Northern States, 
or Quahog shells that comes from the coast that was part of our culture 
for so long. and becoming more hard to find the good color that was 
once all along the clear waters, and with our waters poisoned with 
pollutants and forrest cut down, that helped us have fresh and healthy 
air and animals, now most is all gone.Fish and skin drumheads to use in 
our drums to make our hearts sore with Eagles as we dance and wear 
their feathers. Are becoming much harder to find what was once 
plentiful.Forrest is taken away to make large cities, animals have no 
where to go or live. So materials from there are harder to come by.The 
ones that are, is usually just thrown on side of road or in a ditch 
from trophy hunters, just using the head, instead of offering rest to 
artist or families for food .If we are excluded from making and selling 
our wares at gatherings or stores; then our culture may be doomed, jobs 
to support our family gone, and more poverty taking control-I ask for 
the sake of my forefathers to not exclude State Tribes in this or other 
hearings, in being able to do and have the same right as Federal 
Tribes, or big companies. Most of us carry the same blood and need our 
rights to survive. Thank you for listening.

    Bob Upton
                                 ______
                                 
    Ladies & Gentlemen,
    I fully support Tom Udall's efforts to strengthen the Indian Arts & 
Crafts Act of 1990 to further protect our Native American Art.
    In a time when too many of the items available for purchase are 
``Made in China'' it becomes imperative to protect the quality of all 
American products. Strengthening this Act is one step out of many which 
I hope will be taken.
    Protected Native American Art gives ``Made in America'' something 
we can be proud of.
    Thank you for your effort on behalf of our National Treasures.
        Sincerely,
                                          Patricia J. Witt,
                                                      Marathon, FL.
                                 ______
                                 
    Over the years, I have heard Native artists complain about their 
work being copied. Their works are inspired by their culture and the 
lives they have lived. Natives are expressing their innermost thoughts 
through their art. It's a personal expression not felt by those who 
copy. Those who are copying the Native artists are stealing- a culture 
and potential income.
    I have also known people who have purchased and treasured art works 
they assumed were created by Native artists, but were not. The Indian 
Arts & Crafts Association's logo ensures the art work is created by a 
Native artist. The IACA requires documentation from the tribe and 
examples of the artist's work before including the artist in their 
registry. One of the problems has been the lack of funding for 
promoting the work the IACA has done and making potential buyers aware 
of what to look for when purchasing Native art.
    The bigger problem has been punishing those who knowingly copy 
Native art for profit. Even if the fakes have been found and reported, 
the laws protecting Native art are not always enforced. I believe this 
is due, in part, to limited Federal funding dedicated to this area.
    I have been an arts administrator for over 20 years and an artist 
for many more years, and I have felt the sorry artists feel when there 
work has been copied, particularly when they are not acknowledged or 
have not benefitted from financial compensation. I have also been 
honored to be an artist member of the IACA.
                        Christine Klimmek, BS Art Education
                             Oneida Nation Arts Program Coordinator
                                 ______
                                 
Dear Sir:

    I recommend the following:
    Only tribal members who are officially enrolled in a federally 
recognized tribe or state recognized be authorized to sale items as an 
authentic Indigenous/American Indian craft or art product.
    Proof must be provided by the craftsman/craftswoman as an 
officially enrolled member of either a federal or state recognized 
tribe.
    All Indigenous/American Indian craft or art work must be created 
and verified to have been done only within the USA.
    I am enrolled with the Echota Cherokee Tribe of Alabama.
    I was appointed to the Board of Directors for the Florida 
Governor's Council on Indian Affairs for the state of Florida.
    I am a past member of The Board of Directors for the Vietnam Era 
Veterans Inter-Tribal Association, Inc.
    I am a member of the Presidential Advisory Board for President 
Trump.
    I will be advising President Trump on all issues related to 
Indigenous/American Indians and tribal government issues.
    What is your relationship with Secretary Ryan Zinke? Have you 
included the BIA in this review of the Craft and Arts issue?
    I recommend that you send a formal notice to the following:
    All federal tribes
    All state recognized tribes
    All commissions of Indian affairs
    Provide a federal list for all federal tribes and state recognized 
tribes that are authorized to make and sale craft and or Art as 
Indigenous/American Indian made solely inside the USA
        Sincerely,
                                 Joel K. Harris, Sr., Ph.D.
                                                         Ocala, FL.
                                 ______
                                 
Good morning members of the Committee,

    My name is Steve K. Boone, I am a member of the Zuni Pueblo Indian 
Tribe.
    I would like to submit a comment concerning the Indian Arts and 
Crafts Act, which is vital for all gifted Native American artisans. 
More is needed to disceminate a large variety of the authenticity and 
quality of hand crafted designs that symbolize importance and meanings 
to each tribal nation across the Americas. By developing better 
educational efforts with the artisan and tribal leadership for all 
visitors who enter each region of where they could find and purchase 
the unique products for their appreciation, along with knowing they 
were handcrafted by an individual of an American Indian.
        Best regards.
                                 ______
                                 
    As a collector of genuine Native American art, I hope you not only 
continue the current level of enforcement and preferably provide an 
increased level of surveillance to ensure that authenic goods are being 
sold.
    I have been several galleries in Santa Fe when they have been 
trying to sell goods of dubious origin to visitors.
    It seemed to me at that time that this was short term thinking 
since if folks think they have been cheated, they are less likely to 
return to New Mexico, however for some making a buck is the immediate 
goal.
                                          Patrick Blackwell
                                 ______
                                 
Dear Senator Udall,

    I am in favor of legislation that will support the livelihoods of 
Native artists, while also protecting Native artists and all Native 
Americans and their communities from fraudulent practices.
        Thank you.
                       Charles T. Saunders, Ph.D, ACG, ALB,
                                  Franklin University--Columbus, OH
                                 ______
                                 
    Thank you for conducting the recent hearing in Santa Fe on proposed 
legislation to strengthen enforcement of the Indian Arts and Crafts Act 
of 1990. I support your work to protect the livelihoods of Native 
artists and defend Native communities from fraudulent practices.
                                              Karie Luidens
                                 ______
                                 
    Respectfully, Native makers of Native art should be the decision-
makers on their wares.
    Sen. Udall's proposal to update the Indian Arts and Crafts Act of 
1990 comes at a time when theft and fraud seems to be more 
sophisticated than ever.
    In New Mexico, we've learned there's a need to protect our chiles 
and laws are now in place.
    It's time the U.S. improve protections on all Native products.
        Sincerely,
                                       Susan Bortz-Johnson,
                                                   Cedar Crest, NM.
                                 ______
                                 
    My name is James S. de Champlon, for the past 10 years I have 
worked with the Cultural Services Department of the City of Albuquerque 
as the Historic Old Town Portal Market Manager. The Portal Market is a 
multicultural arts and crafts market that is open year round, and 
though not limited to Native American artisans, a majority of the 
participants in the program are Native Americans.
    Over time it has become apparent to me that the Indian Arts and 
Crafts Act in its efforts to promote Native American artisans could use 
some kind of reinforcement in order to become more effective in 
achieving this goal and so I was excited to hear about the Senate 
Indian Affairs Committee efforts towards Modernizing the Indian Arts 
and Crafts Act.
    In my position as Portal Market manager I work with both Native 
American artisans along with artisans of other varied cultural 
backgrounds and it has been by experience that similar issues of, 
authenticity in production, and materials are shared by all of the 
artisans that participate in the Portal Market program and perhaps in 
the arts and crafts industry as a whole.
    I have developed some ideas about how the IACA might be reinforced, 
specifically thru the provision that relates to the establishment of 
trade marks and the possibility of broadening the scope of such a 
system so that it might include other arts and crafts categories 
related to various aspects of regional and ethnic heritage from both 
domestic and foreign artisans along with a differentiation between 
categories such as traditional, contemporary, and manufactured items.
    I would be happy to share my thoughts in more detail if the 
Committee might find it useful.
        Thank you for your efforts.
                                 ______
                                 
Hello,

    I'm French, and looking for authentic Native American Indian Arts 
and Crafts to sell to Museums shops in France and in Europe.
    My last visit to the USA was in April 2016 and I saw in Santa Fe, 
Taos, Gallup. . . (even in Albuquerque airport) many items sold as 
Navajo pottery, Pueblo pottery, Zuni fetishes, Hopi kachinas. . .etc. . 
.which were obviously not authentic and not locally produced (looking 
like they were coming from the Far East and Middle East).
    Some of these items end up in European shops, and sometimes even in 
Museum shops.
    Just thinking that a testimony from across the ocean would be 
beneficial in strenghtening the Act enforcement and maintain the 
quality and authenticity of Native works of art.
    Staying at your disposal.
        Sincerely,
                                           Olivier Lucotte.
                                 ______
                                 
    Our retail store Ownership and Management at Lantern Dancer, in 
Pagosa Springs, CO, supports Senator Udall's modernization proposal of 
the Indian Arts and Crafts Act. Specifically, we want to increase the 
capability to enforce compliance to the act and education and outreach 
to artists, organizations, businesses, and the general public. We also 
know it is critically important to address the selling of authentic 
Native American arts and crafts via the Internet and Social Media. We 
work direct with Calvin Begay and have been impacted by the influx of 
fraudulent and fake works.
    Thank you for helping us help protect our artists and our retail 
business.
        Sincerely,
                                             Leanne Goebel,
                                          Manager/Board member IACA
                                 ______
                                 
    I fully support efforts to enhance and enforce legislation 
providing harsher penalties for those who would cheat our indigenous 
artists by appropriating their culture. As a retail member of the 
Indian Arts and Crafts Association, I know fakes hurt all of us. They 
take unfair advantage of the artists, the dealers and the unsuspecting 
consumers who unknowingly help perpetuate this fraud by their 
purchases. Penalties for producing fake Native American art or dealing 
in it must be stronger and must be rigidly enforced.
        Thank you for your consideration.
                                               Suzie McKay,
                                              Indigenous Arts, LLC.
                                 ______
                                 
Hello,

    I'm emailing in support of Senator Tom Udall's proposal to submit a 
new bill to modernize the Indian Arts and Crafts Act of 1990. I am in 
favor of his proposed legislation to strengthen the Act's enforcement, 
to support the livelihoods of Native artists and protecting Native 
communities from fraudulent practices.
        Hope this helps.
                                 ______
                                 
    I support the modernization of the Indian Arts and Crafts Act, 
especially the aggregation and forfeiture issues. Also, we need an 
increase in the capability in enforcement and education and outreach to 
Native artists, organizations, businesses and the general public 
interested in buying and selling authentic Native art.
        Sincerely,
                                         Dawn Dunkelberger,
                                             Aka Dawn Dark Mountain
                                 ______
                                 
Dear Senator Udall:

    I follow Indian Arts and Crafts for my own love of the art of 
Native Americans. One of the websites that I frequently utilize is 
Shumakolowa Native Arts in Albuquerque, New Mexico. This modernization 
is vitally important to protect the artifacts of native peoples for so 
many native artists; archeologists, and to provide clear and 
authoritative directions on how Indian Arts and Crafts should be 
handled.
    I did my homework before I selected two reliable, authentic & 
reputable artists' distributors who feature work in specific areas: 
jewelry. pottery, art, instruments; media, pendletons and other woven 
items; carvings, baskets, rugs. There are here in the Bay Area many 
buyers who go into a store that sells turquoise jewelry which is not 
authenticated. Who kniws what they are really getting when they buy an 
Indian necklace. Shumakolawa authenticates every art piece they 
distribute to a buyer. And the case of stolen artifacts has become 
quite serious. Dishonest collectors are stealing valuable artifacts and 
selling them on the black market. This is a case of stealing the 
heritage of Native Americans.
    This law needs to be strengthened to reflect the changing 
circumstances that Native Americans are facing to support their culture 
and share their priceless artifacts with others through museums; 
reputable distributors and private collectors.
    I can attest that Native American jewelry is filled with so much 
life and so many activities that the jewelry symbolizes.
        Sincerely yours,
                                         Rebecca Hazlewood,
                                                    El Cerrito, CA.
                                 ______
                                 
    I whole heartedly support your proposal to update and modernize the 
Indian Arts and Crafts Act, and support better protections for Native 
American artists and crafts-people.
        Thank you,
                                                John Landry
                                 ______
                                 
    Thank you for supporting the new updated legislation proposed by 
Udall to protect the Native American Art and Crafts.
                                         Carolyn Rodriguez,
                                                   Albuquerque, NM.
                                 ______
                                 
    Senator Udall please help us keep the Arts law as it currently is 
and keep the interests of State recognized tribes in good standing. I 
am not an artisan but I am friends and a tribal brother to several who 
are and they are every bit Native Craftsmen. Thank you for your 
involvement
                                             Mike Richards,
                                                   Echota Cherokee.
                                 ______
                                 
Dear Honorable,

    The present efforts are to be commended, and continued, thank you. 
The present focus is on Items being made out of the USA and being 
brought into the USA and being sold as handmade/handcrafted American 
Indian Art. This practice needs continued enforcement.
    There are over 1,000 jewelry factories in Albuquerque, NM, that are 
also creating American Indian style jewelry. Mostly Navajo style 
jewelry. The Jewelry is sold retail and wholesale to shops/galleries 
around the country and world markets. These businesses have been very 
active since before the 1950's. many of them have been and are members 
of the Indian Arts and Crafts Association. These Businesses have 
created this association the IACA. These businesses have wholesale/
retail shows several times a year. Shops that buy from these Factories 
have a IACA label/sticker placed appropriately in their shops/stores, 
in America and Internationally. The IACA claims that all items sold by 
their businesses are American Indian Handmade/handcrafted. The 
authentication of each business member and their items for sale as 
American Indian Handmade/handcrafted items is based solely upon their 
application and acceptance into the IACA organization. No evaluation 
process to authenticate the items to see if American Indians are making 
the Items is done. The IACA sticker is placed in the shops and the 
customers feel confident that all items in these shops are handcrafted/
Handmade by American Indians. These factory business also contract with 
award winning Indian Artists and use their designs to create jewelry. 
These manufactured jewelry pieces have been sold on TV home shopping 
markets in the past. The artist is brought on the show explaining how 
they handcraft/Handmake each piece. The pieces are massed produced by 
these factories and are sold on these tv shows. Mass production is 
their method of meeting the demand of their world market American 
Indian styled jewelry and products. So not all American Indian Style 
Jewelry is made overseas. The IACA is a great place to check for 
enforcing the present law.
    Creating the next generations of laws has to include the complete 
transparency of these companies in Albuquerque and Gallup, New Mexico 
and other places in the region. These companies pay no taxes for 
selling wholesale. The people who buy their products and sell at shows 
pay no taxes. The loss of tax monies over the years since the beginning 
including the beginning of IACA, is in the billions.
        Loloma,
                                     Bennard Dallasvuyaoma,
                                          Nephew of Charles Loloma.
                                 ______
                                 
    Good morning. I am writing in regards to the revision of the Indian 
Arts and Crafts Act. After watching the testimonies given, there are 
some concerns that the definition of what is ``Indian'' will remove 
state recognized tribes. I have concerns as I am a tribal citizen of 
the Echota Cherokee Tribe of Alabama. Because the 3 federal tribes only 
use two (of many) rolls listing Cherokees, my family cannot enroll in a 
federal tribe. However, my DNA shows North, South and Central American 
Indian markers. My genealogy also shows Cherokee, Shawnee and Catawba 
ancestors. Yet, I cannot enroll in any of the federal tribes. There are 
thousands of people just like myself who are truly Native American, 
Their only option is to join a state recognized tribe or not be 
enrolled at all. This does not make us any less Native American.
    I would like to see the board pull from all three definitions of 
``Indian'' and have all three participate in these discussion. It is 
unfair that only federal tribal members were included in the 
testimonies. Under the Act, ``an Indian is defined as a member of any 
Federally or officially State recognized Indian Tribe, or an individual 
certified as an Indian artisan by an Indian Tribe.''
    Please consider a full representation of all Native Americans when 
addressing these issues by having federal, state and certified artisans 
in the decisionmaking process.
        Best regards.
                                      Weeya Michelle Smith.
                                 ______
                                 
    The American Indian Alaska Native Tourism Association (AIANTA) 
promotes economic development and cultural perpetuation in Indian 
Country through its mission: to define, introduce, grow and sustain 
American Indian, Alaska Native and Native Hawaiian tourism that honors 
traditions and values. Cultural tourism creates jobs and supports the 
teaching of each tribal nation's distinct food, language, art, music, 
dance and cultural practices across generations.
    The Indian Arts and Crafts Board (IACB) has partnered with AIANTA 
to present consumer information, marketing information and protections 
available to tribal artists and to educate various publics about 
authentic tribal arts and crafts.
    Art and crafts are integral to tribal cultures and heritage and 
represent important sources of revenue for tribal members and their 
families. AIANTA supports strengthening enforcement of the Indian Arts 
and Crafts Act through changing laws to allow for an aggregation of 
individual transactions that would enable federal prosecutors to more 
effectively prosecute largescale distributors who violate the Act. We 
also support more education and training of local, state and federal 
enforcement officers and increased funding for investigations, 
especially in the areas of Internet sales and making sure imports of 
Native American-style arts and crafts are indelibly marked with the 
country of origin.
    Tourist and other consumers' confidence in the purchase of 
authentic American Indian arts are essential to authentic tribal 
tourism. Consumer education materials by the Indian Arts and Crafts 
Board educates visitors to Indian Country and gives them confidence in 
their purchases.
    We commend Senator Tom Udall and the Senate Committee on Indian 
Affairs for taking up this important strengthening of the Arts and 
Crafts Act
                                          Camille Ferguson,
         Executive Director, American Indian Alaska Native Tourism 
                                                        Association
                                 ______
                                 
Dear Senator Udall,

    I am president of the Santa Fe Downtown Merchants association, 
board Secretary and ex board chair of SWAIA, and a business owner in 
Santa Fe.
    I have cooperated with the IACB for over 17 years trying to stop 
the shameless miscreants in our own community as they cheat, lie, 
defraud, and commit cultural genocide with relative impunity since you 
left the Attorney General's office. In fairness,other Attorneys' 
General have tried, the Fish and Wildlife and other Interior people 
have tried as well, but the local corruption on every level and the 
greed of dealers, and even Native artists who also sometime lie about 
their materials and methods just gets worse and worse.
    Clearly, underfunding is the biggest issue, but following close on 
its heels is legitimate fear of these threatening and violent people, 
their very public bragging about paying off elected and appointed 
public officials, and their equally public display of stocks of 
automatic firearms, unsavory connections, and willingness to hurt 
others.
    Hopefully, bigger fines, increased enforcement, and more visible 
educational possibilities might help. Santa Fe's new ``authenticity 
zone'' is an interesting idea, but carries with it no enforcement 
capability or intent. I simply hope that making some one sign a pledge 
will make it easier for the AG Balderas to prove that such a person was 
aware of the rules when he broke them.
    I wish that you had had more time to meet with those of us who 
actually live and work amidst this retail situation, and would 
recommend that you or your staff visit with me, with John Dressman, 
Mark Bahti, and some others as we are in a situation to see this entire 
dynamic play out ``where the rubber meets the road''.
    When a subset of local merchants is determined, in Santa Fe, in 
Scottsdale, in Gallup, or in Las Vegas to defraud consumers, cheat 
natives, and destroy a way of life, seemingly without retribution, it 
is alarming.
    We have tried to help in the past, and would like to do more.
    Enforcement, secret shoppers, and increased attention to money 
laundering, bribery, and other nefarious activities all require money, 
I suspect that is the eternal crux of the matter. Perhaps this could be 
sold as a form of enhanced border security.
    The IACB and other Interior personnel are dedicated, smart, 
determined, and overtasked. Again, I guess that's money.
        Thank you.
                                  Elizabeth McNally Pettus,
                                 Things Finer, Santa Fe, New Mexico
                                 ______
                                 
    I am writing in support of Senator Tom Udall's proposal to submit a 
new bill to modernize the Indian Arts and Crafts Act of 1990. My wife 
and I have a small collection of authentic Indian arts and crafts and 
greatly treasure them. I am pleased to hear that the proposed 
legislation will strengthen the Act's enforcement, supporting the 
livelihoods of Native artists and protecting Native communities from 
fraudulent practices.
    I have seen several locations selling items that were being passed 
as authentic. We have studied this art enough to note some inauthentic 
pieces being passed as authentic, and believe that if there is one 
piece on the shelf is fraudulent, they all are suspect. However, we 
have watched as other people bought these pieces believing them to be 
authentic, including jewelry, textiles (blankets) and pottery.
    This law needs stronger teeth and greater enforcement. Please 
stiffen the penalties and increase the enforcement so severely against 
fake Indian art that this fraudulent practice is not worth what these 
``con artists'' will lose.
                                Joe and Stephanie Cavanaugh
                                 ______
                                 
    I urge you to take measures to strengthen the Indian Arts and 
Crafts Act of 1990. I have been a longtime purchaser and collector of 
Native American art and jewelry. Our native artists have faced an 
onslaught of cheap foreign producers flooding the market with knockoffs 
and imitations.
    Unfortunately, many people associate Indian jewelry with cheaply 
produced items, many of which are mass-produced overseas with fake 
turquoise and other materials. This cheats both consumers and 
producers. Additionally, labels used to identify native art are 
confusing.
    These practices undercut local markets, local jobs, and local 
economies as well as deceive consumers. High quality native artwork 
commands top dollar because of the skill and artistry involved as well 
as the uniqueness of the product. Many of us are more than willing to 
purchase American Indian art, handicrafts, and jewelry at fair market 
value, ensuring that the products are both authentic and priced to 
reflect fair market wages.
    Please develop ways to better protect American jobs and local 
economies through labeling, enforcement, and other measures to ensure 
the authenticity of Native American arts and crafts.
        Thank you.
                                   Cynthia F. Van Der Wiele
                                                        Durham, NC.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
